<html>
<title> - SALMON RECOVERY ON THE COLUMBIA AND SNAKE RIVERS</title>
<body><pre>[Senate Hearing 105-944]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 105-944
 
            SALMON RECOVERY ON THE COLUMBIA AND SNAKE RIVERS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                DRINKING WATER, FISHERIES, AND WILDLIFE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 8, 1998

                               __________



  Printed for the use of the Committee on Environment and Public Works

                               -----------

                     U.S. GOVERNMENT PRINTING OFFICE
53-120 CC                    WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred fifth congress
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

        Subcommittee on Drinking Water, Fisheries, and Wildlife

                    DIRK KEMPTHORNE, Idaho, Chairman

CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        FRANK R. LAUTENBERG, New Jersey
JOHN W. WARNER, Virginia             JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             RON WYDEN, Oregon

                                  (ii)


                            C O N T E N T S

                                                                   Page

                            OCTOBER 8, 1998
                           OPENING STATEMENTS

Chafee, Hon. John H., U.S. Senator from the State of Rhode Island    22
Kempthorne, Hon. Dirk, U.S. Senator from the State of Idaho......     1
    Articles:
        A Tern for the Worse.....................................     7
        Birds One of Many Threats to Salmon Survival.............     8
    Charts.......................................................   5-7
    Letters:
        Federal Interagency Group................................     9
        Fish and Wildlife Service................................10, 13
        Members of Congress to Fish and Wildlife Service.........    12
        Northside Canal Company..................................    14
            Attachment, Columbia River Predation.................    15
        From Senator Kempthorne.................................. 20-22
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........    68

                               WITNESSES

Cloud, Joseph, Professor of Zoology, Department of Biological 
  Sciences, University of Idaho, Moscow, ID......................    28
    Prepared statement...........................................    90
Consenstein, Danny, Columbia Basin Coordinator, National Marine 
  Fisheries Service, Seattle, WA.................................    50
    Prepared statement...........................................   112
Craig, Hon. Larry, U.S. Senator from the State of Idaho..........    23
    Prepared statement...........................................    74
Fisher, Richard K., Jr., vice president for technology, Voith 
  Hydro, Inc., York, PA..........................................    30
    Prepared statement...........................................    92
    Report, Advanced Hydropower Turbine System Program, Voith 
      Hydro, Inc.................................................    98
Mogren, Colonel Eric, Deputy Commander, Northwest Division, Army 
  Corps of Engineers, Portland, OR...............................    46
    Prepared statement...........................................   110
Roby, Daniel D., Oregon Cooperative Fish and Wildlife Research 
  Unit...........................................................    26
    Prepared statement...........................................    79
Smith, Hon. Gordon, U.S. Senator from the State of Oregon........    33
    Letter, from Fish and Wildlife Service.......................    75
    Prepared statement...........................................    74

                          ADDITIONAL MATERIAL

Articles:
    A Tern for the Worse, The Oregonian..........................     7
    Birds One of Many Threats to Salmon Survival, The Oregonian..     8
Letters:
    Federal Interagency Group....................................     9
    Fish and Wildlife Service................................10, 13, 75
    From Senator Kempthorne to Federal agencies.................. 20-22
    Governor of Oregon, John Kitzhaber...........................    71
    Idaho Water Users Association................................    69
    Members of Congress to Fish and Wildlife Service.............    12
    Montana Water Users Association..............................    70
    National Audubon Society.....................................    72
    Northside Canal Company......................................    15
    Northwest Sportfishing Industry Association..................    72
    NW Environmental Sciences....................................    73
    Oregon Trout.................................................    73
    Oregon Water Resources Congress..............................    69
    Save Our Wild Salmon.........................................    71
    Trout Unlimited..............................................    73
    Washington State Senator Bob Morton..........................    79
    Washington State Water Users Association.....................    70
Reports:
    Advanced Hydropower Turbine System Program, Voith Hydro, Inc.    98
    Hydropower and U.S. Initiatives on Reducing Greenhouse Gas 
      Emissions..................................................   102
    Hydropower's Contribution to Carbon Dioxide Emission 
      Reduction, James E. Francfort..............................   108
Statements:
    Burns, Hon. Conrad, U.S. Senator from the State of Montana...    76
    Chenoweth, Hon. Helen, U.S. Representative from the State of 
      Idaho......................................................    77
        Letter from Washington State Senator Bob Morton..........    79


            SALMON RECOVERY ON THE COLUMBIA AND SNAKE RIVERS

                              ----------                              


                       THURSDAY, OCTOBER 8, 1998

                               U.S. Senate,
         Committee on Environment and Public Works,
   Subcommittee on Drinking Water, Fisheries, and Wildlife,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room 406, Senate Dirksen Building, Hon. Dirk Kempthorne 
[chairman of the committee] presiding.
    Present: Senators Kempthorne and Chafee [ex officio].
    Also present: Senators Craig and Smith of Oregon.

          OPENING STATEMENT OF HON. DIRK KEMPTHORNE, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Kempthorne. Ladies and gentlemen, I'll call this 
hearing to order.
    Welcome all of you. I look forward to the discussion that 
we'll have this morning, and I appreciate all of our witnesses 
that are joining us today. I also want to acknowledge and thank 
the Chairman of the Full Environment and Public Works 
Committee, Senator Chafee, for joining us this morning.
    It is an interesting commute today--what normally is 35 
minutes is now 1 hour and 20 minutes, and we are now here in 
dry areas, so we'll go ahead with our hearing.
    I have called today's oversight hearing to bring us up to 
date on some developing issues in the complex, but vitally 
important, matter of restoring the runs of specific salmon and 
steel head to the Columbia-Snake River System.
    The recovery of the salmon is intertwined with contrary 
goals, political and personal philosophies, and the economic 
realties of 21st century America. We have pursued the recovery 
of this fish with the wealth of a nation, and we have so far 
little or nothing to show for it.
    The debate over salmon have centered around the use of 
water resources to provide an alternative to the operation of 
the Federal dams on the Columbia-Snake Rivers. The recovery of 
the salmon in the Columbia-Snake River system will never occur 
if the debate continues to focus solely on the dams. Recovery 
of the salmon must take into account all phases of the salmon's 
life cycle. We will not solve the 5,000 mile problem with a 100 
mile solution. A new management philosophy must be utilized. A 
sharper focus on a number of factors is called for.
    Recovery of the salmon will never be achieved by looking at 
just one problem or just one solution. The salmon will be 
restored to sustainable levels only by addressing each portion 
of their habitat during each phase of their life cycle.
    If that were not enough of a challenge, any plan to recover 
the salmon must be adaptive and flexible enough to respond to 
changing conditions. We will not save the salmon with a silver 
bullet. We will not save salmon by ignoring the legitimate 
interests of the States, tribes, communities, families and the 
businesses that depend on the resources of the Columbia-Snake 
Rivers. Each sector will have to make concessions, and each 
State will have to do its part.
    It has become common to see a chart depicting a precipitous 
decline of salmon and steel head since the last four dams were 
built on the Snake River. From a larger perspective, however, 
the observed declines began many years before them.
    This is the Corps of Engineers' chart of salmon and steel 
head numbers in the Columbia-Snake River system that we 
commonly use. It is widely used to describe how the fish have 
declined since the introduction of the dams. When I first 
looked at this particular chart, I noticed two things--first, 
it appeared to me that the runs had largely declined before the 
first dam was built; and, second, somehow the Bonneville Dam 
appears on this chart in 1925, rather than in June of 1938. I 
checked with the Corps, and they attributed this to a computer 
error. They confirmed that the Bonneville Dam was indeed put on 
line and constructed in 1938.
    More importantly, were the fish runs devastated by the 
building of the dams, especially the four lower Snake River 
dams? What I found was interesting, and I think, a little 
disturbing.
    These next charts--and, again, these are--I don't know of 
anyone who will be able to see those numbers--but this table 
from the Corps of Engineers' Annual Fish Passage Report gives 
the number of salmon and steel head returning upstream past 
Bonneville. The point is I was surprised to find that the total 
returning salmon was many times smaller than those shown in the 
graph. The graph shows total returns declining from four 
million in 1940 to two million in 1995.
    Table 20 shows total returns moving up and down annually 
around an average of about 600,000 fish between 1940 and 1997. 
I have drawn a line on the graph at 600,000 fish. This shows me 
that most of the decline in salmon returning to the river 
system occurred in the decades before we began building dams, 
and it seems that somehow we have been able to maintain 
returning numbers at a very low but steady 600,000 fish. Then I 
looked more closely at the fish returns in the lower Snake 
River. Now, here are the dates of each of the four lower Snake 
River dams--Ice Harbor was 1961, Lower Monumental was 1969, 
Little Goose, 1970, and Lower Granite, 1975.
    Then on the next chart from Table 121 for Ice Harbor Dam, I 
found that instead of declining over time, the salmon returning 
have remained fairly steady. It appears they are now 
fluctuating around a 10-year average of 130,000 fish at Ice 
Harbor. Similar data are available from the Lower Granite Dam 
from 1975 to 1997, which seemed to fluctuate around 108,000 
fish. In fact, last year's return at Lower Granite was almost 
133,000 fish.
    Now, I do not pretend to be a statistician or fisheries 
biologist, but it does make sense to me that contrary to 
conventional wisdom most of the decline in the Columbia Snake 
River System fish occurred before 1935, and the runs of 
returning fish have remained at a very low but constant level.
    Yes, we built dams and we continue the extravagant harvest 
of this fish both in the river and the sea. We introduced new 
predators, we made conditions easier for native predators and 
we have flooded the river with masses of cookie-cutter hatchery 
fish. I believe that while we debate at great length and in 
excruciating detail the future uses of four run of the river 
dams in the lower Snake River we're nearly ignoring several 
essential truths about salmon recovery. It is clear to me that 
we must look at ocean conditions, we must reverse the decline 
and genetic diversity of the salmon and steelhead runs, and we 
must get harvest and predation under control. Without these 
changes and management of the river, there is no hope that 
these changes will have much effect.
    [The prepared statement of Senator Kempthorne follows:]
Statement of Hon. Dirk Kempthorne, U.S. Senator from the State of Idaho
    Good morning. I have called today's oversight hearing to bring us 
up to date on some developing issues in the complex, but vitally 
important matter of restoring the runs of Pacific salmon and steelhead 
to the Columbia/Snake River system.
    The recovery of the salmon is intertwined with contrary goals, 
political and personal philosophies, and the economic realities of 21st 
century America. We have pursued the recovery of these fish with the 
wealth of a nation and we have, so far, little or nothing to show for 
it.
    The debate over salmon has centered around the use of water 
resources to provide an alternative to the operation of the Federal 
dams on the Columbia and Snake rivers. The recovery of the salmon in 
the Columbia/Snake River system will never occur if the debate 
continues to focus solely on the dams. Recovery of the salmon must take 
into account all phases of the salmon's life cycle. We will not solve a 
5,000-mile problem with a 100-mile solution. A new management 
philosophy must be utilized. A sharper focus on a number of factors is 
called for.
    Recovery of the salmon will never be achieved by looking at just 
one problem or just one solution. The salmon will be restored to 
sustainable levels only by addressing each portion of their habitat 
during each phase of their life cycle. If that were not enough of a 
challenge, any plan to recover the salmon must be adaptive and flexible 
enough to respond to changing conditions. We will not save the salmon 
with a silver bullet. We will not save salmon by ignoring the 
legitimate interests of the States, tribes, communities, families and 
the businesses that depend on the resources of the Snake and Columbia 
rivers. Each sector will have to make concessions and each State will 
have to do its part.
    It has become common to see a chart depicting a precipitous decline 
of salmon and steelhead since the last four dams were built on the 
Snake River. From a larger perspective however, the observed declines 
began many years before then.
    [Display of chart of fish runs before Bonneville was built]
    Yes, we built dams. And, we continued the extravagant harvest of 
this fish both in the river and the sea. We introduced new predators. 
We made conditions easier for native predators. And we flooded the 
river with masses of cookie-cutter hatchery fish.
    I believe that while we debate at great length and in excruciating 
detail the future uses of four run-of-river dams in the lower Snake 
River, we are nearly ignoring several essential truths about salmon 
recovery. It is clear to me that we must look at ocean conditions. We 
must reverse the decline in genetic diversity of the salmon and 
steelhead runs. And we must get harvest and predation under control. 
Without these changes in our management of the river, there is no hope 
that other changes will have much effect.
    In today's first panel we have asked three scientists and engineers 
to share with us some of their work on these essential issues. Our 
first witness, Dr. Roby began an overview study of avian predation on 
the Columbia/Snake River system several years ago. In the course of 
that study, he discovered that one particular species, the Caspian 
tern, was having an inordinate effect on the outmigrant salmon smolts 
due to its preferred method of fishing and the location of its nesting 
colony. We are hoping to explore with today's witnesses the possibility 
of non-lethal means to control this excessive predation.
    Our second witness is Dr. Cloud, a fish geneticist, who has been 
studying the genetic effects of hatchery fish on the wild runs of 
salmon and steelhead. In addition, Dr. Cloud has made a proposal for a 
gene bank for native Northwest fish that will give some insurance that 
we can preserve some of the declining genetic diversity for future use.
    The third witness is Richard Fisher who works for the Voith Hydro 
Power generation company. In his work at Voith, Mr. Fisher oversees the 
development of new technologies, including the Advanced Hydropower 
Program authorized through the Water Resources Development Act.
    In the second panel we will hear how our Agencies have been 
responding to these issues. I hope that as a result of this hearing we 
can look forward to new ways to incorporate information coming from our 
scientists and engineers.
    We will hear from Colonel Eric Mogren of the Corps of Engineers how 
the agency has been responding to the avian predator issue, and the 
advanced hydropower technology opportunity.
    Rolland Schmitten, representing the National Marine Fisheries 
Service will discuss the avian predator issue, the hatchery and harvest 
issues, and will have comments on advanced hydropower.
    I want to note at this time that the Regional Director of the U.S. 
Fish and Wildlife Service that was invited has not been able to attend 
this hearing. I understand that she has recently assumed the 
Directorship, and that there are many urgent matters that require her 
attention. I have been assured that the Service wants to play a 
constructive role in crafting the final decision of the Interagency 
Task Force on the Caspian tern and recognizes the critical importance 
of this issue. The Service has asked David Wesley to be here today to 
answer our questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                 [From the Oregonian, October 1, 1998]
                          A Tern for the Worse
  rice island birds gobble up more juvenile salmon than the corps of 
                 engineers moves around dams each year
    They're tiny next to the great concrete dams of the Columbia and 
Snake Rivers. Their harsh ``kraa'' sound is no match for the mighty 
roar of the dams' electric turbines. Northwest policy types don't 
convene high-toned gatherings to debate whether they should be removed 
in order to save the endangered salmon. But the gull-like Caspian tern 
that makes its home on Rice Island in the Columbia River may be inch 
for inch, a greater threat to Northwest salmon than the region's man-
made dams.
    And, thanks to Oregon Rep. Bob Smith these salmon munching devils 
may soon be receiving the attention they deserve.
    The Second Congressional District lawmaker and House Agriculture 
Committee chairman has had the sanity to develop a near obsession over 
this maddening reality: The Pacific Northwest is now debating proposals 
to breach or draw down dams on the Columbia and Snake--with the 
attendant economic consequences to the region's industries and 
communities--in order to protect endangered salmon while Rice Island's 
Caspian terns gobble up 6 to 20 million salmon smolts a year.
    Rice Island is at the mouth of the Columbia, where salt water and 
fresh water mix. Salmon smolts pause there, getting used to the sea 
water before heading to the ocean.
    Dams and electric production and irrigation pumps, it seems, are 
not the only salmon-unfriendly things on the Columbia. Before anybody 
disrupts these vast human enterprises, we should combat all animal 
obstacles to the Northwest's signature fish.
    And now a little context. Remember the 6 to 20 million salmon 
smolts that the terns snapped up? As Smith and other Northwest 
Congressmen said in a recent letter to the U.S. Fish and Wildlife 
Service that's more smolts than the Army Corps of Engineers transported 
around the dams of the Columbia and Snake in all of 1997.
    Indeed, the lawmakers noted that a National Marine Fisheries 
Service study funded by the Bonneville Power Administration and the 
Corps found these astonishing preliminary results for 1997: Caspian 
terns, cormorants and gulls consumed between 20 percent to 50 percent 
of all the salmon smolts entering the Lower Columbia River.
    All this ``avian predation'' as the region's electric rate payers 
and the nation's taxpayers are dishing out funds--not chicken feed, you 
can be sure--to make life less nasty, brutish and short for salmon in 
the Columbia River and its tributaries.
    Question: How are we ever to judge the effectiveness of the costly 
salmon recovery programs upstream when the Rice Island terns are 
feasting on the tiny fruits of these programs downstream?
    ``Hundreds of millions of dollars are spent every year on the 
Columbia River salmon mitigation program, a good portion of which is 
used to increase smolt survival past the river's dams,'' the lawmakers 
wrote to Anne Badgley, regional director of the U.S. Fish and Wildlife 
Service. ``It now looks like a significant amount of that money is 
being used to feed the bird colonies that nest along the Columbia 
River.''
    Feed them quite nicely, it seems.
    The Congressmen aren't advocating killing off Rice Island's Caspian 
terns. But they do think moving the terns off Rice Island by next 
spring would be a great start. How? By using nonlethal means--say, 
other animals or humans to harass these birds during their 2-week 
nesting period. In addition, the lawmakers also would like to see a 
longer term, more comprehensive effort to combat ``avian predation on 
protected salmon.''
    This all sounds swell, but leads to another question. Given all the 
millions we've spent on managers who are supposed to make the world 
safer for salmon, given the years we've talked of the salmon crisis and 
given the fact that some are now seriously chatting up taking out dams, 
why does it take a group of Congressmen to get action?
    The U.S. Fish and Wildlife Service--the agency responsible for 
protecting these birds under the Migratory Bird Treaty Act--has signed 
a letter with other agencies vowing to address the ``avian predation'' 
on salmon smolts in the Columbia River. Bravo. But a Smith aide points 
put that the Fish and Wildlife Service signed on just 3 days before 
Smith and congressional crew sent their letter and after months of 
``hemming and hawing.''
    Now the bipartisan contingent of Congressmen will be looking for 
specific action, short and long term. If they don't see some, they 
promise a legislative fix.
    Bravo. Any more delay is for the birds.
                                 ______
                                 
                 [From The Oregonian, October 6, 1998]
              Birds One of Many Threats to Salmon Survival
 (By Thomas J. Dwyer, Deputy Regional Director, U.S. Fish and Wildlife 
                                Service)
    In his column, David Reinhard suggests that Caspian terns may be a 
bigger cause of Columbia River Basin salmon declines than the region's 
man-made dams. While the U.S. Fish and Wildlife Service agrees that 
bird predation on juvenile salmon may be a problem, and we are working 
with other Federal agencies to address it, the significance of this 
natural predation to wild salmon is unclear.
    The potential losses of juvenile salmon to such predation must be 
considered along with the many other sources of mortality that salmon 
encounter. Preventing Caspian terns from eating young salmon should not 
be seized upon as the silver bullet that will restore wild salmon and 
save the region from addressing larger, more challenging causes of 
salmon decline, such as dams and habitat loss.
    As many as 200 million salmon smolts head downriver in the Columbia 
Basin each year, most of them hatchery fish. A very high percentage of 
the smolts die before they reach the estuary where the seabirds live. 
Given this, we believe other mortality factors more significantly limit 
salmon recovery in comparison to bird predation. While we are 
cooperating to address the predation issue, focusing salmon recovery 
efforts on bird predation control may lead to actions that do not 
effectively address the immediate problem of smolt survival or the 
ultimate goal of wild salmon recovery.
    A 1997 study indicated that Caspian terns nesting on Rice Island 
near the mouth of the Columbia may consume 3 percent to 12 percent of 
all salmon smolts produced in the basin each year, as opposed to the 20 
percent to 50 percent cited by Reinhard. Although the number of 
federally protected wild salmon consumed by the birds is unknown, 
hatchery fish appear to feed closer to the surface and do not 
effectively avoid predation, making them more susceptible to predation 
than wild fish. Research also indicates that salmon smolts that have 
been transported by barge or truck, and delayed or stressed by passing 
through dams, are less ready to enter salt water, and therefore are 
weaker and more vulnerable to predation when they enter the estuary.
    The Fish and Wildlife Service--responsible for protecting terns--
has participated since last spring in a Federal working group to 
examine the effects of tern predation on salmon smolts. Despite 
Reinhard's allegations, we have not been dragging our feet as a Federal 
agency to address this problem. The working group is developing a plan 
to move the birds from Rice Island to East Sand Island, closer to the 
Pacific Ocean, using a combination of non lethal strategies such as 
habitat enhancement, tern decoys and tapes of calling terns to lure the 
birds lo the other island. Preliminary research indicates that terns 
nesting on East Sand Island will have a wider variety of prey and 
subsequently eat fewer salmon smolts.
    While this short-term effort is appropriate, it does not take the 
place of a long-term, comprehensive strategy for salmon recovery that 
addresses all threats to salmon survival. Management of bird predation 
should be considered as one component of a comprehensive strategy to 
recover federally protected salmon populations. Continued emphasis on 
modifying hatchery practices, hydropower operations, barging schedules 
and releases, and improving natural habitat will continue to be 
critical to the recovery of wild salmon.
                                 ______
                                 
                 letter from federal interagency group
    To Caspian Tern Working Group:

    The National Marine Fisheries Service (NMFS), U.S. Army Corps of 
Engineers (Corps), U. S. Fish and Wildlife Service (FWS) are committed 
to working together to recover critically depressed salmonids in the 
Columbia River Basin. A number of naturally reproducing anadromous fish 
populations in the Columbia River Basin are now listed or proposed for 
listing under the Endangered Species Act. The NMFS has the principal 
responsibility for managing recovery of these listed salmonids, while 
the Corps has responsibility far maintaining the Columbia River 
navigation channel and the FWS has responsibility for protecting birds.
    As the agencies have invested recovery of listed species and the 
mitigation for lost habitat, numbers of avian predators feeding on 
juvenile salmonids in the migration corridor have increased. In 
addition to the major efforts under way to enhance habitat, restrict 
harvest, reform fish hatchery management, improve fish passage through 
the hydropower system, and adjust water management, we believe that it 
is important to address other factors that affect salmonid survival, 
such as avian predation.
    We, therefore, request that the Caspian Tern Working Group (CTWG) 
immediately: (1) complete development of a short-term strategy for 
reducing avian predation on listed salmonids in the Lower Columbia 
River estuary during the 1999 out-migration, (2) develop a monitoring 
and evaluation plan to determine whether the short-term goals are met 
and whether future actions are necessary, (3) complete the required 
environmental documentation, and (4) develop a budget for each action 
necessary to implement the short-term strategy so that each agency can 
make its decision on resource commitments for this effort.
    In order to assure completion of these tasks, NMFS will provide 
leadership for this effort and $20,000 in current year funding to 
prepare an Environmental Assessment. The Corps will prepare the 
environmental documentation and, as appropriate and subject to 
available funding, complete necessary site work on East Sand Island. 
The FWS will provide technical assistance in regards to compliance with 
the Migratory Bird Treaty Act and the 1999 tern relocation effort. We 
strongly urge the CTWG to complete its assignment in a timely manner 
that ensures implementation of the short-term efforts before the 1999 
nesting season.
    In addition to the short-term efforts, the agencies will continue 
to develop an appropriate long-term strategy to deal with bird 
predation on listed salmonids. An appropriate strategy must address, 
but not be limited to, (1) development of scientific information to 
evaluate the impact of predation on listed salmonids, (2) the 
ecological importance of waterbird colonies in the Columbia River 
estuary, and (a) the effects of ongoing human activities such as 
hydropower operation, channel maintenance, etc. as part of any proposed 
action. The goal of this effort should be the development of a long-
term adaptive plan for reducing avian predation on listed salmonids in 
the Columbia River estuary.
    The Federal agencies remain committed to participating in the 
development of a comprehensive recovery strategy for listed salmonids 
that address predation as well as habitat loss and degredation, 
hydropower system operation, hatchery management, and harvest 
regulation.
    Sincerely,
                                   Eric T. Mogren, Colonel,
                                                Corps of Engineers.

                           Anne Badgley, Regional Director,
                                    U.S. Fish and Wildlife Service.

               William Stelle, Jr., Regional Administrator,
                                 National Marine Fisheries Service.
                                 ______
                                 
               Letter from the Fish and Wildlife Service
                United States Department of the Interior,  
                                 Fish and Wildlife Service,
                                 Portland, Oregon, October 7, 1998.

    Hon. Dirk Kempthorne,
    U.S. Senate,
    Boise, ID 83702.

    Dear Senator Kempthorne: Thank you for your letter concerning avian 
predation on Columbia River salmon smolts. We appreciate the 
opportunity to provide you with information on this complex issue.
    The Fish and Wildlife Service (Service) is committed to working 
with the National Marine Fisheries Service (NMFS), which is the lead 
agency for salmon recovery, to ensure the continued survival of 
threatened and endangered Columbia River salmon. Although avian 
predation may be one factor affecting these listed species, we believe 
that it should not be considered in isolation from the broader context 
of other potentially more significant sources of smolt mortality such 
as dams, habitat loss and degradation, harvest, competition with 
hatchery reared fish, fish transportation, and fluctuating ocean 
conditions. The Service continues to assist NMFS and other agencies to 
address many of these factors. Since last spring we have been actively 
working to resolve the unanswered questions concerning the role of 
avian predation on salmon smolt survival. This letter summarizes 
efforts to address this issue undertaken to date and describes future 
plans.
    Currently, more than 10,000 nesting pairs of Caspian terns breed on 
Rice Island in the Columbia River estuary. It is the largest known 
Caspian tern colony in North America and perhaps the largest colony in 
the world. The birds began nesting on Rice Island in 1987. Rice Island 
was created by the Army Corps of Engineers (Corps) in 1962 for the 
deposit of navigation channel dredge spoils. The island is owned by the 
States of Oregon and Washington. In 1973, the Service began managing 
Rice Island as part of the National Wildlife Refuge System under an 
agreement with the State of Oregon. That lease expired in 1994.
    In 1995, the NMFS issued a biological opinion to the Corps on the 
operation of the Federal Columbia River power system that directed the 
Corps to conduct studies on Caspian tern predation on juvenile 
salmonids in the Columbia River. Beginning in 1957, the Corps and the 
Bonneville Power Administration (BPA) fielded a study conducted by 
Oregon State University and the Columbia River Inter-Tribal Fish 
Commission. The first year of this 3-year study has been completed, and 
the researchers have stated that at least 3 years of data will be 
needed to accurately measure avian predation on juvenile salmon. 
Additional work may be necessary to assess the impact of birds on 
listed stocks.
    The first year's report for the avian predation study found that 
the Caspian terns nesting on Rice Island consumed approximately 6 to 2 
million smolts. Clearly, this is a wide range but indicates that avian 
predation may account for about 3 to 12 percent of the hatchery and 
wild smolts produced in the basin. Although the percentage of 
endangered or threatened listed fish consumed by terns is unknown, 
hatchery-reared fish appear to be more susceptible to predation than 
wild fish. For instance, the higher vulnerability of hatchery smolts to 
tern predation could be expected as a product of rearing practices that 
condition young salmon to forage at the surface and otherwise weaken 
predator avoidance behaviors. Research also indicates that salmon 
smolts transported by barge or truck, and delayed or stressed by 
passing through dams, may be subject to higher rates of predation when 
they enter the estuary. Research is also needed to evaluate the 
assumption that the fish lost to bird predation would have survived to 
go into the ocean and return.
    As a result of preliminary information from this study, the NMFS, 
Corps, and Service established a multi-disciplinary team to consider 
potential management options for reducing avian predation on salmonid 
smolts while continuing data collection during the 1998 season. In a 
May 6, 1998 letter to the NMFS and Corps, the Service encouraged 
development of this interagency team. The Caspian Tern Working Group 
was established to address these issues and has been meeting regularly 
since last spring. Representatives from the Corps, NMFS, Service, BPA, 
USDA Wildlife Services, Oregon Department of Fish and Wildlife, 
Washington Department of Fish and Wildlife, Columbia River Inter-Tribal 
Fish Commission, and the researchers participate in the Caspian Tern 
Working Group meetings.
    The working group has developed a proposal to relocate the terns 
from Rice Island to East Sand Island, an island closer to the Pacific 
Ocean. during the 1999 breeding season. This process will use a 
combination of non-lethal strategies such as habitat enhancement on 
East Sand Island, tern decoys and tapes of calling terns to lure the 
birds to East Sand Island, and possibly habitat modification on Rice 
Island. Preliminary research indicates that terns nesting on Fast Sand 
Island will have a wider variety of prey resources and may subsequently 
reduce their consumption of salmon smolts. The Corps is in the process 
of drafting an Environmental Assessment to address the activities 
associated with relocating the terns. In addition, the working group 
will develop a monitoring plan and a budget for the proposed management 
actions. The actions were reconfirmed in a September 22, 1998 letter to 
the Caspian Tem Working Group and signed by the Service, Corps, and 
NMFS.
    The Service recognizes the importance of salmon recovery efforts in 
the Columbia Basin. We are a continuing participant in discussions on 
salmon recovery and will continue to play an advisory role with respect 
to avian predation. The NMFS has the principal responsibility for 
managing recovery of listed anadromous salmonids, the Corps has 
responsibility for operating the Columbia River power system and 
maintaining the Columbia River navigation channel, and USDA Wildliic 
Services provides expertise in managing problems caused by wildlife. 
Other organizations that may participate in this effort include the 
States of Oregon and Washington that own the islands and the Columbia 
River Inter-Tribal Fish Commission that represent the anadromous fish 
interests of the Columbia River treaty Tribes.
    Although the Service acknowledges the importance of hatchery-reared 
fish in the region, our primary focus is on actions that may benefit 
threatened and endangered wild salmon. We recognize the importance of 
every wild smolt in the Columbia River to the survival of the 
endangered salmon populations. For example, Snake River chinook 
mortality is reported to be between 56 and 70 percent prior to reaching 
the estuary where the terns nest. Mortality factors include impeded 
passage from dams and other waterway modifications; loss and 
degradation of spawning, rearing, and feeding habitat; harvest 
activities; conflicts with hatchery-reared fish; compromised health 
from transportation practices; and fluctuating ocean conditions. As a 
result of these and other factors, less than 1 percent of juvenile 
salmon survive to adulthood. Because of the large percentage of 
juvenile salmon lost before reaching the estuary and the large 
mortality occurring after they leave the estuary, we believe that other 
mortality factors more significantly limit salmon recovery in 
comparison to avian predation.
    In summary, the Service has actively supported the NMFS's 
leadership on salmon recovery and will continue to do so. Evaluation of 
avian predation is only one of the many areas in which NMFS is 
attempting to address recovery of listed salmonids. There remain many 
important unanswered questions about the extent and effect of avian 
predation on wild salmon. We encourage development of a long-term 
strategy for salmon recovery that addresses all the mortality factors. 
We appreciate your interest in this issue and will work with the NMFS 
and Corps to keep you informed. Should you have any further questions, 
please do not hesitate to contact me or Carol Schuler, Deputy State 
Supervisor, Oregon State Office, at (503/231-6179).
            Sincerely,
                    Thomas Dwyer, Acting Regional Director.
                                 ______
                                 
    Letter from Members of Congress to the Fish and Wildlife Service
                             Congress of the United States,
                                                September 24, 1998.

    Anne Badgley,
    Regional Director, Region I,
    U.S. Fish and Wildlife Service,
    Portland, Oregon 97232.

    Dear Ms. Badgley: We are very concerned with the extent of salmon 
smolt mortality due to avian predation in the Columbia River. In 
particular, we are concerned with predation by the Caspian tern 
population nesting on Rice Island. While regional study results are 
preliminary, they suggest that avian predation in the lower Columbia 
River on salmon smolts, including threatened and endangered salmon, is 
significant. Draft results for the 1997 salmon migratory season show 
that between 20-50 percent of all salmon smolts entering the Lower 
Columbia River estuary are consumed by Caspian terns, cormorants, and 
gulls. It is estimated that the adult Caspian tern population on Rice 
Island alone consumed from 6 to 20 million smolts. That is more salmon 
smolts than the Corps of Engineers transported around dams in the 
Columbia and Snake River during the same year.
    Based on the preliminary results of the study, it is clear that 
action must be taken to reduce avian predation on salmon smolts. The 
regional electric ratepayers, and U.S taxpayers cannot continue to fund 
salmon mitigation efforts along the Columbia River and its tributaries 
without also managing the bird colonies that prey on the young salmon. 
Hundreds of millions of dollars are spent every year oil the Columbia 
River salmon mitigation programs, a good portion of which is used to 
increase smolt survival past the river's dams. It now looks like a 
significant amount of that money is being used to feed the bird 
colonies that nest along the Columbia River.
    In light of the significant proportion of smolts the Caspian terns 
at Rice Island are estimated to have consumed, relocating the terns 
from Rice Island next spring would be a good start toward managing the 
problem. In the longer term, a more comprehensive effort to address 
avian predation on protected salmon is certainly justified. It is our 
understanding that your agency reached an agreement with other Federal 
agencies to address avian predation on salmon in the Columbia River. 
This is very encouraging. The importance of cooperation among the 
Federal agencies with jurisdiction over this issue cannot be over 
emphasized.
    In light of your responsibility to protect these birds under the 
Migratory Bird Treaty Act and the conflict this present for protection 
of listed salmon, we would like a detailed explanation of the steps 
your agency is taking to prevent predation by the terns during next 
spring's migratory season. This explanation should include an 
indication of the amounts of funding your agency will spend to carry 
out this action. In addition, we would like a description of the steps 
your agency is taking to develop and implement a long-term management 
program for all the avian populations preying on the region's salmon 
runs. Finally, your explanation should address continued monitoring and 
evaluation of this situation.
    We are confident that with cooperation among the Federal and state 
agencies, salmon smolt mortality due to avian predation can be 
significantly reduced. Thank you for your attention to this matter. We 
look forward to working with you on this issue and anticipate your 
timely response to our questions.
            Sincerely,
                                     Robert F. (Bob) Smith,
                                                Member of Congress.

                                              Doc Hastings,
                                                Member of Congress.

                                              Jack Metcalf,
                                                Member of Congress.

                                         George Nethercutt,
                                                Member of Congress.
      
                                                Adam Smith,
                                                Member of Congress.

                                                Mike Crapo,
                                                Member of Congress.

                                               Linda Smith,
                                                Member of Congress.

                                           Helen Chenoweth,
                                                Member of Congress.

                                                Norm Dicks,
                                                Member of Congress.

                                                Rick White,
                                                Member of Congress.
                                 ______
                                 
               Letter from the Fish and Wildlife Service
                         U.S. Department of the Interior,  
                                 Fish and Wildlife Service,
                                 Portland, Oregon, October 7, 1998.

    Hon. Robert Smith,
    Medford, Oregon 97504.
    Dear Congressman Smith: Thank you for your letter concerning avian 
predation on Columbia River salmon smolts. We appreciate the 
opportunity to provide you with information on this complex issue.
    The Fish and Wildlife Service (Service) is committed to working 
with the National Marine Fisheries Service (NMFS), which is the lead 
agency for salmon recovery, to ensure the continued survival of 
threatened and endangered Columbia River salmon. Although avian 
predation may be one factor affecting these listed species, we believe 
that it should not be considered in isolation from the broader context 
of other potentially more significant sources of smolt mortality such 
as dams, habitat loss and degradation, harvest, competition faith 
hatchery reared fish, fish transportation, and fluctuating ocean 
conditions. The Service continues to assist NMFS and other agencies to 
address many of these factors. Since last spring we have been actively 
working to resolve the unanswered questions concerning the role of 
avian predation on salmon smolt survival This letter summarizes efforts 
to address this issue undertaken to date and describes future plans.
    Currently, more than 10,000 nesting pairs of Caspian terns breed on 
Rice Island in the Columbia River estuary. It is the largest known 
Caspian tern colony in North America and perhaps the largest colony in 
the world. The birds began nesting on Rice Island in 1987. Rice Island 
was created by the Army Corps of Engineers (Corps) in 1962 for the 
deposit of navigation channel dredge spoils. The island is owned by the 
States of Oregon and Washington. In 1973, the Service began managing 
Rice Island as past of the National Wildlife Refuge System under art 
agreement with the State of Oregon. That lease expired in 1994.
    In 1995, the NMFS issued a biological opinion to the Corps on the 
operation of the Federal Columbia River power system that directed the 
Corps to conduct studies on Caspian tern predation on juvenile 
salmonids in the Columbia River. Beginning in 1997, the Corps and the 
Bonneville Power Administration (BPA) fielded a study conducted by 
Oregon State University and the Columbia River Inter-Tribal Fish 
Commission. The first year of this 3-year study has been completed, and 
the researchers have stated that at least 3 years of data will be 
needed to accurately measure avian predation on juvenile salmon. 
Additional work may be necessary to assess the impact of birds on 
listed stocks.
    The first year's report for the avian predation study found that 
the Caspian terns nesting on Rice Island consumed approximately 6 to 25 
million smolts. Clearly, this is a wide range but indicates that avian 
predation may account for about 3 to 12 percent of the hatchery and 
wild smolts produced in the basin. Although the percentage of 
endangered or threatened listed fish consumed by terns is unknown, 
hatchery reared fish appear to be more susceptible to predation than 
wild fish. For instance, the higher vulnerability of hatchery smolts to 
tern predation could be expected as a product of rearing practices that 
condition young salmon to forage at the surface and overwise weaken 
predator avoidance behaviors. Research also indicates that salmon 
smolts transported by barge or truck, and delayed or stressed by 
passing through dams, may be subject to higher rates of predation when 
they enter the estuary. Research is also needed to evaluate the 
assumption that the fish lost to bird predation would have survived to 
go into the ocean and return.
    As a result of preliminary information from this study, the NMFS, 
Corps, and Service established a multi-disciplinary team to consider 
potential management options for reducing avian predation on salmonid 
smolts while continuing data collection during the 1998 season. In a 
May 6, 1998 letter to the NMFS and Corps, the Service encouraged 
development of this interagency team. The Caspian Tem Working Group was 
established to address these issues and has been meeting regularly 
since last spring. Representatives from the Corps, NUTS, Service BPA, 
USDA Wildlife Services, Oregon Department of Fish and Wildlife, 
Washington Department of Fish and Wildlife, Columbia River Inter-Tribal 
Fish Commission, and the researchers participate in the Caspian Tern 
Working Group meetings.
    The working group has developed a proposal to relocate the terns 
from Rice Island to East Sand Island, an island closer to the Pacific 
Ocean, during the 1999 breeding season. This process will use a 
combination of non-lethal strategies such as habitat enhancement on 
East Sand Island, tern decoys and tapes of calling terns to lure the 
birds to East Sand Island, and possibly habitat modification on Rice 
Island. Preliminary research indicates that terns nesting on East Sand 
Island will have a wider variety of prey resources and may subsequently 
reduce Weir consumption of salmon smolts. The Corps is in the process 
of drafting an Environmental Assessment to address the activities 
associated with relocating the terns. In addition, the working group 
will develop a monitoring plan and a budget for the proposed management 
actions. The actions were reconfirmed in a September 22, 1998 letter to 
the Caspian Tem Working Group and signed by the Service, Corps, and 
NMFS.
    The Service recognizes the importance of salmon recovery efforts in 
the Colombia Basin. We are a continuing participant in discussions on 
salmon recovery and will continue to play an advisory role with respect 
to avian predation. The NMFS has the principal responsibility for 
managing recovery of listed anadromous salmonids, the Corps has 
responsibility for operating the Columbia River power system and 
maintaining the Columbia River navigation channel, and USDA Wildlife 
Services provides expertise in managing problems caused by wildlife. 
Over organizations that may participate in this effort include the 
States of Oregon and Washington that own the islands and the Columbia 
River Inter-Tribal Fish Commission that represent the anadromous fish 
interests of the Columbia River treaty Tribes.
    Although the Service acknowledges the importance of hatchery reared 
fish in the region, our primary focus is on actions that may benefit 
threatened and endangered wild salmon. We recognize the importance of 
every wild small in the Columbia River to the survival of the 
endangered salmon populations. For example, Snake River chinook 
mortality is reported to be between 56 and 70 percent prior to reaching 
the estuary where the terns nest. Mortality factors include impeded 
passage from dams and other waterway modifications; loss and deflation 
of spawning, rearing, and feeding habitat; harvest activities, 
conflicts with hatchery reared fish, compromised health from 
transportation practices; and fluctuating ocean conditions. As a result 
of these and other factors, less than 1 percent of juvenile salmon 
survive to adulthood. Because of the large percentage juvenile salmon 
lost before reaching Me en and the large mortality occurring after they 
leave the estuary, we believe that other mortality factors more 
significantly limit salmon recovery in comparison to avian predation.
    In summary, the Service has actively supported the NMFS's 
leadership on salmon recovery and will continue to do so. Evaluation of 
avian predation is only one of the many areas in which NMFS is 
attempting to address recovery of listed salmonids. There remain many 
important unanswered questions about the extent and effect of avian 
predation on wild salmon. We encourage development of a long-term 
strategy for salmon recovery that addresses 1 the mortality factors. We 
appreciate your interest in this issue and vail work with the NMFS and 
Corps to keep you informed. Should you have any further questions, 
please do not hesitate to contact me or Carol Schuler, Deputy State 
Supervisor, Oregon State Office, at (5031231-6179).
            Sincerely,
                    Thomas Dwyer, Acting Regional Director.
                                 ______
                                 
                Letter from the Northside Canal Company
                                                     July 22, 1998.

    Mr. Will Stelle, Jr.,
    Northwest Regional Administrator,
    National Marine Fisheries Service,
    Seattle, WA 98115-0070.

    Dear Mr. Stelle: Over the past many years, I have continually 
identified to NMFS and the Northwest Power Planning Council our concern 
about the potential significance of harvest and predator mortalities 
and their effect on the regional recovery programs. Generally, I 
conclude that these issues continue unabated and probably prevent a 
successful recovery program. During my preparation of these comments, I 
also became more keenly aware of the status of the anadromous fish 
screening program and included some related comments on this issue 
because of its mortality contributions.
    Please find enclosed my latest calculations and conclusions 
regarding salmonid mortality caused by: (1) fish predation; (2) avian 
predation; (3) pinnipeds; (4) unscreened diversions; and (5) harvest. 
These observations are based upon actual regional studies and I believe 
that they are reliable. If you have information which suggests that any 
of this data is wrong, or that the abbreviated calculations have been 
done incorrectly, please provide me with the corrections. In following 
the progress and reports of PATH, it is apparent that the group's 
retrospective and prospective analyses have not directly addressed the 
above mortalities. Specifically, PATH has not addressed the potential 
for improving salmonid survival by reducing the above-noted 
mortalities, as part of its determination of ``robust'' survival and 
recovery actions.
    As stated in my letter to you dated June 30, 1998, those of us that 
provide water for flow augmentation are fearful that inadequate 
attention is being given to those obvious causes of mortality which can 
be addressed with practical solutions. This, coupled with the lack of 
evidence to justify the current flow augmentation program, deserves 
NMFS' most serious and immediate attention.
    The purpose of this communication is to convey the message that 
significant mortality causes exist that are feasible to correct, but me 
not being addressed. We firmly believe that continued avoidance of 
these issues and continued pursuit of unnecessary, drastic and unproven 
endeavors will destine the anadromous fish recovery effort to failure, 
or unreasonably extend its time and cost with no improvements. Simply 
put, we doubt that the region will accept this scenario without 
serious, prolonged convict.
    Lastly, we wish to remind NMFS that even after the extensive 
efforts directed to recovery, we calculate the estimated 1998 Snake 
River spring/summer chinook SAR to be 0.3 to 0.4 percent. Based on the 
preliminary PIT tagged ocean returnees 1998 (of the 1996 juvenile out-
migration class) and the 1998 jack returns, significant future 
improvements in Idaho's SARs are not anticipated--certainly not near 
the 2 to 6 percent SAR estimated as necessary for recovery. Obviously, 
other practical things must be done to achieve success. Accordingly, we 
have suggested some actions that should have been taken earlier or 
should be taken now. Even if the enclosed estimates are in error by 50 
percent, such suggested actions may result in significantly improved 
spawner numbers by 100 percent or more.
    In the words of a NMFS official quoted at a July 1,1938 meeting in 
Seattle, ``If we have it wrong help us set it right.''
    Thank you for your consideration.
            Sincerely,
                                     DeWitt Moss, Director,
            North Side Canal Company and Member, Committee of Nine.
                                 ______
                                 
                               attachment
                        Columbia River Predation
    Consider the following:
    1. The largest double crested cormorant colony in the Columbia 
River Basin (6,000 nesting pairs) is at East Sand Island in the 
estuary. Preliminary diet samples suggests that cormorants in the 
estuary are specializing on juvenile salmonids during some phases of 
the nesting season. The population has increased 168 percent over the 
past 5 years.
    2. The Caspian tern colony on Rice Island is currently the largest 
in North America (over 8,000 nesting pairs) The population has 
increased 641 percent over the past 12 years. OSU estimates that 
between 6 to 20 million salmonids were consumed by the Caspian terns at 
Rice Island in 1997.
    Two major gull colonies exist in the Richland, WA area and numbered 
35,000 nesting pairs in 1996. In 1986 Ruggerone estimated ring-billed 
gulls consumed 2 percent of the spring migration of juvenile salmonids 
below Wanapum Dam; and there exists some 20 dams on the Columbia River 
and Snake River.
    4. There are 8 other ``major'' water bird colonies on the lower 
Columbia River.
    5. Recovery of smolt tags at colonies of fish-eating birds suggests 
avian predation cause losses of perhaps as high as 40 percent of smolts 
that reach the estuary in some years (OSU report).
    6. ``. . . avian predation may be a prominent factor limiting, 
recovery in the Columbia River.''
    Therefore, if one assumes the following:



------------------------------------------------------------------------
                               Calculation
-------------------------------------------------------------------------
                 Source                           Smolts Consumed
------------------------------------------------------------------------
Caspian terns--Rice Island..............  15 million annually
8 other colonies at 25 percent rate of    30 million annually
 consumption.
Gulls--Wanapum and 20 dams (estimate)...  1 million annually
                                         -------------------------------
    Estimated Smolt Mortality...........  46 million annually
------------------------------------------------------------------------
Below Bonneville, estimates of smolts in the river can range between 100
  million and 180 million. 46 million divided by 120 million (avg)--38
  percent smolt mortality.
As compared to paragraph 5 above, estimate of 40 percent mortality which
  calculates to: 0.40 X 120 million = 48 million smolt mortality.

    Again, one must query whether this avian predation is a major 
contributor to the delayed or ``extra'' mortality identified by PATH? 
It is probable that hatchery salmonids are more susceptible to avian 
predation because of their surface feeding habits and brighter 
coloring. Again, the juvenile salmon mortality can be calculated to be 
very significant from avian predation.
    Reduction of the avian predation effects to migrating juvenile 
salmonids could result in increased retiming adult salmon of 500,000 to 
100,000 per year, similar to the numbers generated by reducing the 
Columbia River piscivorous predators. Repeating, reducing juvenile 
salmonid predation by avians could be a logical and significant 
recovery action, achievable and not disruptive to the region's 
economies and societal values.
                                 ______
                                 
   columbia river juvenile salmonoid losses by piscivorous predation
    During 1983-1986, an extensive 3-year study was performed\1\ in 
John Day Reservoir with an objective ``to estimate the number of 
juvenile salmon and steelhead lost to resident fish predators in an 
entire Columbia River reservoir.''
---------------------------------------------------------------------------
    \1\ Estimated Loss of Juvenile Salmonoids to Predation by Northern 
Squawfish, Walleyes, and Smallmouth Bass in John Day Reservoir, 
Columbia River: Transactions Of the American Fisheries Society, 1991. 
Reiman, Beamesderfer, Vigg, Poe, et al.
---------------------------------------------------------------------------
    It was estimated the mean annual loss during April to August was 
2.7 million juvenile salmonids (range 1.9 to 3.3 million). Northern 
squawfish were responsible for 78 percent of the total loss, walleyes 
(13 percent), and smallmouth bass for 9 percent. Fish predators 
consumed 14 percent of all juvenile salmonids that entered the 
reservoir. The predator mortality was dependent upon month and water 
temperature with ranges of 7 percent in June to 61 percent in August. 
Small sub-yearling chinook are the main prey during the late summer 
months.
    A predation index in the Lower and Middle Columbia River and in the 
Lower Snake River was reported\2\ and determined the predation index 
downstream from Bonneville Dam in the estuary was about 7 to 10 times 
that of the mean 1990-1993 index for John Day Reservoir. The population 
estimates of squawfish from John Day Reservoir through the estuary is 
1,351,000 (> 253 mm) and another 381,000 walleye, bass and catfish 
predators for a total of 1,732,000 predators. McNary through Lower 
Granite predation indexes generally range about one half that of John 
Day, but the reaches are 3 times longer and therefore it is 
conservative to conclude another 100-2,000,000 fish predators exist 
beyond the 1,732,000 noted above. Squawfish populations of 100-160,000 
have been reported in each of the Ice Harbor and Lower Granite regions.
---------------------------------------------------------------------------
    \2\ Index of Predation on Juvenile Salmonoids by Northern Squawfish 
in the Lower and Middle Columbia River and in the Lower Snake River: 
Transactions of the American Fisheries Society, 1995: Ward, Petersen 
and Loch.
---------------------------------------------------------------------------
    Survival of juveniles was insensitive to . . . the duration of prey 
passage, residence time, . . . and flow, yet these are important 
functions of the FLUSH Code! With the bias of FLUSH favoring mortality 
as a function of time in transit of a juvenile, this code may 
incorrectly or inadequately imply flow augmentation is a benefit, when 
it is not. Because of the sensitivity of prey density, transportation 
benefits may be offset by significantly higher mortality of fish left 
in river, (Just food for thought.)
                                 ______
                                 
     calculations for smolt mortality due to piscivorous predators
    a. In 1987 (avg.) 2.7 million salmonids consumed in John Day 
Reservoir.
    b. This equals 36,486 juveniles consumed per mile, or 22,000 
juveniles consumed per km.
    c. Predators increased by 20 percent per year during the 3-year 
study.
    d. Assume predator mortality and predator removal (reported to be 2 
percent annually) results a conservative 5 percent annual increase in 
predator numbers. This results in a 1997 predator consumption of 34,000 
smolts per km.
    e. Use a predation index averaged over the migration period and for 
each individual reach of the Columbia Riser and Snake River (use 
predation index only at Ice Harbor for spring/summer runs) and no 
Middle Columbia reaches or dams:

                        Summary Via Index Method
                     All Fish Predators of Juveniles
------------------------------------------------------------------------
                                                                Smolts
                     Reach                        Distance     Consumed
------------------------------------------------------------------------
Bonneville Dam to ocean.......................        233km   33 million
Bonneville Dam to Dalles......................         70km    3 million
Dalles to John Day............................         41km    7 million
John Day to McNary............................        122km    4 million
McNary to Ice Harbor..........................         68km    1 million
Est. Other Reaches............................                 1 million
                                                            ------------
    Annual Total..............................                49 million
------------------------------------------------------------------------

      summary via predator population and average consumption rate
    In 1987: Predators consumed 0.14 juveniles per predator (avg), and 
assume predators increase 5 percent per year.
    In 1992 and 1993: Estimated squawfish (> 250 MM) from ocean to John 
Day Reservoir was 1,351,000.
    Calculated 1993 total fish predators were 1,700,000.
    Estimated 1997 total fish predators were 2,000,000.
    Estimate of 200,000 predators above John Day.
    Estimate 150 days (April through August) migration period.
    Therefore: 150 X 2,200,000 X 0.14 = 46 million smolts consumed 
annually.
    If one were to take these numbers and use the lower value of 46 
million smolts consumed, and further assume we could reduce predation 
by 50 percent with proper control methods, this would leave 23 million 
additional smolts to migrate to the ocean. If a 98 percent ocean 
mortally occurred and harvest was restricted there could be an 
additional 460,000 adult salmonids return to the Columbia River basin.
    Although we have no predation numbers, we further note that between 
2 and 4 million shad reside in the Columbia River and are `` . . . food 
competitors and potential predators (avg. size of 3.5 lbs.) of juvenile 
salmon . . . and delay upstream passage through fish ladders (Chapman 
et. al., 1991). Perhaps even more important, the abundant shad 
juveniles may serve as a large food base for piscivorous fishes during 
the late fall and winter, thus serving to maintain predator populations 
at high levels (Kaczynski and Palmisano, 1993).''
    In summary, piscivorous predation of salmonids is significant by 
any standard, and the predator population continues to increase. One is 
stymied to come forward with a more innocuous recovery action that is 
technically feasible, relatively inexpensive, and does not impact 
regional economies and societal values. Results could be apparent 
within a 3-year period.
                                 ______
                                 
                           pinniped mortality
    The California sea lion population off the west coast of the United 
States in 1994 was estimated at between 161,000 and 181,000. This 
population has been increasing at an annual rate of about 5 percent per 
year since the mid-1970's. The pacific harbor seal population for the 
west coast was 76,000 in 1993-1995. This population has been increasing 
at an annual rate of 3-7 percent per year since the mid-1970's. 
Generally 50-60 percent of these populations reside off the Oregon and 
Washington coasts. Harza reported the Oregon and Washington coastal 
population of marine mammals has increased from 6,000--1,000 in the 
1970's to approximately 50,000 by the mid-1990's. The Northwest 
Fisheries Science Center and National Marine Fisheries Services 
reported that ``predation by California sea lions and Pacific harbor 
seals may now constitute an additional factor in salmonid population 
decline and can effect recovery of depressed salmonid populations in 
some simulations.''
    Upwards of 500 sea lions are found in the Columbia River estuary 
from Astoria to Bonneville Dam, per NMFS. Many of the Washington and 
Oregon coastal harbor seals feed in the summer in the Columbia River. 
The SRSRT reported harbor seals in the Columbia River have increased 
from less than 500 in 1976 to almost 3,500 in 1993. The SRSRT noted 
that pinniped scarring (damage) of salmonids at Lower Gramte ranged 
from ``2 percent to 70 percent'' depending upon the year and species. 
Recent pinniped damage at Lower Granite has been reported to be in the 
``25-40 percent'' range. Because only one side of the fish is viewed at 
the dams, this damage is probably under reported. Some have suggested 
that the salmon mortality due to marine mammals is equal to that due to 
the combined sport and commercial harvest (Kazcynski and Palmisano, 
1993). Harvesting of certain populations (fall chinook) are in the 50 
percent range (SRSRT Draft Report).
    In 1997, 360,000 spring, summer, and fall chinook and 230,000 
steelhead arrived at Bonneville Dam. Assume we harvested 50 percent in 
the ocean and estuary. Therefore, we would have harvested about 600,000 
Columbia River chinook and steelhead.\1\ Assume predator direct kill 
and damaged salmonids that cannot reach their spawning grounds or are 
too weakened to reproduce approaches 50 percent as proposed by 
Kaczynski and Palmisano. Then one can conclude that pinniped mortality 
occurs to approximately 300,000 adult salmonids. Eliminating pinniped 
mortality and injury could easily result in an additional 300,000 adult 
spawners, nearly equal the total 1997 chinook count at Bonneville Dam. 
These numbers do not include mortality of juveniles, which pinnipeds 
consume. A 1995 British Columbia study reported pinnipeds consuming 7 
to 31 percent of the total smolt production in the Puntledge River.
---------------------------------------------------------------------------
    \1\ This number is probably in the proper range, based on the 
following: The Pacific Fisheries Management Council projected the west 
coast 1998 harvest of just chinook salmon to be 905,800 (663,400 Mom 
commercial and 242,400 from recreational fisheries). The totals are 
composed of 25,000 spring, 148,400 summer and 716,300 fall chinook, for 
all of the west coast. The Columbia River portion would be less.
---------------------------------------------------------------------------
    Again, the impacts of removal of pinnipeds does not effect 
economics or societal values and offers a method to increase adult 
salmonid spawners by an estimated 50 percent; the results should be 
apparent within 1 year.
                                 ______
                                 
                               screening
    In reviewing the 1997 Annual Fish Screen Oversight Committee 
Report, we note that needed screening of diversions in Idaho, Oregon, 
and Washington is not complete--far from it. Yet these devices are 
simple mechanical structures that divert juvenile salmonids to 
migratory channels, avoiding a diversion caused mortality. We also note 
we are spending and have spent hundreds of millions of dollars to 
improve juvenile fish passage through the reservoir-dam corridor. We 
are perplexed why such a screening, deficiency exists.
    Without getting into details as to why and what, we note the 
following screen situation for Columbia River Basin Anadromous Fish 
Diversions:


----------------------------------------------------------------------------------------------------------------
                                                                                      SCREENS
                                                                 -----------------------------------------------
                              State                               Constructed to  Existing--Need    Diversions
                                                                   NMFS Criteria      Upgrade       Unscreened
----------------------------------------------------------------------------------------------------------------
Oregon..........................................................             217             296              85
Washington......................................................              92              53              12
Idaho...........................................................             129             114             274
                                                                 -----------------------------------------------
    Totals......................................................             438             463             361
----------------------------------------------------------------------------------------------------------------

    Approximately 65 percent of the diversions do not adequately 
protect migrating smolts. In 1995, Oregon eliminated the screening 
requirement, except in extremely limited situations, for diversions 
less than 30 cfs. From a safe smolt protection aspect of an endangered 
species, the fact the Mitchell Act was authorized in 1946 to construct 
safe fish passage screens; BPA, BOR, State(s) and COE funds have been 
available and spent; it is appalling that this simple mechanical 
``fix'' has not been completed in a timely-needed manner.
    Again, if the salmonid smolts diversion entrainment and mortality 
are significant, and we acknowledge we realistically cannot arrive at a 
defensible number, this further reduces the number of salmonids for 
migration. We could be concerned that diversion and mortality, 
unacknowledged, could obscure analysis of migration mortalities through 
the system and mistakenly be allocated to flow causes or mortality per 
roils assignments, when in fact such mortality can be easily and 
totally avoided. From a prudent management aspect, this is one simple 
way to remove a variable from the mortality equation to improve and 
assure proper interpretation of spanning to escapement results.
                                 ______
                                 
                                harvest
    Steve Mathews, University of Washington, in 1998 notes `` . . . up 
to 80 percent of the fall chinook stocks from the Columbia is 
harvested, much of it taken at sea'' ``About half are caught by 
commercial trollers, 28 percent by sports fisherman and 22 percent by 
commercial net fishermen.'' Many sublegal sized fish are hooked, and 
their hooking mortality approaches 30 percent; `` . . . these various 
calculations and extrapolations indicate that there is substantial 
incidental catch waste approaching one million dead chinook a year.'' 
``If such waste was eliminated, and some of the savings converted to 
additional spawning escapement, the total catch of chinook salmon in 
the long term could be increased even more than one million fish per 
year.''
    In another recent report describing Snake River fall chinook, abut 
2,300 Snake River chinook salmon returned to Bonneville Dam. In 
approximate terms 1/3 were harvested, 1/3 were lost due to straying or 
dam passage mortality and 1/3 were allowed to pass Lower Granite to 
spawn, recognizing that of those passing Lower Granite 25-40 percent 
had significant pinniped damage, possibly effecting downward the number 
that actually spawned. We strongly believe harvesting of endangered 
stocks should be terminated at the mouth and on the main stem Columbia 
River, until recovery is assured, or at least restricted to tribal 
fisheries on tributaries with totally healthy populations and/or 
terminal hatchery locations. Totally eliminating ocean and user 
harvesting for 1 year or more would rapidly determine the rate of 
improvement expected from harvest restriction and better define 
appropriate harvest limits.
    To add another opinion to our above recommendations, we call your 
attention to ex-ISAB member Jack Sanford's first principle of Columbia 
River anadromous fishery restoration:

    1. Harvest Is An Issue

    ``All harvest must stop until recovery of target stocks . . .''
    We also note the State of Idaho's January 3, 1997 comments to NMFS 
on the proposed listing of Snake River steelhead, namely:
    ``Existing harvest management in the mainstem of the Columbia River 
does not adequately consider the conservation needs of wild steelhead 
and must be reformed.''
    Since Idaho generally has more steelhead returning than chinook, 
the above quote is believed applicable to all Idaho salmonids.
    We note the following comments offered to NMFS by credible program 
reviewers regarding harvest:

    Upstream: 1995

    1) ``In the late 1980's, ocean fisheries took about 35 percent of 
the fish and river catch took 44-63 percent of the in-river run . . . 
so fisheries took nearly 73 percent of adult recruits . . .''
    2) ``Incidental deaths of chinook have been estimated at 30-50 
percent of the reported catch during the middle 1980's . . .''
    3) ``Furthermore, the committee does not believe that the 
sustainability of Pacific Northwest salmon can be achieved without 
limiting the interceptions of U.S. salmon in Canada and obtaining 
cooperation of Alaska.''
    4) ``The number of fish returning to spawn (escapements) must be 
substantially increased . . . increased escapements . . . is necessary 
for restoring, production . . .''

    Return to the River, 1996

    1) ``Both Bristol Bay, Alaska, and the Fraser River, Canada, 
support thriving sockeye populations today, because, since 
implementation of effective harvest management regimes, whenever 
spawning populations have reached critically low levels, fishing has 
been reduced, or stopped'' . . . ``The sacrifice of the harvesters in 
1973 led to large returns . . . in the next generation in 1978.''
    2) ``Harvest, both incidental and intentional, . . . is a factor 
limiting their recovery . . .''

    Proposed Recovery Plan For Snake River Salmon

    1) ``There should be no commercial or recreational fisheries 
directed at upriver spring or summer chinook in the mainstem Columbia 
River below its confluence with the Snake River''.
    2) ``First, harvesting limitations combined with a reduction of 
marine mammal predation and inter-dam losses, are measures that would, 
if implemented promptly, provide some immediate progress toward 
recovery, until intermediate and long term measures can be taken and 
become effective . . . Even if no improvement in upstream passage is 
implemented, perhaps one half of the fish allowed to escape harvest 
will make it to the spawning grounds (more, if upstream passage is 
improved).'
    The adult passage losses surely can be reduced to something less 
than the 30-50 percent now occurring (via barging or in-river transit 
of juveniles--no trucking--and improved ladders/devices/flows to avoid 
fallback, etc.).
                                 ______
                                 
                    Letters from Senator Kempthorne
                         Office of Senator Dirk Kempthorne,
                                                   October 5, 1998,

    Hon. Terry Garcia,
    Assistant Secretary for Oceans and Atmosphere,
    National Oceanic and Atmospheric Administration,
    Department of Commerce,
    14th Street and Constitution Avenue,
    Washington, DC 20230.

    Dear Mr. Garcia: I am writing today to express my concern about the 
National Marine Fisheries Service's (NMFS) apparent disregard of my 
requests for information on how decisions are made regarding allowable 
``take'' of threatened and endangered stocks of Pacific salmon and 
steelhead. The formulation of public policy is best made when the 
Legislative branch and the Executive branch are equally well informed 
on the issues.
    Specifically, I have asked the NMFS repeatedly over a period of 3 
months for the biological opinions on harvest made under Section of the 
Endangered Species Act. Although they have been repeatedly promised to 
me, I have not yet received any biological opinion on this subject.
    Also, at a meeting with Will Stelle on June 24 of this year, I 
specifically mentioned my need for this information. I was assured by 
Will that information on harvest would be forthcoming promptly. Since 
that meeting, I have received a few pages of data, but hardly the 
information that I requested.
    This matter has become a matter of urgency because I am holding an 
oversight hearing in the Subcommittee on Drinking Water, Fisheries, and 
Wildlife of the Senate Environment and Public Works Committee on 
scientific and engineering issues relating to Columbia/Snake River 
system salmon recovery. That hearing, to be held Thursday, October 8, 
will discuss some of the current issues on harvest. I believe the 
hearing would be much more informative for all concerned if the 
information requested months ago had been made available in a timely 
manner.
    I had a similar experience with the NMFS last year. In April, I 
wrote to Mr. Stelle to request information on the biological basis of 
NMFS decisions on transport of salmon and steelhead in the Columbia/
Snake River system. Because my April letter was ignored, I wrote again 
in June, long after the decision date for the action I was questioning. 
I have attached both letters for your information.
    It appears to me that the NMFS strategy is to ignore me and the 
stakeholders that I represent until well after decisions on 
controversial issues have been made. I would like your assessment of 
the current situation, and suggestions for prompt provision of 
information in a timely and effective manner.
            Sincerely,
                                           Dirk Kempthorne,
                                             United States Senator.
                                 ______
                                 
                         Office of Senator Dirk Kempthorne,
                                                    April 16, 1997.

    William Stelle,
    Administrator, Northwest Region,
    National Marine Fisheries Service,
    7600 Sand Point Way,
    BIN-C15700, Bldg. 1,
    Seattle, Washington 98115-0070.

    Dear Mr. Stelle: I am writing you about my strong concerns 
regarding the National Marine Fisheries Service's (NMFS) decision to 
disregard the consensus proposal on steelhead and salmon migration. It 
is my understanding that at the recent meeting of the Executive 
Committee for recovery of Columbia/Snake River salmon and steelhead 
that a consensus proposal to transport up to 42 percent of Chinook 
Salmon and 54 percent of Steelhead on alternate days from Lower 
Granite, Little Goose and Lower Monument Dams was rejected by the 
National Marine Fisheries Service. Instead, the NMFS adopted daily full 
transport from the same sites for up to 67 percent of the Chinook and 
84 percent of the Steelhead.
    Will, If my information is correct, I need to understand the 
biological basis of this decision. Governor Batt, with the advice of 
some of the best biologists, water managers, and stakeholders devised a 
plan for ``spreading the risk'' between in-river migration and barging. 
This plan was subjected to a facilitated negotiation process that 
involved stakeholders from throughout the Columbia/Snake River Basin. 
The resulting proposal deserved to be considered for its ability to 
recover two of our regions most important fish species, and for its 
ability to bring together stakeholders from throughout the basin.
    This year we are blessed with abundant water to flush fish down the 
rivers and to the ocean. We may or may not be so lucky next year. I 
need to know soon if the NMFS knows of some solid biological reason why 
we should transport such a high percentage of fish.
    Thank you for your attention to this issue. I look forward to your 
timely reply.
            Sincerely,
                                           Dirk Kempthorne,
                                             United States Senator.
                                 ______
                                 
                         Office of Senator Dirk Kempthorne,
                                                      June 5, 1997.

    William Stelle,
    Administrator, Northwest Region,
    National Marine Fisheries Service,
    7600 Sand Point Way,
    BIN-C15700, Bldg. 1,
    Seattle, Washington 98115-0070.

    Dear Mr. Stelle: I am writing today to express once again my 
concern about the National Marine Fisheries Service's (NMFS) decision 
to disregard the 1997 consensus proposal on steelhead and salmon 
migration. And, I must share with you my frustration over your failure 
to promptly answer my mid-April letter to you.
    On April 16 I wrote to you about your decision at the Executive 
Committee for -recovery of Columbia/Snake River salmon and steelhead to 
ignore the Idaho consensus proposal on the transport issue. Instead, 
you adopted daily transport from Salmon River dams for up to 67 percent 
of the Chinook and 84 percent of the Steelhead. I asked you to explain 
the biological basis of this decision.
    Governor Batt, with the advice of some of the best biologists, 
water managers, and stakeholders devised a plan for'' spreading the 
risk'' between in-river migration and barging. This plan was subjected 
to a facilitated negotiation process that involved stakeholders from 
throughout the Columbia/Snake River Basin. The resulting proposal 
deserved to be considered for its ability to recover two of our regions 
most important fish species.
    Yet, you chose to transport more fish rather than fewer. If there 
is a good biological reason for your decision, you have failed 
completely to inform me and other stakeholders who contributed their 
time and energy to working together toward a common goal. During the 
time you have failed to respond to my letter, or to my staff inquiries, 
ever higher numbers of fish have been transported down the Snake and 
Columbia Rivers. Estimates are that when the spring migration ends 
later this month, 58 percent of the wild salmon and 68 percent of the 
wild steelhead will have been barged.
    Is it your strategy to ignore me and the stakeholders who worked 
together to obtain a compromise until the migration season is over? I 
understand fully that at some point there will be no need to respond at 
all to my letter or to the others who are concerned about this issue. 
Frankly, this is only the most recent failure on your part to respond 
promptly and fully to my inquiries.
    I look forward to your timely reply.
            Sincerely,
                                           Dirk Kempthorne,
                                             United States Senator.
    Senator Kempthorne. In today's first panel--in fact, let me 
just hold off in the introduction of the first panel and at 
this point turn to Senator Chafee, again, the Chairman of the 
Full Environment and Public Works Committee, for any comments 
that he might have.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Mr. Chairman, thank you very much.
    There are two reasons that I'm here today--one, this is an 
interesting subject. I had the privilege of visiting this area 
with you 2 years ago, and it's a fascinating area and very 
challenging. I think it's so appropriate that you are holding 
this hearing today, and I would ask, Mr. Chairman, that my 
statement might be placed in the record.
    Senator Kempthorne. Without objection.
    [The statement of Senator Chafee follows:]
Statement of Hon. John H. Chafee, U.S. Senator from the State of Rhode 
                                 Island
    I would like to thank my friend and colleague for calling for this 
morning's hearing on salmon recovery issues in the Colombia and Snake 
rivers. Even in the waning days of his Senate career, the Chairman is 
steadfastly pursuing answers to difficult questions that challenge our 
efforts to protect our natural resources. It is this tenaciousness that 
has led to some remarkable achievements during his Senate career, 
including enactment of the Unfunded Mandates legislation and the Safe 
Drinking Water reauthorization, and in authoring a bipartisan bill to 
reauthorize the Endangered Species Act. We will miss him.
    Salmon recovery in the Columbia River basin poses some of the 
greatest challenges that we face in protecting species. If we can save 
the salmon, we can save any species. Why is the challenge so great? 
There are several reasons. First, we waited too long in confronting the 
inevitable reality that these species were going extinct. The Snake 
River sockeye was not listed under the ESA until there were no more 
than 10 fish returning to the one remaining spawning ground in Redfish 
Lake.
    Second, the natural life cycle of the salmon is so complicated. 
They migrate from freshwater to the ocean, traveling hundreds of miles 
between. They face a multitude of threats as they make this journey. 
Juveniles contend with competition from introduced species, serve as 
prey for other native species, and run through a series of eight dams; 
adults contend with ocean and in-river fishing; and returning spawners 
must again run the gauntlet of the dams, and facing degrading habitat 
conditions for breeding.
    Third, the political and scientific complications in determining 
our next steps are so great. Our scientific knowledge of what is best 
for the salmon still has many gaps. The organizations responsible for 
coming up with the scientific knowledge, and making the decisions based 
on that knowledge, involve local governments, state governments, tribal 
governments, and numerous agencies within the Federal government. Many 
times, each one has a different view. Numerous industries are affected 
by these decisions. No one group has the answer, and only now are all 
the groups beginning to work together in finding the answer.
    This morning's hearing will give us some insight into some of the 
issues that need to be addressed in recovering the salmon in the 
Columbia and Snake rivers. The information that we derive from our 
witnesses will serve us well in Congress, and I am certain will serve 
Senator Kempthorne well in his future endeavors. Thank you.
    Senator Chafee. The other reason, Mr. Chairman, that I am 
here is that today you are presiding over this subcommittee for 
the final time this Congress. I just want to take this 
opportunity to pay tribute to you for the terrific job that 
you've done in the Environment and Public Works Committee.
    When you came to the Senate 6 years ago, you joined this 
committee, and your life in the Senate has been a tremendously 
constructive one. Right out of the blocks, you came forward 
with the unfunded mandates provision that was enacted into law. 
That in itself was an achievement, but then on this particular 
committee your work has been on the Safe Drinking Water Act, 
which, with your leadership, we came forward with a splendid 
bill that is now law. It was just a terrific bill.
    And then we come to the Endangered Species Act. If I've 
ever seen bulldog qualities, you've got them. You've 
tenaciously pushed forward with that bill, which we reported 
out of this bill 15 to 3 over a year ago. It's been on the 
calendar. We've run into all kinds of obstacles, but you 
persevered--and I'm keeping my fingers crossed on both hands--
but it does look as though we're going to be able to get that 
on some kind of a measure, and the clearance, as best as I 
understand it, has been worked out with the House of 
Representatives to take our bill. It's all due to your work.
    So, Mr. Chairman, I just want to say two things--salute you 
for what you've done, and you're going to be missed.
    Senator Kempthorne. Well, thank you, Mr. Chairman.
    Senator Chafee, let me just say what a great pleasure and 
honor it has been to serve with you. You have guided this 
committee with great leadership, and, again, we have some 
contentious issues here. Any time we're going to deal with 
environmental issues, they're going to be tough, but you have 
guided us with finesse and vision, and, again, Senator Chafee, 
it's a great pleasure to have worked with you but also to know 
that I have a friendship that I take with me.
    Thank you very much.
    And now I have invited Senator Craig, the senior citizen 
from Idaho, to join me for this hearing.
    Senator Craig, welcome.

                STATEMENT OF HON. LARRY CRAIG, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Craig. Well, Chairman Kempthorne, let me thank you 
very much, but let me, first of all, associate myself with the 
remarks of the chairman of the Full Committee of Environment 
and Public Works on behalf of you. It has been my great 
pleasure to work with you the last 6 years, and to watch your 
hard efforts and successes in the areas that Senator Chafee has 
mentioned.
    This issue that you have before us this morning is one that 
you and I and the Pacific Northwest will wrestle with for some 
time to come, and whatever the outcome, the solution might 
solve the problem but it might wipe out the patient, and I 
think we've got to be careful that we bring that kind of 
balance.
    Better understanding the important issues allow this 
hearing to be what we need today. As policy makers in the 
Pacific Northwest, we are going to have some weighty decisions 
to make. Your hearing today--I will probably, along with 
Senator Gorton, host a hearing in November after we get some 
other decisions out. But in regard to the topic at hand today, 
let me state for the record that I, like many Idahoans, was 
startled last week by the spin contained in some newspaper 
accounts about the recent release of the scientific report 
allegedly concluding that dam breaching was the only way to 
save salmon in the Columbia-Snake Rivers. After reviewing the 
report and discussing it with scientists associated with the 
development of the report, it is apparent that advocates of dam 
breaching and some media organizations simply jumped the gun.
    The chief architects of the report readily acknowledged, 
indeed highlight, that there are inherent infirmities with 
conclusions of the report.
    Will Stelle, Regional Director of the National Marine and 
Fisheries Services, stated yesterday that the level of 
uncertainty in the models used by the scientific panel is very 
high. The conclusions contained in the report are in no way 
absolute. They are merely relative probabilities with wide gaps 
between what is known and what is not known. These observations 
underscore the need for further research on matters, such as 
the impact of marine mammals, predators, and of our outgoing 
smolts, the impact of ocean conditions on the salmon, the 
impact of the release into the ocean of large numbers of 
hatchery fish along the western coast and continued research of 
hatcheries and genetic resources.
    Mr. Chairman, thank you for the hearing today and for 
addressing this with the subcommittee.
    To now say that the science on salmon recovery is settled 
is to expose either a great ignorance of the complex science 
associated with salmon recovery or a political bias in favor of 
the experiment of breaching dams. In either case, considering 
the tender box nature of the salmon debate in the Pacific 
Northwest, such a statement is destructive and irresponsible of 
anyone who would make it.
    According to those who have been charged with the difficult 
task of determining the best science on salmon recovery, there 
simply is no credible scientific evidence at this time that 
removal of dams is the sure way--let me put it that way--the 
sure way to save salmon. Until such time as the PATH scientists 
decide they have accumulated all of the credible evidence 
available on this issue, we cannot expect scientific 
conclusions contained in interim reports to be final on the 
issue of salmon recovery.
    In the meantime, responsible parties should show restraint 
with their rhetoric. No responsible person in the Pacific 
Northwest wants another spotted owl controversy or the kind of 
outcome from that. The wounds from that controversy manifests 
in the form of deep mistrust, both toward government and the 
environmental community, and have yet to heal fully. We all 
would do well to remain mindful of that catastrophe as we work 
with the salmon issue.
    Mr. Chairman, seeking information in a forum such as this 
where the public gets an opportunity to see for itself the 
current state of knowledge on specific salmon issues is 
extremely helpful, certainly goes a long way to help dispel the 
growing mistrust out in the Pacific Northwest. The States of 
Oregon, Washington, Idaho and Montana can be either positively 
impacted or very negatively impacted, depending on the 
conclusions drawn and the ultimate plan developed for the 
saving of these very important fish.
    So thank you for the hearing. You and I and others, I am 
sure, are going to stay actively involved in this issue and 
turn up our interest greatly over the next year or two, as we 
come to a conclusion and, hopefully, the right settlement and 
the right management plan for this river system. Thank you.
    Senator Kempthorne. Senator Craig, thank you very much. I 
appreciate your comments.
    In addition to Senator Craig and other members who serve on 
this Committee, I invited the other Senators from the States 
that are dealing with this issue. So they may join us at some 
point this morning, but, again, it is something that from a 
regional basis we need to all work together.
    In today's first panel we have asked three scientists and 
engineers to share with us some of their work on these 
essential issues. Our first witness, Dr. Roby, began an 
overview study of avian predation on the Columbia-Snake River 
system several years ago. In the course of that study he 
discovered that one particular species, the Caspian tern, was 
having an inordinate effect on the out migrate salmon smolts, 
due to its preferred method of fishing and the location of its 
nesting colony. We are hoping to explore with today's witnesses 
the possibility of non-lethal means to control this excessive 
predation.
    Our second witness is Dr. Cloud, a fish geneticist, who has 
been studying the genetic effects of hatchery fish on the wild 
runs of salmon and steelhead. In addition, Dr. Cloud has made a 
proposal for a gene bank for Native Northwest fish that will 
give some insurance that we can preserve some of the declining 
diversity for future use.
    The third witness is Richard Fisher, who works for the 
Voith Hydro Generation Company. We are glad to see you again. 
In his work at Voith, Mr. Fisher oversees the development of 
new technologies, including the advanced hydropower program 
authorized through the Water Resource Development Act.
    In the second panel we will hear how our agencies have been 
responding to these issues. I hope that as a result of this 
hearing we can look forward to new ways to incorporate the 
information coming from our scientists and engineers.
    So, with that, let me call the first panel forward.
    Dr. Roby, welcome. We look forward to your comments, and 
we'll make--those of you who have your formal presentation, 
we'll make them part of the record, but if you could give the 
highlights in approximately a five-minute opening statement, 
then we'll open it to questions.
    So, Dr. Roby?

   STATEMENT OF DANIEL D. ROBY, OREGON COOPERATIVE FISH AND 
 WILDLIFE RESEARCH UNIT, OREGON STATE UNIVERSITY, CORVALLLIS, 
                             OREGON

    Dr. Roby. Thank you, Mr. Chairman, and members of the 
committee.
    Good morning, my name is Dan Roby, and I am testifying 
regarding the issue of bird predation on juvenile salmonids in 
the Columbia-Snake River estuary. I am an associate professor 
in the Department of Fisheries and Wildlife at Oregon State 
University, and the Assistant Unit Leader for the Oregon 
Cooperative Fish and Wildlife Research Unit, which is part of 
the biological resources division of the U.S. Geological 
Survey.
    For the last 2 years I have been the principal investigator 
for a research project entitled, ``Avian Predation on Juvenile 
Salmonids In the Lower Columbia River.'' This project was 
jointly funded by the U.S. Army Corps of Engineers and the 
Bonneville Power Administration, and has been carried out 
cooperatively between the Columbia River Intertribal Fish 
Commission and Oregon State University. My colleague, Ken 
Collis, a biologist with inner-tribe, deserves much of the 
credit for this study.
    I am testifying today in my capacity as a research 
biologist with no management authority or responsibility on 
this issue. To briefly summarize our research results from 
1997, we found that the largest Caspian tern colony in North 
American resides on a dredge material disposal island in the 
Columbia River estuary called Rice Island. This island was the 
nesting site for over 16,000 terns and also supported the 
second largest double-crested cormorant reading colony on the 
Pacific Coast of the U.S. and Canada, consisting of over 2,400 
individuals.
    Another nearby artificial island, East Sand Island, 
supported the largest double-crested cormorant colony on the 
Pacific Coast, consisting of over 10,000 individuals.
    Finally, both of these island, plus a third, also provided 
nest sites for over 20,000 Western gulls.
    All three of the colonially nesting water birds are known 
to include juvenile salmonids in their diets, and the nesting 
period for these colonies generally coincide with a period of 
juvenile salmonid out-migration.
    Our data indicated the Caspian terns were most reliant on 
salmonids as a food source, amounting to about 75 percent of 
food items taken. Double-crested cormorants were less reliant 
on juvenile salmonids at 24 percent of food items, and only 
about 11 percent of the diet of Western gulls consisted of 
young salmon.
    We used a bioenergetics model to estimate the numbers of 
juvenile salmonids consumed by the Rice Island Caspian tern 
colony in 1997. We estimated that between 6 and 25 million 
juvenile salmonids were consumed by Caspian terns, or 
approximately 6 to 25 percent of the estimated 100,000,000 out-
migrating smolts that reached the estuary in 1997.
    In addition, estimates of the number of juvenile salmonids 
lost to cormorants and gulls in the estuary were in the 
millions.
    So far our preliminary analysis of 1998 results indicates 
that the Rice Island Caspian tern colony has increased by more 
than 20 percent over 1997. The prevalence of juvenile salmonids 
in the diet has remained about the same, and our estimates of 
the numbers of salmonids consumed by the tern population are 
similar to 1997.
    The magnitude of Caspian tern predation on juvenile 
salmonids has been a cause for considerable surprise and 
concern, and drew an immediate and strong reaction from 
fisheries managers. There is substantial pressure to initiate 
management immediately in order to mitigate the impact of 
Caspian tern predation on smolt survival. One of our research 
objectives for the 1998 field season was to test the 
feasibility of potential methods to reduce predation on smolts 
by Caspian terns. Based on that work, one potential management 
option is to translocate the tern colony to a site closer to 
the mouth of the river, specifically East Sand Island, and if I 
could, have the map put up there so that everyone could 
appreciate the locations of Rice and East Sand Islands in the 
estuary.
    Let's see, Rice Island is sort of right in the center 
there, and East Sand Island is all the way to the left, very 
close to the mouth of the Columbia River. So Rice Island is the 
current site for the Caspian tern colony, and what we would 
like to do is potentially translocate that colony to East Sand 
Island, which is close to the mouth.
    Moving the tern colony from Rice Island to East Sand Island 
may be an effective method to mitigate losses of smolts to 
terns because a greater diversity of forage fishes are 
available near East Sand Island. For example, double-crested 
cormorants nesting on East Sand Island consumed a much smaller 
proportion of juvenile salmonids, only about 10 percent of food 
items, compared with cormorants nesting on Rice Island, which 
consumed about 55 percent salmonids.
    In 1998, our small pilot study demonstrated that Caspian 
terns could be attracted to nest at an alternative site on 
another island using tern decoys and an audio playback system 
broadcasting the sounds of a tern colony. These research 
results suggest that translocating the Caspian tern colony from 
Rice Island to East Sand Island near the mouth of the river is 
a feasible short-term management option for reducing tern 
predation on juvenile salmonids.
    Longer term management may include attracting portions of 
the current Rice Island Caspian tern population to nest outside 
the Columbia River estuary. Potential locations include former 
Caspian tern colony sites in Willapa Bay, Grays Harbor and 
Puget Sound in the State of Washington, colonies which no 
longer exist because of human activities. There is evidence 
that these former colonies have coalesced to form the very 
large Rice Island colony. Re-establishing these colonies may 
provide considerable benefits for salmon restoration in the 
Columbia River Basin and reduce the vulnerability of the tern 
population to localized catastrophic events.
    Management action focusing on tern predation in the estuary 
may be an effective and efficient component of a comprehensive 
plan to restore salmon to the Columbia River Basin. There is 
consensus support within an interagency working group to pursue 
translocation of the tern colony in 1999.
    However, adequate funding has not been committed for this 
management activity, nor for continued monitoring and 
evaluation of this problem.
    Thank you very much.
    Senator Kempthorne. Dr. Roby, thank you. It's fascinating, 
and you are to be commended for your discovery. I visited Rice 
Island in August, and it's an incredible situation, so I look 
forward to the discussion here.
    The idea that this is a man-made island from the spoils of 
dredging--and I really didn't know what to expect, but I 
believe it's 238 acres. I mean, it's a vast island, and we'll 
get into the details of the consumption of the smolt.
    Dr. Cloud, we look forward to your comments.

STATEMENT OF JOSEPH CLOUD, PROFESSOR OF ZOOLOGY, DEPARTMENT OF 
    BIOLOGICAL SCIENCES, UNIVERSITY OF IDAHO, MOSCOW, IDAHO

    Dr. Cloud. Good morning, Mr. Chairman, and members of the 
committee.
    My name is Joe Cloud. I am a faculty member at the 
University of Idaho. I am also a member of the Washington State 
University of Idaho Reproductive Center.
    My research expertise is actually in fish reproduction and 
early development, and my expertise in that area is in 
salmonids. My objective this morning is to sell you on the idea 
of genetic insurance for our fish runs.
    Many fish populations around the world are declining, 
whether there are dams or not. Some of the causative factors 
that have contributed to these declines are over fishing, 
habitat destruction or degradation, population and genetic 
introgression.
    Regardless of the causes, a decrease in the size of a 
population can result in a decrease in the diversity of genes 
within a population. Because many of the unique characteristics 
of various fish stocks are genetic adaptations to local 
conditions, the loss of these genes may result in a decrease in 
the probability of long-term survival in the native habitat of 
these populations. Since a number of the causes for declines in 
fish populations are due to activities of the human population, 
many of the problems that contribute to these declines can be 
corrected, but these corrective actions may require extended 
periods of time, and we may be running out of time.
    In order to reduce or reverse the declines in fish 
populations, fish hatcheries have been established to mitigate 
the loss of native spawning habitat and to enhance the 
reproductive output of fish stocks. Although fish hatcheries 
have generally been very successful in the production and 
rearing of fry, the resultant gene pools of the hatchery 
populations are not always the same as the native stock from 
which they were derived. Thus, although hatcheries have been an 
important tool for the enhancement of fish populations, they 
have some inherent weaknesses relative to the maintenance of 
the original genetic composition of the fish stocks.
    Therefore, what I propose is that in order to re-establish 
populations, if we should lose them, or to help fish hatcheries 
maintain genetic diversity of the native population, gene banks 
should be developed.
    At present, the cryopreservation of sperm is the only 
functional means of storing fish germ plasm for genes for 
extended periods of time. This technological is actually 
transferred from the freezing of bull sperm in the dairy 
industry into fisheries, so this is not new technology. It has 
also been transferred for many of the marine and fresh water 
fishes around the world, so it is a technology that has been 
used by a lot of different people under a lot of different 
circumstances.
    At this point in time, it is fair to conclude that probably 
all species of fish--the sperm of all species--can be 
cryopreserved.
    Additionally, since the storage time for fish sperm held in 
liquid nitrogen has been estimated to be greater than 200 
years--a minimum--the time scale for the storage period is more 
than adequate for a germ plasmas repository. Now, the 
establishment of gene banks for fish populations is not a 
hypothetical suggestion. It is a program that has a successful 
track record. This technology has been utilized successfully by 
a number of different countries in the establishment of fish 
germ plasma repositories. Norway, for example, has initiated 
the extensive effort to collect and preserve germ plasma from 
native Atlantic salmon.
    In 1986 the Directorate for Nature Management in Norway 
established a national gene bank program. At present their 
repository contains milt from over 6,000 males, and this 
represents 155 different salmon stocks. They also have other 
stocks in trout that I didn't add.
    Although there is no national program in the United States, 
there are regional programs involved in the collection and 
cryopreservation of fish sperm. In the Northwest, our 
laboratory, partnered with a group at Washington State 
University and the Nez Perce Tribe, has initiated the 
development of a gene bank for chinook salmon that spawn in 
tributaries of the lower Snake River. At present, our efforts 
have resulted in the cryopreservation of the sperm from over 
500 males from 12 tributaries. Our efforts were initiated in 
1992 and continue to the present. Although our efforts have 
been limited by funding, we are determined to save at least a 
portion of the gene pool of these stocks.
    Now, having said that, the major advantage of a gene bank 
program at this point in time is that if that stock becomes 
extinct, the only way to re-establish that stock is to use the 
cryopreservation sperm, and to use a relative of that stock so 
that you can then use a back-crossing scheme to get back to 
nearly the original stock. A better way of doing this would be 
to preserve fish eggs. That, at the moment, is not available. 
It is a very tough biological problem, and with a lot of time 
and a lot of funding, it will still be a tough go.
    In conclusion, it is my belief that the human population 
has an intrinsic need and responsibility to preserve the 
genetic legacy of our fish populations. Fish cryopreservation 
or genetic cryopreservation of existing fish stocks is an 
important goal in itself, and, as a component of programs 
designed to ensure a viable and sustainable fishery under 
changing environmental conditions. With the constant threat of 
losing genetic diversity in specific native stocks, as a result 
of declining population numbers or the result of genetic 
selection pressures and hatcheries, the establishment of a 
program for the long-term storage of fish germ plasma would 
serve as a back-up and insurance for the presently ongoing 
conservation programs.
    Now, there is an important caveat to this proposition that 
I would like to leave you with. Just as an insurance policy on 
your automobile will not maintain that automobile, or increase 
the life span of that automobile, likewise, this germ plasma 
repository that I am suggesting is not going to solve our 
problems. It will not put fish in the river, it will not 
increase the number of fish in the population, but what we will 
get is the genetics, and at the end of the day when we 
cryopreserve that semen, we can look in the tank and we can 
know that the genetics is available 100 years from today.
    Thank you.
    Senator Kempthorne. Dr. Cloud, thank you very much, and you 
are to be commended for your work.
    Mr. Fisher, nice to see you again. We look forward to your 
testimony, and I know that you have some models here of 
advanced hydro turbine design, so if you need to be mobile so 
that you can show us those--we just would like to somehow have 
you stay near the microphone. You can take it with you.
    Thank you.

     STATEMENT OF RICHARD K. FISHER, JR., VICE PRESIDENT, 
       TECHNOLOGY, VOITH HYDRO, INC., YORK, PENNSYLVANIA

    Mr. Fisher. Thank you very much, Mr. Chairman, for inviting 
me to testify--good morning, Senators.
    Let me introduce myself. My name is Dick Fisher. I have 
worked in the hydro industry for over 27 years. For the last 10 
years I have led my company's research and development efforts. 
I am the current chairman for the International Association of 
Hydraulic Research, and I pride myself as a leader in moving 
the industry, the hydro industry, toward developing a more 
environmentally compatible hydropower system.
    Hydropower was this nation's first electrical power 
generation source. It's domestic, it's renewable, it's reliable 
and it's clean. Compared to other significant sources of power 
generation, hydropower is one of the cleanest with respect to 
global warming emissions. Hydropower can contribute near-term 
to reducing greenhouse gases, if allowed to grow. However, as 
we all know, hydropower has a tarnished image, particularly in 
conjunction with the dams, which are necessary to make it work. 
However, it can be improved and hydro systems can be managed to 
maximize benefits for all stakeholders.
    In 1993, an industry and government cooperative project 
under the stewardship of the Department of Energy was launched 
called the Advanced Hydro Turbine System Project. This project 
has three phases--phase 1(A) is now complete. This particular 
phase developed four design concepts for improved hydro systems 
to improve the environmental compatibility. Two of those phases 
relate to salmon passage on rivers like the Columbia River.
    Voith, in its design concepts, addressed the 70,000 
megawatts of existing hydropower, and looked at how that could 
be improved to boost its environmental compatibility, as well 
as providing a boost in energy production during the 
rehabilitation. In fact, we have reached some solutions to be 
able to do that, and we have been working with some of our 
customers to do that. As you can see on this chart, the green 
or lower curve represents an existing project on the Columbia 
River at Wanapum Dam, and in working with the engineers at 
Wanapum Dam, we were able to develop a new design, which is the 
red upper curve, which has significantly more power 
generation--about 20 percent more power generation from the 
existing machine--and, at the same time, using the water mower 
efficiently, and, at the same time, having the potential of 
halving the mortality of fish passing through that project.
    This project at the moment is only in the design phase. The 
design is complete, and it is ready to roll. Unfortunately, it 
is on hold because of regulatory restrictions.
    These models over here represent the work done for Wanapum 
Dam, and I'll get to those in a minute.
    As you know, small changes can lead to an overall survival 
increase on a river system like the Columbia River where the 
salmon must pass through a cascade of dams. A three or four 
percent change in one project can add itself up to a 25 to 50 
percent change in the overall river system. The goal of the 
advanced hydro turbine project with respect to large Kaplan 
turbines, which lay on the Columbia River, is to take today's 
80 to 94 percent fish passage survival and boost it to the area 
of 98 plus percent, and we think that is achievable. In fact, 
we think the model that is on the table over here for Wanapum 
Dam could today reach 97 percent at its best operating 
condition, but it is not yet proven.
    If we can get the large Kaplan turbine fish passage 
survival up to 98 percent, then there would be no need to have 
fish bypasses, no need to have excessive spill to pass water 
over the dams because the estimated fish passage survival of 
spill and of bypasses would be then equal to, or less than, 
what can happen if the fish are passed through the turbines 
themselves. So there would be no need to waste energy by 
spilling water or by bypassing water.
    As I mentioned, these are two examples.
    [Displays exhibits.]
    The example on the left represents an existing hydro 
turbine at Wanapum Dam. The example on the right is the result 
after that particular turbine has been redesigned. Into that 
design are four of the six concepts that we came up with that 
would make a Kaplan turbine more environmentally friendly. Not 
all of them have been included in this rehabilitation plan, but 
four of them have.
    You can see on the chart at the right here the red line 
represents a first generation Kaplan survival on the Columbia 
River--87-88 percent fish survival has been calculated for this 
machine. The green line on the top represents what could be 
achievable from the rehabilitation at Wanapum Dam, a 
significant boost in fish passage survival.
    In conclusion, I would like to say from my experience that 
significant improvement can be made now, today, to boost both 
the environmental compatibility of hydro and to also provide a 
boost in energy generation. We think as much as 7,000 megawatts 
of additional hydro capacity can be generated in the United 
States through a rehabilitation of the existing projects that 
are out there while we boost their environmental compatibility 
at the same time.
    Much still remains to be done. It can be done slowly in a 
step-by-step process, or it can be done in a much more rapid 
way by doing various things in parallel.
    Today's AHTS plan has the next step doing what we call 
phase 1(b), refining and understanding more clearly the 
mortality mechanisms affecting the fish as they pass through 
hydro sites and dams on their way downstream. This is a long-
term project to further refine our knowledge.
    There are also two other phases in this project--both of 
those are related to testing and validating design concepts; 
phase 2 looks at small scale model testing; phase 3 looks at 
testing of prototype turbines. We think the Wanapum Dam turbine 
is ready for prototype testing today. While it may not reach 
our ultimate goal of 98 percent survival, it will certainly 
make a significant improvement over existing machines while 
we're working on phase 1(b) and gaining further knowledge for 
design sophistication.
    Government and industry partnership will be required to 
move ahead with this goal. We would like to thank you, sir, for 
your past support, and we are where we are today because of it. 
To reach our goal, industry asked for your continuing support, 
both financial and also with your support in terms of removing 
the disincentives that are there through regulatory 
restrictions that are preventing projects like Wanapum from 
moving ahead with installing these fish turbines.
    I would like to thank you, Mr. Chairman, for your 
leadership in this issue. You will be sorely missed when you 
become Idaho's next governor.
    Thank you also, Senator, Craig, for your support. We look 
forward to perhaps your picking up the torch and carrying it 
forward.
    Gentlemen, thank you very much.
    Senator Kempthorne. Mr. Fisher, thank you, and before you 
conclude your testimony--I appreciate your comments--but I 
would like you to go to these models and just in layman's terms 
show us what an existing turbine is and what the new design 
would do. I need you to take that microphone with you. If those 
models are mobile, if you could, perhaps take them back to the 
table--
    Mr. Fisher. Yes, they are certainly mobile.
    This particular model, Senator, represents the conventional 
style Kaplan design. Based on the economics of the era when 
these were developed, they were generated to provide the 
maximum energy possible, based on the technology at the time 
and some mechanical design simplifications were made that 
resulted in spaces between the blade of the Kaplan and the 
rotating hub, here, between the blade tip and the stationary 
shroud--or discharge ring--and the trout.
    The water comes into the machine in this direction--this is 
just a segment of the machine. The water is swirled into the 
runner chamber. The blades rotate like boat propellers and 
catch the momentum of the water coming into the machine; they 
convert it into shaft rotational speed, which connects to a 
generator, which then produces the energy.
    As the amount of power from these machines is changed--you 
step on the accelerator, so to speak--these blades change 
pitch. A flat position of the blade provides a little bit of 
output, a steep position of the blade provides a large output, 
allowing more water through the machine. So as these blades 
move in response to the power needs, there are some geometries 
in here that have been detected as being unfriendly to fish. 
There are mechanical regions that can create a pinching, a 
chopping, a cutting of the fish. These regions also create flow 
environments that are very unfriendly to fish, creating fluid 
loads that can in effect tear the fish apart.
    In redesigning these machines, we can remove these 
unfriendly areas. We can also improve the efficiency of the 
machine to allow it to extract more power, and also to more 
effectively remove the energy from the water. This example 
shows what has been done in the design for rehabilitation. 
Again, this machine has been converted from a conventional 
design to an AHTS design. We have changed what we call the 
wicket gates of the machine, which control the water in, to 
remove some unfriendly gaps on these machines.
    We have changed the shape of the rotating hub to remove the 
unfriendly gaps at both the inner and outer section of the 
blades, so that as this blade moves--as these blades move in 
response to power changes, there are no gaps to create areas 
that can catch fish and there are no gaps that create leakages, 
which can create severe turbulence in the water that can injure 
fish.
    So with some of these improvements, the minimum gaps, the 
improved efficiency, the improved blade shape to better guide 
fish around the blades, the removal of the gap on the wicked 
gates and so forth, this design can be taken from its current 
situation and upgraded about 25 percent in power. The mortality 
associated with this new design is estimated to be half of the 
old design and is a large step toward our AHTS objective.
    Senator Kempthorne. All right, Mr. Fisher, thank you very 
much.
    And, may I note to Senator Smith of Oregon who has joined 
us, Senator, we are delighted that you are here with us this 
morning.

              STATEMENT OF HON. GORDON H. SMITH, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Smith of Oregon. Thank you, Mr. Chairman.
    I am here because of the hearing--it's of interest to me--
and also to pay tribute to you. I know this is one of your last 
hearings, if not the last, and while I won't be able to work 
with you everyday, I will, as your neighbor, still be working 
with you on these issues.
    So I thank you. I am curious, Mr. Chairman--first, may I 
have a statement put in the record?
    Senator Kempthorne. Yes, without objection.
    Senator Smith of Oregon. And, secondly, Mr. Fisher, why 
weren't you here yesterday?
    Senator Kempthorne. Go ahead, Mr. Fisher.
    Mr. Fisher. The Wanapum Dam, the current site is 
operating--
    Senator Craig. Mr. Fisher, would you pronounce the name of 
that dam again and locate it for us?
    Mr. Fisher. The Wanapum Dam.
    Senator Craig. Where is that located in the system?
    Mr. Fisher. The Wanapum Dam is on the Columbia River. It is 
upstream from the Snake River. It is on the Columbia River 
side. It is upstream of the bifurcation in the river where the 
Snake River comes in.
    Senator Craig. Okay.
    Mr. Fisher. It is a Grant County Public Utility District 
project. The rehabilitation project began in 1989 as a 
conventional rehabilitation of the existing machines, which 
have been in operation for over 30 years, and they are reaching 
the end of their life cycle.
    So the Grant County Public Utility District is interested 
in--they have to rehabilitate these machines or they will fall 
apart. In 1995 this project was converted from a conventional 
rehabilitation to a fish friendly rehabilitation--in other 
words, taking advantage of some of the insight gained at the 
beginnings of the advanced hydro turbine project, and some of 
the insight that was gained in the past in developing some of 
these improvements.
    This basic fish-friendly design was completed in 1996, and 
it represents about 95 percent of the advanced hydro turbine 
design concept. Significant changes to the design of the 
machine took place, including not only the rotating parts and 
the mechanical parts that I have explained here, but alsosome 
of the concrete parts that are existing in the dam, to make the 
further refinements.
    The problems with that particular project are related to 
some FERC regulations, but, first of all, let me say that in 
1996 this project was ready to go ahead and then it was decided 
to be put on hold, primarily because of the disincentives that 
were there. It was switched to a repair in kind project where, 
basically, duplicates of the existing machines which were 
there, were being installed.
    In 1990, a FERC administrative law judge passed a 
requirement saying you must at Wanapum Dam pass 80 percent of 
the fish over this spillway--it's not 80 percent of the water 
but 80 percent of the fish--when the fish are there. So this 
project has a significant constraint to spill water. Therefore, 
they can't use that water to generate power. Therefore, when 
the Public Utility District Commissioners must evaluate the 
economics and the value to their rate payer in terms of how 
they move ahead in the future, they have to pay attention to 
this regulation. They also have to further recognize that 
another FERC relicensing would be required if they changed the 
design of the turbines. Furthermore the next 50 year normal 
FERC renewal of that license is due in about 2005, and it would 
have to go through, again, similar steps, and they were quite 
concerned that they will have considerable problems there. They 
are quite concerned that they will be required to further 
spill, and so they have made an economic decision at the moment 
that we cannot in good faith invest the $70 million that they 
had planned to invest in installing these fish friendly 
turbines. Instead, they are investing money to do a repair in 
kind, and we're losing a significant opportunity here, and, 
basically, these machines now are on the shelf.
    Senator Craig. Senator Smith, I have looked at this in the 
relicensing process--just introduced legislation to deal with 
not this specifically but any time you retrofit and it is 
significant enough that FERC steps in with its current law and 
suggests that it is a need for relicense, you open up the 
entire process, which allows all of the other agencies to come 
in and create mandates into a new license. What Mr. Fisher just 
said, the 80 percent of fish over spillway, becomes one of 
those new mandates. It changes the whole economics of the 
project, and that is an issue that all of us in hydro based 
areas are going to have to be concerned about in the near 
future. The licensing process throws it wide open, and many of 
these projects are denied the ability to become what they could 
become simply because they run the costs up in so many other 
areas--there's Fish and Wildlife, National Marine Fisheries, 
BLM, Interior. All of these agencies can come to play, and say 
to a generating facility, ``You must''--not that you should, 
but that ``You must.'' No economic consideration, not even 
this, becomes a factor, so that's our big stumbling block at 
the moment, and it's something that you and I, and all hydro 
based areas are going to have to wrestle with because, while it 
may be good in some instances, it denies the good in others.
    Senator Kempthorne. What I would like to do now is begin a 
round of questioning. Each member will have five minutes, and 
we'll just keep moving through this, so I will begin.
    Dr. Roby, again, I commend you for your study and your 
discovery. I would ask when you have come to the conclusion 
that anywhere from 6 to 25 million smolt are being consumed by 
the Caspian tern, how did you come to that figure?
    Dr. Roby. Well, we used a bioenergetics model, which is 
probably the only really accurate way that we can get at these 
numbers. It's been used in a number of other situations where 
the question has been asked how many fish, or frequently game 
fish, are being consumed by fish-eating birds? So the 
bioenergetics modeling approach is state-of-the-art at this 
stage, but it is only as good, of course, as the input 
variables that you provide for the bioenergetics model, so over 
the last 2 years we have been doing the best we can to try and 
generate the best input variables.
    Senator Kempthorne. And, Senator Smith, before you arrived 
Dr. Roby had described Rice Island, and you may be familiar 
with it, but it's a very large island and the Caspian tern has 
moved in there.
    Now, Dr. Roby, would you explain--it's my understanding 
that the smolt is there migrating toward the ocean. They are 
still at the surface and there is some wedge where you have the 
salt water and the salinity coming in, but there's still at the 
surface at this particular location. The idea of moving these 
Caspian terns to another island at that point the smolt will 
not be on the surface.
    Can you give me some idea?
    Dr. Roby. Yes, that's a hypothesis actually that Dr. Karl 
Schrek, the Unit Leader at the Oregon Cooperative Fish and 
Wildlife Research Unit came up with, and he is in the process 
of testing that hypothesis. We don't have a lot of firm data 
that show that smolts when they reach the estuaries, are not 
ready to go through smoltification, the process of getting 
ready to go into sea water, that they will linger in the 
estuary, near the surface, which is where the fresh water 
stays, and, therefore, become more vulnerable to Caspian tern 
predation.
    But that is certainly a good working hypothesis, and we 
hope to test that hypothesis over the next few years.
    Senator Kempthorne. Also, the relocation of these birds. 
How would that be accomplished?
    Dr. Roby. Well, the proposal is to use a combination of 
trying to attract them to the new site through creating 
attractive Caspian tern nesting habitat, which is basically 
bare sand. We're going to try to create the habitat conditions 
on East Sand Island. We'll attract the birds, put out several 
hundred Caspian tern decoys and several playback systems that 
will broadcast essentially Caspian tern's greatest hits, and, 
hopefully, attract lots of birds to that area.
    Then, the real question is what do we do to make Rice 
Island, their current colony site, less attractive to Caspian 
terns? I think probably the best way is to try and vegetate, 
or, as someone said, naturalize Rice Island. Rice Island is, as 
you said, an enormous dredge material disposal island. It is 
almost all bare sand. It seems like when you're on the island, 
there is almost an unlimited supply of Caspian tern nesting 
habitat, but if it can be vegetated artificially initially and 
then allowed to go through succession to a natural vegetative 
state on the island, then it will be unattractive to terns.
    Senator Kempthorne. Okay. To understand these numbers--now, 
you're estimating that 100 million smolt are going down the 
river.
    Dr. Roby. That is not my estimate. The National Marine 
Fisheries Service estimates that approximately 100 million 
juvenile salmonid smolts reach the estuary or reached the 
estuary in 1997. I think their estimate in 1998 is slightly 
higher.
    Senator Kempthorne. And you're estimating that 
approximately 20 million or 25 million are being consumed by 
the Caspian tern.
    Is that just by the tern or is it also by the cormorants?
    Dr. Roby. Our estimates for just the tern population are 6 
to 25 million in 1997, and, even though we're still crunching 
the numbers from 1998, it looks like it will be a similar range 
for 1998.
    The cormorant and gull numbers are in addition to that, and 
we didn't acquire sufficient unbiased representative data in 
1997 to come up with an estimate of the number of smolts 
consumed by cormorants and gulls, but we are confident that it 
was in the millions, and this year's data will tell us how many 
millions--or at least give us a range.
    Senator Kempthorne. And is there any way then--Mr. Fisher 
your comments about if we could cut in half the mortality of 
the smolt going through the dams, how many smolt that is? In 
other words, how many smolt can we save by this new advanced 
hydro turbine?
    Mr. Fisher. I am sorry, Senator, but I don't have any 
concept of the number of smolts that go through the machines. I 
have only been concentrating on the mechanisms.
    Senator Kempthorne. Okay, I think a key point that you make 
is that at each dam it is a multiplier?
    Mr. Fisher. That is correct.
    Senator Kempthorne. I don't know, Dr. Roby, if you can help 
us--perhaps not here--but if you could provide for the record 
somehow that we can estimate, if you have a multiplier effect 
of the dams on the river, how many smolt will be surviving as 
opposed to be killed, and then if we are successful in 
relocating the Caspian tern, it seems to me that's going to 
make a significant impact, a positive impact, on smolt getting 
out to the ocean.
    Is that accurate?
    Dr. Roby. Yes, I think the biggest problem for those of us 
that are working on this issue, and it's a very difficult one, 
and there are a lot of factors involved in why we've been 
unsuccessful in restoring salmon to the Columbia River Basin, 
but just from my perspective as a biologist working on the 
avian predation issue, a big question that remains in my mind--
and I know that Carl Shrek has asked the same question in other 
venues--is if we were to eliminate avian predation tomorrow, 
how many more adults would we get back. Because it's the adults 
we want and we desperately need, and we're not sure what the 
answer to that question is. Different people with different 
axes to grind will claim one way or the other that for every 
smolt that you get out in the ocean, you will get a percent of 
an adult back. The mortality due to tern predation and bird 
predation in general is not totally additive. There's some 
compensatory mechanisms, and, by that, I mean that birds may be 
taking fish that might not otherwise survive.
    Senator Kempthorne. I need to allow Senator Chafee to 
continue the questioning. I am not a scientist; I am a layman, 
but it seems to me--and I understand that you can't predict how 
many adults will come back, but if we can through our efforts 
have 25 percent more smolt get to the ocean, we have increased 
the probability that more adults will come back.
    Is that accurate?
    Dr. Roby. Yes.
    Senator Kempthorne. Okay, thank you.
    Senator Chafee?
    Senator Chafee. Senator, I am in no rush if you want to 
continue.
    Senator Kempthorne. No, no, please, go ahead.
    Senator Chafee. Dr. Roby, this is a very interesting 
proposal and discussion that you have.
    First of all, not that we're getting casual up here with 
money, although we do deal in big sums, but I must say that the 
amounts that you were referring to that you would need, 
$204,000, seems relatively small to us. And, again, I'm not 
glossing over the amount of $204,000, but I'm just surprised 
that you're not able to come up with that money. I hope that 
perhaps we can do something to be helpful to you in your 
studies, and I don't know quite how, but I just wanted to 
comment on that. Usually, we're confronted with problems that 
are going to cost billions, but this is a relatively modest 
amount of money.
    I don't quite understand what is occurring out there. Are 
you suggesting from you testimony--first of all, are these 
indigenous birds, these Caspian terns? Have they been around 
for a long time in that area?
    Dr. Roby. Well, there's not a simple answer to that, 
unfortunately, but I'll try to give you a very brief one if I 
can, and that is that there appears to not be a history of 
Caspian terns nesting along the Pacific Coast of North American 
until the early part of this century, and no one is quite sure 
why this species expanded into the Pacific coast of North 
America starting in the early part of this century, but by 1954 
there was a small colony in Grays Harbor in Coastal Washington, 
and from those early, modest beginnings, the population along 
the coast of Oregon, Washington and California has grown. In 
fact, it looks like Caspian terns have increased, and probably 
doubled their population's size in North America over the last 
15 years. So there are factors improving conditions for this 
species.
    Senator Chafee. And, as I understood the answer you gave to 
Senator Kempthorne, the difference between moving them from 
Rice Island, which is further up the river from the coast, down 
to--what is it, East--
    Dr. Roby. East Sand Island.
    Senator Chafee. --East Sand Island, the reason they won't 
do destruction to the salmon smolts is that when the smolts get 
that far down, they are further under the surface?
    Dr. Roby. Well, we hope that that happens but we're not 
sure that it will. What we are sure of is that there are more 
alternative prey in the area of East Sand Island, such as 
marine forage fish species, including herring, shiner perch, 
peamouth, anchovies. All of these forage fish species become 
available to them if they nest down near the mouth of the river 
at East Sand Island. In fact, the cormorants that are nesting 
on on that island are consuming a large part now.
    Senator Chafee. They aren't taking the smolts?
    Dr. Roby. They're taking some but not near as many as the 
cormorants that are nesting on Rice Island where the tern 
colony is.
    Senator Chafee. Now, are there certain scientists that say 
what you're suggesting is nonsense? In other words, is there a 
counter-prevailing view or counter-view to what you're 
suggesting?
    Dr. Roby. Well, yes, one criticism of this proposed 
management action is that by moving the Caspian tern colony on 
Rice Island a scant 15 miles down river, you're not going to 
change where the birds forage. Caspian terns are capable of 
foraging up to 40 miles from their nest site, from their colony 
site.
    But from the studies that we've done in the estuary, 
looking at the distribution of foraging terns in relation to 
Rice Island, it looks like the majority of the terns are 
foraging within five miles of the colony, and 90 percent of 
them are foraging within 13 miles of the colony. So that leads 
us to suspect that if we can move the colony to East Sand 
Island, it will change their foraging distribution and it will 
change their diet, and they'll eat fewer young salmonids.
    Senator Chafee. Well, my time is up, Mr Chairman. I want to 
thank you. This is very interesting. These are things I've 
never thought of--of course, I'm from Rhode Island so I suppose 
I'm not taking all my time thinking about what takes place on 
the Snake River and Columbia River, but I find all three 
witnesses have been excellent.
    Thank you.
    Senator Kempthorne. Mr. Chairman, thank you.
    The other alternative that Dr. Roby has not gone into 
detail on, though, is the concept we've discussed, which is 
relocating the colony to Rhode Island.
    [Laughter.]
    Senator Kempthorne. Okay, Senator Craig.
    Senator Craig. Dr. Roby, I too am fascinated by the work 
you've done. Your last comment is in relation to--from the 
point of nesting out, that a tern will travel for purposes of 
food.
    Does not that have something to do with the proximity of 
the food itself or the food source itself? I mean, you've 
talked about a 40-mile traffic pattern, in essence, or the 
capability of that. If the food is at 40 instead of five, won't 
they go to 40?
    Dr. Roby. They will if they have to. The work that has been 
done with seabirds like Caspian terns has shown that they're 
energetically conservative and they tend to run a trap line 
sort of approach to foraging. In other words, they'll go out 
and they'll keep moving further away from the colony until they 
find a place where they can acquire the food that they need. As 
long as the food is in the vicinity of East Sand Island--and we 
think it is based on surveys of forage fish that the National 
Marine Fisheries Service has done in the estuary--they ought to 
be able to remain near the colony and still meet their food 
needs.
    Senator Craig. Can the tern light on water and rest on 
water?
    Dr. Roby. Yes, Caspian terns are the largest tern species 
in the world, and they are capable of swimming, unlike most 
other tern species.
    Senator Craig. So they will dive and swim?
    Dr. Roby. They won't swim under water. They forage by 
plunge diving, so they fly maybe 50 to 100 feet off the water 
and then drop into the water to capture prey.
    Senator Craig. Tell me a little bit more about 
smoltification and the time it takes before this smolt, if you 
will, moves into the salt water, and, therefore, into deeper 
depths.
    Dr. Roby. Well, under normal circumstances, it takes a 
number of weeks, of course, for a young juvenile salmonid to 
travel down the river during the out migration and reach the 
estuary and go through smoltification and egress out into the 
ocean.
    One of the issues that we think may be relevant to the 
problem that smolts have had with bird predation in the estuary 
is in the case of hatchery releases where essentially a target 
size is met, the fish are forcibly evicted from the hatchery, 
if you will, dumped into the river and they're on their own. In 
those sorts of circumstances if they reach the estuary, they 
encounter salt water for the first time, they are unprepared to 
deal with that through their gill's salt excretion mechanisms, 
and they reside there for a long period of time.
    Again, that is a working hypothesis, but the alternative is 
for them to go out to sea and die very quickly, and barging is 
the same sort of concern because, of course, it gets them down 
to the mouth of the river--
    Senator Craig. But it hasn't educated them along the way, 
has it?
    Dr. Roby. Yes, in record breaking time they get down there 
in 48 hours in what would have otherwise taken 3 or 4 weeks, 
and there they're confronted with, ``Well, do I go out now or 
do I linger and take my chances with the birds?''
    Senator Craig. How long have we known about the colony and 
what--you mentioned some growth factors. Is the presence of the 
tern on this island relatively new and has it populated its 
nesting area at a very rapid rate?
    Dr. Roby. The first notice that this tern colony got was in 
1987. Apparently, it was established in that year on Rice 
Island, which has been in existence since the early 1960s. But 
Caspian terns were first recorded nesting in the Columbia River 
estuary just 3 years before that in 1984--
    Senator Craig. So they're a relatively new bird, at least 
to this estuary?
    Dr. Roby. That is correct, and they actually nested on East 
Sand Island, and then because that part of the island was 
vegetated, they moved to Rice where they found unvegetated 
sand.
    Senator Craig. In your studies of predation we know there 
are other predators. The figure that you are giving us the 
National Marine Fisheries has developed at 100 million smolts.
    That is 100 million smolts to the mouth of the Columbia?
    Dr. Roby. To the estuary, that is correct.
    Senator Craig. To the estuary, and to the Rice Island area?
    Dr. Roby. That's right.
    Senator Craig. Do you have any other figures as it relates 
to total predation or estimates of total predation in the 
Columbia system?
    Dr. Roby. For birds?
    Senator Craig. Well, all. We know there are squaw fish, 
walleye, and bass and gulls--mammals, of course.
    Dr. Roby. Yes, marine mammals. That number, as far as I 
know, does not exist. No one has attempted the Herculean task 
of putting that together.
    Senator Craig. But you are 100 percent certain that a smolt 
consumed by a Caspian tern in or near Rice Island will not be 
allowed to return as an adult salmon. Is that not correct?
    Dr. Roby. I think we can be safe in saying that.
    [Laughter.]
    Senator Craig. All right, I thank you.
    Senator Kempthorne. Okay, Senator Smith.
    Senator Smith of Oregon. Dr. Roby, was there a correlation 
in time when they began barging to the explosion in population 
of the Caspian tern?
    Dr. Roby. I don't believe there is a relationship there, 
and the reason I say that is because the terns themselves are 
not keying into barge releases, if you will. There seems to be 
no--I assume that's why you asked the question, or maybe I 
misinterpreted it. A recent newspaper article mentioned that 
essentially all the smolts that Caspian terns consume are 
greater than the number of fish that have been barged around 
the dam, and that, strictly speaking, is not supported by our 
data, but it is possible that that many fish could be consumed 
by the Caspian tern population, equivalent to what's barged.
    But the terns because they're nesting in the estuary are 
not keying in on the barge releases, which are about 100 miles 
up river, I believe, and by the time they get to the estuary it 
looks like even though there may be a slug of smolts moving 
through at one time and the birds may be somewhat able to key 
in on that, it looks like they have dispersed enough so that 
they're not forming a dense ball of prey for the Caspian terns.
    We're in the process of collecting pit-tags, passive 
integrative transponder tags, from Rice Island where the tern 
colony is, and we want to try and answer the question, are 
barged fish more likely to end up being prey of Caspian terns 
than run of the river fish? We don't know the answer to that 
yet.
    Senator Smith of Oregon. Do you believe that Caspian terns 
are just background mortality or are they a serious problem?
    Dr. Roby. I believe bird predation is background mortality 
for smolts. I think there were always large populations of 
fish-eating birds in the Columbia River estuary, apparently not 
including Caspian terns. They seem to be a relatively new 
addition, but, certainly, cormorants have been there ever since 
Lewis and Clark came down the river. They even referred to them 
in their journals.
    So bird predation isn't a new challenge or new hurdle for 
smolts to negotiate, but this particular Caspian tern colony 
may be something that they've never really--
    Senator Smith of Oregon. Something beyond background 
mortality?
    Dr. Roby. Yes.
    Senator Smith of Oregon. Dr. Fisher, I am wondering are 
these retrofits? Are there other dams where these could be 
applied where they are not being applied for regulatory 
reasons?
    Mr. Fisher. Senator, yes, they can. In fact, all of the 
Kaplan turbine projects on the Columbia could have similar 
types of retrofits. Each of those machines is uniquely 
designed. Each of those machines would have a unique retrofit 
associated with it, but all of them could incorporate the fish-
friendly features that have been identified as part of the 
design concepts. In fact, some of those are being incorporated 
now into the rehabilitation underway at the Bonneville dam.
    Senator Smith of Oregon. You say all of them could use it?
    Mr. Fisher. All of the projects could benefit from this.
    Senator Smith of Oregon. But it is happening at Bonneville?
    Mr. Fisher. Some of the modifications are now happening at 
Bonneville.
    Senator Smith of Oregon. How did Bonneville escape the FERC 
process without being inundated with new demands?
    Mr. Fisher. I am not aware of that process. It's a Corps 
project that may be exempted from some of those regulations.
    Senator Smith of Oregon. So it's exempted from those?
    Mr. Fisher. I am not sure--that's beyond my scope of 
expertise.
    Senator Smith of Oregon. I'm not sure either.
    How much additional energy would that produce? Would that 
pay for the cost of retrofitting, and if so, in what period of 
time?
    Mr. Fisher. The design developed from the Wanapum dam could 
produce about 20 percent more capacity because of the inherent 
characteristics of the design.
    For Bonneville the machines were not designed to increase 
capacity, but they were designed to use the water more 
efficiently. So at Bonneville there is no more energy generated 
other than through better use of the existing use of the water 
that's there, but at Wanapum about 20 percent improvement in 
its total plant capacity could be generated. So it depends on 
the design objective.
    Senator Smith of Oregon. The retrofit is $70 million?
    Mr. Fisher. The retrofit from a conventional perspective, 
just retrofitting with a conventional design with a 
conventional scope of supply was estimated to be about $30 
million. The incremental, another $40 million, was resulting 
from the increased scope to be able to get the environmental 
benefits. In other words, the conventional design got some of 
the increased capacity, but it didn't have all of the 
environmental benefits. An additional $40 million is associated 
with the--environmental issues.
    Senator Smith of Oregon. And how much improvement in fish 
mortality would this provide?
    Mr. Fisher. We expect it will cut the existing mortality in 
half.
    Senator Smith of Oregon. In half. If it cost this amount of 
money, $70 million, and you produce 20 percent more energy, 
you've calculated how many years amortized paying for that?
    Mr. Fisher. It amortizes within, I think, 10 years--
something like that. It's relatively a sound investment. It's a 
win-win for industry.
    Senator Smith of Oregon. Thank you, Mr. Chairman.
    Senator Kempthorne. Senator Smith, thank you very much.
    Mr. Fisher, some people have referred to the concept of a 
fish-friendly turbine as being an oxymoron. They consider that 
a turbine is in essence a blender as opposed to revolving doors 
that can safely allow the entrance and exit of a fish.
    Would you address that concept?
    Mr. Fisher. It's a size related issue, and it's a turbine 
design related issue. There are many different styles of 
turbine designs, some associated with small streams and a very 
high difference in what we call the head at the site or the 
potential energy at the site or the difference between the 
upstream of the dam and downstream of the dam.
    On the Columbia River the heads are in the order of 
magnitude of 100 feet. The turbines are designed to be very 
large, and most of those machines are designed as Kaplan 
turbines. So, in essence, a Kaplan turbine can be envisioned as 
a revolving door, and a very big door, if you're a small fish.
    The same style of turbine in a much smaller size that might 
be typical of a turbine in the Midwest or on the East Coast, 
same kind of Kaplan turbine. If it were one meter in diameter 
as opposed to 10 meters, which might be typical of the--or 
eight or 10 meters of the Kaplan--then the revolving door is 
much smaller. It is rotating much more quickly, and it gets 
real small and rotating real fast, and if the fish is big, then 
it becomes a blender.
    So it is the relative size of fish compared to the turbine 
that is really significant. So for the Columbia big turbine and 
small smolts--it's a very favorable situation. The average fish 
passage survival--the direct survival of fish passing through 
the Columbia River turbines, the average is somewhere in the 
order of 90-92 percent. So those, by any stretch of the 
imagination, are not blenders.
    Cutting those mortalities in half, or, even better, 
reaching the 98 percent goal would make a significant impact in 
being able to migrate the salmon smolts downstream.
    Senator Kempthorne. If we accept the National Marine 
Fisheries' figure of 100 million smolt in the river, and you go 
from a 92 percent to a 98 percent rate, how many additional 
smolt is that that are saved?
    Mr. Fisher. That would--if it is 100,000,000 smolts 
reaching the estuary, then there would be probably three 
times--probably three or four times more smolts. I will 
calculate the numbers and let you know what those are.
    Roughly, we have some statistics on this one chart. May I 
refer to this chart?
    Senator Kempthorne. Sure.
    Mr. Fisher. We can see in this hypothetical example if all 
the turbines were 87 percent fish passage survival, and there 
were 10 projects on the river system--there are really eight, 
but 10 makes a nice number--then only 25 percent of the total 
fish starting at the first dam arrive at the last dam. If we 
can boost this passage survival up to 97 percent, which is this 
number, then there is a 50 percent improvement taking us from 
25 percent of the fish surviving up to about 75 percent of the 
fish surviving.
    So if that were 100 million fish starting the trip, 25 
million would survive here; 75 million would survive here, 
roughly three times the number of fish.
    Now, the fish don't all start at the top, they don't all go 
through all of the dams, or through all the turbines, and so 
the answer is not so easy, but a significant impact can be 
made.
    Senator Kempthorne. You see, again, it just strikes me that 
why in the world we don't get on with this type of new 
technology and science, why we don't get on with removing 
Federal restrictions and roadblocks because what you're 
discussing is the aspect of allowing more smolt to survive, and 
then we have a man-made Federal island that is consuming 6 to 
25 million smolt because of a bird that's moved in. And it 
seems to me if we can address that aggressively, and Rice 
Island at 230 acres is a moving target because you're 
continually dredging the Columbia, and I don't know how many 
acres it will be in 5 years. And, again, it's the placement of 
that sand, which is the absolute habitat the Caspian tern 
wants, so it's going to have to be an ongoing management 
effort.
    But it seems to me you can start adding together just these 
two steps, which somehow is going to aggressively allow many 
more smolt to make it to the ocean. Now, then we have to deal 
with this whole aspect of the ocean, but, boy, it seems to me 
there are some steps sitting right there in front of us that 
ought to be taken in an aggressive fashion, and, again, I don't 
know why we would not want to pursue that before we entertain 
the idea of breaching the dams.
    Senator Craig?
    Senator Craig. Mr. Fisher, not only do you create greater 
efficiencies of fish passage--and I understand the blender 
versus size concept. I was amazed when I was driven in a small 
pick-up truck into the turbines at Grand Cooley. There were 
some being repaired, and I had no fathom of the huge size of 
those, so if you can, in essence, take away the shape edges in 
some of the turbines, what you're saying makes sense.
    But how does this concept--I think you had one chart that 
showed that only do you allow more fish to pass through 
unharmed, but you create greater efficiencies or a higher 
ability to produce energy. Is that not correct?
    Mr. Fisher. That is correct.
    Senator Craig. It becomes even a more productive turbine.
    Mr. Fisher. That is correct.
    Senator Craig. By what amount?
    Mr. Fisher. It can range--as an example, at Bonneville dam, 
the improvement in the efficiency of the design was about six 
to eight percent, and that's operating efficiency. That means 
it uses the existing water more efficiently. If there is not 
enough water, then that would result in additional energy 
generation. In other words, the turbines are sized to take more 
water than is currently coming down the river.
    At the Wanapum dam the turbines were designed to pass 
additional water, plus have an additional efficiency. So 
depending on whether there's excess water available or not, if 
there is excess water there, then they can use that excess 
water. If there is not excess water, then the efficiency 
improvements will use the water more efficiently and also 
generate more energy.
    So it can range from three percent when there is a small 
amount of water there to as much as 20 percent when there is a 
large amount of water being spilled.
    Senator Craig. So the great hypothetical is that if we 
retrofitted all of the dams in the Snake-Columbia system with 
these kinds of designs, or enhanced designs--not maybe these 
but these and others that would come along--we not only 
potentially up the amount of fish smolts we get out to the 
ocean, but we create an even greater energy source?
    Mr. Fisher. That is correct.
    That is a very attractive thing about the set of design 
concepts.
    Senator Craig. I agree.
    Dr. Cloud, one of the things that I participated in it at 
the State level and now here getting money to build 
hatcheries--and we've built a lot of them as fish numbers were 
declining or as we changed the characters of river systems, as 
you well know, as we changed the character of the lower Hells 
Canyon, built the Hells Canyon complex, built hatcheries, 
diverted fish, all in the name of saving, maintaining or 
increasing numbers, and then along comes our focus on these 
different species of salmon in the Snake and Columbia system 
and their listing, and all of the energy that we're into now, 
trying to resolve and save these fish.
    One of the frustrations I've had--I think I understand it 
but it's still frustrating. We've had a lot of people say, 
``Stop the hatcheries, stop the hatchery fish. Don't put them 
into the rivers. Let's go natural.'' I understand the vigor and 
the vitality of native fish and I've read as much as I could on 
it.
    At the same time we do have a very large investment out 
there, and, properly run, it can produce a lot of fish into the 
system, but we've heard Dr. Roby talk about the intellect of 
these hatchery fish and all of that. I've read about that--
don't criticize him, agree with it from what I've known.
    You said something then that triggered my thought as it 
relates to the usefulness of hatcheries versus gene pooling. 
Did I understand you to say in the essence of gene pooling to 
save these last remaining fish that may be out there, and, as 
you know, that's true in some of these species that we're 
dealing with, that you would associate the ability to gene pool 
by freezing the sperm to be utilized in a hatchery environment 
to reproduce a new fish that would have those characteristics 
to be released into the system? Therefore, am I right, and are 
you suggesting, by your efforts or gene pooling, a value to the 
hatcheries that ought to be maintained as a part of the system?
    Dr. Cloud. What I was suggesting was that there are some 
inherent changes in the population or can be relative to the 
use of hatcheries, and this program of cryopreserving semen 
before that change occurs would allow you to have all of the 
genetics available when hatchery production can be approved--
improved. I think that's all that this program will allow you 
to do is to have a back-up system.
    I think--I am not a fisheries biologist so I'm talking 
really from a private opinion, but it looks like we need 
hatcheries to produce fish, and I think it's the best tool that 
we have at the moment, but I think that as time goes on we can 
improve that. So all a gene bank will allow you to do is come 
back and say, ``Well, we have the genetics of that original 
population, so when we make those improvements, we can come 
back and be better off.''
    Senator Craig. I think all of us at least have concluded by 
studies that hatchery management needs to be improved and there 
are problems with it, as it relates to a lot of different 
aspects of the rearing of the fish, and the release of the 
fish, and what they do and don't do. But, of course, we've also 
got that debate out there, as you know, in our area that says 
hatchery fish in essence compete with native fish or pollute 
the process, or pollute the relationship of the environment in 
which a native fish prospers. And that has always been 
frustrating to me, so I was curious as to how you were seeing 
it in relation to the effective use of a gene pool because it 
does make sense to me that if we have the opportunity to 
ultimately change a system, a river system, to make it more 
fish-friendly--and that's our goal--then that's going to take 
time. You're not just going to go retrofit, and you're not 
going to change the island, and you're not going to do that 
overnight. It's going to take potentially decades of time and 
billions of dollars.
    If we're hoping to save the fish and still save our 
production systems, and our slack water, and all of that that 
is valuable to the region, somehow it would be tragic to lose a 
couple of species of these fish in the meantime. You're 
suggesting that gene pooling may be that opportunity, at least 
to retain some of those characteristics to at some point in the 
future be able to reintroduce them into the system?
    Dr. Cloud. Exactly, Senator. So what this program would do 
would be to buy time.
    Senator Craig. Thank you.
    Senator Kempthorne. Dr. Cloud, I would like to ask you a 
final question, and that is what would a gene bank program for 
the Columbia-Snake basin cost? If in fact we want to move 
forward with this cryopreservation, with the idea that we could 
then preserve that material for up to 100 years, what's the 
price tag?
    Dr. Cloud. Senator, I think the price tag is variable. In a 
sense, you asked the question how much do you want and how 
fast?
    I think that a ball park figure would be something like one 
and a half million a year annually--that would be more than 
adequate, and that would include a research program to try to 
bring on line the ability to freeze eggs as well.
    Senator Kempthorne. And do you think too, Dr. Cloud, that 
in the private sector there would be partners that would want 
to join in this effort?
    Dr. Cloud. I would hope so. If we look at the germ plasma 
repositories for plants, for example, that the USDA has, we 
have a large agriculture industry in our State. There may be 
some genes in those native populations that those folks may 
need, and I would like to see private industry be a part of 
that.
    Senator Kempthorne. Good, I appreciate that.
    Well, to all three of you, you've been outstanding 
witnesses here this morning, and, again, I commend you for your 
work. I think it's exciting, and I think it gives us some of 
the suggested course of action that we ought to seriously not 
only consider but be pursuing. So I thank the three of you.
    With that, I would like to call the next panel forward 
please.
    In our second panel we will hear how agencies have been 
responding to these particular issues. I hope that as a result 
of this hearing we can look forward to new ways to incorporate 
the information coming from our scientists and our engineers.
    I look forward to hearing from Colonel Eric Mogren of the 
Corps of Engineers. The Agency has been responding to the avian 
predator issue in the advanced hydropower technology 
opportunity. He is accompanied by Bob Willis of the Corps of 
Engineers.
    And Danny Consenstein is with us representing the National 
Marine Fisheries Service. He will discuss the avian predator 
issue, the hatchery and harvest issues and we'll have comments 
on advanced hydropower.
    Danny, it's good to see you again. We were partners in our 
visit to Rice Island.
    With that, let me call upon Colonel Mogren, if you'd like 
to make your comments.

 STATEMENT OF COLONEL ERIC MOGREN, DEPUTY COMMANDER, NORTHWEST 
  DIVISION, UNITED STATES ARMY CORPS OF ENGINEERS, PORTLAND, 
                             OREGON

    Colonel Mogren. Thank you, Senator.
    Good morning, Mr. Chairman, Senator Craig, distinguished 
guests. My name is Colonel Eric Mogren. I am the Deputy 
Commander of the Northwestern Division of the U.S. Corps of 
Engineers. I want to thank you for the opportunity to testify 
here today.
    My testimony will address avian predation and turbine 
passage improvements, topics within the Corps scope from among 
those listed in the agenda that you sent out inviting me to be 
here.
    Recent research has indicated that colonies of Caspian 
terns, gulls and cormorants in the estuary are consuming large 
numbers of salmon and steelhead smolts as these young fish make 
their way to the ocean. Caspian terns nesting on Rice Island 
are the major part of the avian predation problem, as testified 
to by Dr. Roby.
    They are also protected by the Migratory Bird Treaty Act. 
Our efforts must, therefore, focus on finding a balance so that 
we can provide suitable habitat within which both the terns and 
the salmonids can survive and prosper.
    Rice Island was created in 1962 by the placement of dredge 
material. It is located about 20 miles upstream of the mouth of 
the Columbia River. Over the years it has become a nesting site 
for thousands of gulls, cormorants, and, since 1987, Caspian 
terns. Rapid increases to Caspian tern nesting colonies were 
noted in the early 1990s.
    Due to concerns about avian predation on the young salmon 
as they moved through the estuary, the National Marine 
Fisheries Service's biological opinion on salmon in the 
hydropower system requested us to address this. We have come up 
with a short-term plan to address the problem that has 
presented some controversy. The birds have their supporters, as 
do the salmon. I believe the proposed plan balances these 
concerns, but we will see what responses we receive when we 
issue an environmental assessment for public review toward the 
end of this month. That environmental assessment is in draft 
right now and we expect to have it out by the end of the month.
    I've been working with other Federal officials--namely, 
Will Stelle from NMFS and Ann Badgley from the Fish and 
Wildlife Service--to share responsibility for implementing this 
plan. While this is a multi-agency effort involving some of the 
best experts in the field, there is no guarantee that this near 
term plan will be fully successful. This uncertainty attests to 
the need for combined agency approach to a long-term adaptive 
management plan, including funding for those long-term efforts.
    I would now like to address the topic of safer turbine 
passage for juvenile fish. While juvenile fish bypass systems 
increased spillway passage, and truck and barge transport for 
juvenile fish have greatly improved juvenile fish passage, a 
percentage of fish continue to pass the dams through the 
turbines. The survival rate for turbine passage is estimated at 
between 89 and 94 percent per dam. While this may seem to be a 
good survival rate, it diminishes considerably when multiplied 
by passage through as many as eight dams.
    The Corps currently has a turbine passage improvement 
program underway. This turbine program is developed from a 
turbine passage survival workshop we held in 1995 to discuss 
with experts the possible mechanisms affecting survival of 
juveniles through the turbines. One of the ideas that developed 
is the concept of the minimum gap runners, which Mr. Fisher had 
talked to previously. It is believed that this design change 
will result in improved juvenile survival. We will have the 
first units available in 1999 for testing of this concept at 
Bonneville Dam.
    In addition, in 1997 we initiated a turbine passage 
survival program. This is a 4-year program to identify 
potential areas of injuries to fish in turbine passage, and to 
design better turbines to reduce this injury. Power plans 
include model studies, and, if warranted, the field testing of 
prototypes.
    Now, under the constrained fiscal year 1999 appropriation 
some of the turbine studies program activities may not be 
funded, and, as you know, sir, about $60 million came out in 
the conference report for the fish program against what the 
Administration had asked for, and I believe what the Senate 
came up with is $90 to $97 million. The regional systems 
configuration team met within the last couple of weeks and made 
a priority list of how they would like to see that $60 million 
spent.
    Of the three turbine passage items that were on our 
listing, two made it above the line; one fell below. Senior 
managers at our division headquarters met just a few days ago, 
and they're going back in with a revised priority recommending 
the SCT reconsider that and have asked that all three of those 
turbine passage studies be put above the line. That's still a 
work-in-progress, though.
    That concludes my statement. I thank you for the 
opportunity to testify, and I look forward to your questions.
    Senator Kempthorne. Colonel, thank you very much.
    I might add, as you know, I've placed into the Senate's 
Water Resource Development Act $1 million for Caspian tern 
projects. So it's over in the House. Hopefully, something will 
be worked out today. There's be some problems, but we hope good 
turn deserves another.
    [Laughter.]
    Senator Kempthorne. All right, all right.
    Let me note here that the Regional Director of the U.S. 
Fish and Wildlife Service that was invited has not been able to 
attend this hearing. I understand that she has recently assumed 
the directorship and that there are many urgent matters that 
require her attention. I've been assured that the Service wants 
to play a constructive role in crafting the final decision of 
the interagency task force on the Caspian tern, and recognizes 
the critical importance of this issue. And, therefore, the 
Service has asked David Wesley to be here today to answer 
questions.
    So, Mr. Wesley, thank you. We're glad that you're here.
    There is a vote that is currently taking place on the floor 
of the Senate. So I'm going to recess the hearing briefly so 
that I can go over there and vote, and I'll be right back and 
we'll continue.
    Thank you.
    [Recess.]
    Senator Kempthorne. I'll call the meeting back to order.
    Colonel, let's go ahead and just ask a few questions here.
    You are ready to install the advanced hydro turbine, in 
other words, the fish-friendly turbine, and when will you will 
install them? Where will you begin?
    Colonel Mogren. Sir, Bonneville was scheduled for a major 
rehabilitation, and they are being installed at, I think, the 
Bonneville 1 Powerhouse, as part of that rehabilitation.
    Mr. Willis. I think they're going in now, and I believe 
they'll be up and running by next year.
    Senator Kempthorne. All right, I think that's very 
exciting.
    I understand that at one point Rice Island was provided to 
the Fish and Wildlife Serve as a bird refuge. Who owns the 
island now? Are there any other dredge-spoiled islands in the 
river that might become focal points for tern colonies?
    Colonel Mogren. Sir, as you know, the island was created 
through dredge spoils. By law it's owned by the State of 
Oregon, and part of it is owned by the State of Washington. It 
had been leased to the Fish and Wildlife Service as part of the 
Lewis and Clark game refuge back in the 1970s, I believe it 
was. That lease, as I understand it, inadvertently lapsed in 
1994. So the ownership is the States own it, and, of course, 
we're operating it as a dredge disposal site.
    With regard to your other question on other disposal sites, 
there's an island--Bob, could you point out Miller Sands 
Island?
    Right next to Rice Island is Miller Sands, and, sir, you 
probably saw that when you were on the island. They're visible, 
within a mile of each other, and there's been some tern nesting 
there in the past, and then, of course, there's Sand Island up 
at the mouth of the river.
    Senator Kempthorne. I imagine, as I understand this, 
though, the other islands are heavily vegetated--I noted that 
from the helicopter. So as you add these dredge spoils, you are 
again creating that habitat that is conducive for the tern 
habitat?
    Colonel Mogren. Yes, sir.
    Senator Kempthorne. So now do you feel that this 
cooperative effort among the different agencies--is that 
working well? Are there any roadblocks to moving forward with 
the management program that we've discussed with regard to the 
avian predation?
    Colonel Mogren. Senator, I think in the short-term plan, 
we're in very good shape there. As I've mentioned, I've talked 
personally with Will Stelle on this of the National Marine 
Fisheries Service. I've talked with Ms. Ann Badgley, the 
Regional Director of the Fish and Wildlife Service. At the 
staff level, of course, we have excellent working relationships 
with the university researchers, such as Dr. Roby.
    So I think at the working level and at the staff level, 
with regards to the short-term plan of trying this experiment 
and moving the birds from Rice Island out to East Sand Island, 
we're in pretty good shape with the agencies all cooperating 
fully to pull that off.
    Senator Kempthorne. Okay.
    Colonel Mogren. Incidentally, we just recently signed a 
three-agency letter, outlining to the Caspian Tern Working 
Group, asking them to develop a budget to start working on a 
long-term plan and put some meat on the bones, as we're 
proposing to do.
    Senator Kempthorne. Is there a lead agency among those 
agencies?
    Colonel Mogren. Sir, right now we're working in a 
cooperative manner among the three agencies.
    Senator Kempthorne. And is there anything additional that 
you need from Congress in order to be successful with that 
effort?
    Colonel Mogren. I think the--Senator Chafee mentioned the 
relatively small amount of money we're talking about here. I 
think it's $204,000 for the evaluation and monitoring plan. 
There's about $140,000 additional. The Corps is going to be 
putting up some of this--NMFS is putting up some of that this 
year--but if this turns out to be a long-term process and 
requiring long-term management of this very large bird 
population, which, as history has shown, is able to move pretty 
much where it wants to go, the funding of this could be an 
issue here because none of the agencies have this right now in 
our current operating budgets.
    Senator Kempthorne. Okay, Colonel, thank you very much.
    With that, let me call upon Danny Consenstein. Danny, if 
you would, give us your overview.

  STATEMENT OF DANNY CONSENSTEIN, COLUMBIA BASIN COORDINATOR, 
     NATIONAL MARINE FISHERIES SERVICE, SEATTLE, WASHINGTON

    Mr. Consenstein. Thank you, Senator, Mr. Chairman.
    I would like to thank you for the opportunity to testify 
here today. My name is Danny Consenstein, and I am the Columbia 
Basin Coordinator for the National Marine Fisheries Service.
    What I would like to do is summarize my written testimony, 
submit the written testimony for the record, and then at the 
conclusion of my testimony I would like to take the opportunity 
to discuss a few points about the PATH report that Senator 
Craig had mentioned.
    Senator Kempthorne. That would be good.
    Mr. Consenstein. So let me just hit the highlights of the 
testimony. The first point I would like to make is about the 
status of the endangered species in the basin. We need to 
remember that in the Snake River basin, and in the Snake/
Columbia basin, we have three species of Snake River salmon 
that have been listed--the spring/summer chinook, the fall 
chinook and the sockeye. There are three species of steelhead 
that are listed--one in the upper Columbia River, one in the 
Snake River basin, and there's a lower Columbia steelhead that 
is also listed under the Endangered Species Act. We have 
proposed for listing three species of chinook salmon in the 
lower Columbia, in the Willamette and in the upper Columbia. 
The chum salmon in the Columbia River has also been proposed 
for listing and another two species of steelhead are also 
proposed for listing.
    In addition to that, the Fish and Wildlife Service has 
proposed listing the bull trout in the Columbia Basin, coutney 
white sturgeon and some species of snails are also proposed or 
are on the list. So the picture of species that are at risk in 
the basin is wide and they impact just about all of the 
watersheds in the Columbia basin.
    The salmon life cycle is complex in that salmon migrate 
long distances, and the human activities that have affected the 
salmon are also vast and cover everything through the ranges of 
habitat, and include degradation through a number of different 
sources--the effects of the hydropower system, and the effects 
of harvesting fish, the effects of fish hatcheries on the 
system. I want to stress that we need to take this kind of a 
comprehensive approach when we look at restoring salmon and 
steelhead and these other species in the basin to make sure 
that we look at all aspects of the salmon life cycle, and look 
at the ecological requirements of all of these diverse species.
    Another point I would like to make is that we should use 
the best available science when designing this kind of a 
restoration program, and at NMFS, we believe that we can 
develop a basin-wide plan for the region that can restore these 
healthy salmon runs, while at the same time maintaining a 
strong, healthy economy in the Pacific Northwest.
    There are no quick fixes, and no silver bullets, but if we 
take this comprehensive approach, I think we can solve these 
problems.
    So I would like to discuss, as we talk about in the region, 
the ``Four H's'', starting with ``harvest,'' some of the 
actions we're taking in these various H's.
    In harvest, we have restricted commercial, recreational and 
tribal treaty fisheries. Harvest rates in the past have ranged 
from 60 to 90 percent, and they have now been limited 
significantly from that. For example, for the Snake River 
spring/summer chinook, their harvest has been limited to 
between 5 and 10 percent for the past 15 to 20 years. We've 
been looking at that for a long time and right now that harvest 
is not considered a significant impediment to recovery.
    Other significant reductions have been made for fall 
chinook and steelhead, for example, in this year's tribal in-
river fishing on the Columbia River fall chinook stocks. The 
impact of that fall chinook fishery, on the steelhead, has been 
reduced from 32 percent to a range between 10 and 15 percent, 
so that's been cut in half this year.
    On ``hatcheries'' we've proposed hatchery reforms that 
focus on natural populations, and that means using locally 
adapted broods--not using exotic broods, but trying to use the 
broods adapted for the local tributaries. In the future, we may 
have to use hatcheries more aggressively in specific areas 
where the risks of extinction are the highest, such as the 
captive broodstock programs that we've used in the Snake River.
    What we're proposing is a broad assessment of the 
tributaries to determine where we're going to need to do that 
kind of aggressive hatchery intervention; and where, when, and 
how to develop a hatchery program that can address that.
    I think we'll also have to look at the existing hatchery 
programs to see how they can be reformed. One example of the 
kind of research that we're doing at the NMFS Northwest Science 
Center is a program called ``Natures'' where we are looking at 
hatchery practices and trying to improve them in such a way as 
to improve the survival of those hatchery smolts. For example, 
currently most of them are raised in concrete raceways, and 
then they are sent out into a more natural stream, and they 
often don't survive very well. But we're trying methods where 
we put gravel and cover over the raceways so that they are 
raised in more of a natural environment. For example, they 
currently get fed from the surface so the fish learn when a big 
shadow comes over, it's bringing food, and then they go out in 
the wild, and when a bird comes over, they think that's food. 
So we're trying to make recommendations to improve hatchery 
practices, as well.
    In the ``habitat'' arena, I think we all recognize that 
degradation of habitat has had an impact on the spawning on 
rearing habitats and that part of the salmon's life cycle. On 
Federal lands we've been using the Northwest Forest Plan, and 
the aquatic strategy developed in that plan to try to identify 
key watersheds and try to protect them. We try to provide some 
connectivity between high areas of quality habitat for salmon.
    In the east side some of the data that's being developed 
through the Interior Columbia Basin Ecosystem Management 
Project, is going to be useful to also identify key watersheds 
on Federal lands there. On non-Federal lands it's a little bit 
more difficult how you identify habitats and how to protect 
them, but we've been using habitat conservation plans (HCPs), 
working with, for example, Washington State's Department of 
Natural Resources to protect State lands. We're also trying to 
work with the Natural Resource Conservation Service to give 
guidance to farmers so that they can protect salmon habitat on 
their private lands.
    On the hydropower system, we're mostly guided by the 1995 
biological opinion for the operation of the Federal Columbia 
River Power System, the FCRPS, and we're using an interim 
policy that we've come to call ``spread the risk,'' where we 
are using a combination of measures to improve the in-river 
conditions that the smolts migrate through, and, at the same 
time, transport a significant number of smolts through the 
transportation system. We test that to see which one does 
better, and the data is coming back from those studies now.
    These interim improvements have had the result of raising 
survival rates of juvenile spring/summer chinook through the 
system to a level now in the 1990s that is roughly double what 
it was in the 1970s. We're very supportive of the efforts to 
improve and to reduce mortalities through innovative turbine 
technology.
    I don't know if you can see this chart from here, but this 
bar chart indicates the years down at the bottom starting in 
1964, and all the way at this end it's 1998. On the left is the 
percentage of survival through the system from lower Granite 
dam to Bonneville, and this is for spring/summer chinook. It 
shows that in the early 1960s the total survival rate through 
the entire system was about 40 percent, and then it declined--
we're not sure why--but it declined in the early 1970s down to 
one percent, two percent here, and there were some spikes where 
there were some good years. Then in this period of the 1980s 
there was a gap in the data, but now that we have really good 
data coming in, we can see that the survival rate for the 
system is back up to what it was in the 1960s when there were 
less dams.
    So I think this shows that the efforts we have made through 
the 1995 biological opinion to improve the conditions has 
worked, and we are getting higher survivals through the system.
    Now, I would emphasize, though, that the survival rate of 
smolts occurs down to the end of the system, but we're still 
not getting the adult returns that we need to ensure recovery. 
This is just another bar chart that shows what the kind of 
returns--
    Senator Kempthorne. I'll tell you what, Mr. Consenstein, if 
you would go to the other side because they're trying to pick 
it up here.
    Mr. Consenstein. Should I go--
    Senator Kempthorne. Just hold it on the other side--that's 
good.
    Mr. Consenstein. Is it okay? I know I'm beyond my time.
    Senator Kempthorne. You're doing well--about one more 
minute.
    [Laughter.]
    Mr. Consenstein. Okay, I'll wrap it up, but I just wanted 
to indicate that these are the actual returns for what they 
call the smolt to adult return ratios, and it shows that when 
the stock was healthier back in the 1960s, the ratios were up 
around four percent, and I think that's what most scientists 
estimate. We need to have healthy runs, somewhere between 4 to 
6 percent return ratio. That's what they were in the 1960s and 
1970s and then they declined.
    So here we are up in 1995--the latest year we have data for 
is 1995. We're still way down below one percent, so we've got a 
long way to go to get the returns back, and I think that's sort 
of the bottom line that we need to keep our eye on.
    So let me move on and I'll try to quickly wrap up. On 
predation, we've had a lot of discussion today on that subject. 
I would just support most of what Colonel Mogren has said, and 
just say again that the three agencies involved in this--the 
Corps of Engineers, the National Marine Fisheries Service and 
the Fish and Wildlife Service--have been working closely 
together in the region to develop a plan, a short-term plan. 
Colonel Mogren mentioned the letter that all of the regional 
directors signed to the Caspian tern working group calling for 
some immediate action and an immediate plan, and we do intend 
to try to get this short-term plan implemented for the 1999 
out-migration season.
    We also have predation programs for fish mostly in the 
river, for what's known as the squawfish. Scientists like to 
call them the Northern pike minnow. We've had a management plan 
that is intended to test the hypothesis that predation can be 
reduced, and that that reduction in predation will have an 
impact on survival. So there has been a plan since 1990. It's 
mostly intended to reduce the squawfish.
    I would mention that in this recent PATH report, the 
scientists that looked at this in-river predation program had 
some questions about how effective they thought it would be 
based on their experience in other fields with predation 
reduction programs.
    On marine mammals, NMFS is doing quite a bit of research on 
the West Coast to look at their dramatic increase. Over the 
last 20 years we've estimated that between 5 and 7 percent 
annual increase in marine mammals, mostly Pacific harbor seals 
and California sea lions. This program is being conducted 
through the NMFS Northwest Science Center. There will be some 
more data on that in April of 1999 on what the extent of this 
predation is on salmon. There's a specific case where we're 
conducting a cooperative program with the Oregon Department of 
Fish and Wildlife to look at those California sea lions that 
are concentrating at the base of the Willamette Falls and 
seeing what we can do about that specific predation problem 
there. We're also working on a program tracking and marking 
California sea lions in the Columbia River to try to determine 
their origin habits and their movement in the river. On 
management last year the National Marine Fisheries Service 
issued a draft report for public comment. One of our 
recommendations in that report was to support lethal removal of 
pinnipeds of marine mammals in some of those specific 
situations where you could identify that they were causing some 
impact on listed species, and we will have a final report 
submitted to Congress in 1999 when Congress will begin 
reauthorization of the Marine Mammal Protection Act.
    Part of what I'm saying there is that I think we need some 
new authorization in order to do the kinds of lethal removal of 
marine mammals that will be necessary to try to restore salmon.
    Senator Kempthorne. Mr. Consenstein, let me, if I may at 
this point, we will include your statement as part of the 
record. What I would like to do is go to some questions now so 
that we can zero in on some of these topics that you've very 
appropriately raised--I appreciate it.
    Mr. Consenstein. Thank you, Senator.
    Senator Kempthorne. With that, Senator Craig, let me call 
on you for questions that you might have.
    Senator Craig. Thank you, Mr. Chairman.
    Mr. Consenstein, we appreciate your being here today and 
providing that statement. I have had observers of returning 
salmon say that there is hardly one that gets to the upper 
reaches of the Columbia or the Snake system that doesn't have 
marine mammal bites or scars on it. I don't know if there are 
any statistics out there to argue that. Are there?
    Mr. Consenstein. Senator, what you're suggesting is that 
there are interactions between marine mammals and salmon in the 
Columbia River, and I think that is probably correct. What the 
scientists are trying to do is try to determine where they are, 
and once they determine where they are, what we can do about 
them. The difficulty is if you look at the map that we had 
earlier of the Columbia River estuary five to eight miles 
across, as a management problem, it's difficult to just look at 
that whole estuary and say, well, we should just remove all the 
marine mammals from the mouth of the river.
    Senator Craig. I don't think anyone is suggesting that, but 
there is now substantial evidence that the marine mammals' act 
to create levels of protection for endangered, or what appear 
to be becoming endangered animals--seals and sea lions--have 
worked, and we have also discovered that they breed like 
rabbits and there are literally great numbers out there that we 
had never anticipated before. I am told by an observer that 
there is an island out from Astoria, and this young lady who 
lives in Astoria says that her grandfather remembered the 
island being just stacked high with seals and sea lions, and 
then they, of course, were killed. They went away, and the 
island vegetated itself, and now that island is a mud wallow 
again, in essence, and that those mammals lay there in wait of 
their food source to come swimming into the mouth of the river.
    I have a feeling that that is fairly accurate, based on 
observation and some of the other things I've read and seen, 
and, of course, the moment we start trying to deal with that 
law, the television advertisement gets run showing somebody 
clubbing a seal. Millions of dollars are raised to save the 
seals and the sea lions, and public opinion comes along and 
changes political opinion and we don't solve the problem.
    So if the National Marine Fisheries is going to be out 
there looking and making recommendations, my only observation 
is that you be strong in what you find and you become advocates 
of it because that is part of a problem. I am not, and I have 
said it very openly, I am not about to people the people and 
the economies of Idaho at risk because we want to make the West 
Coast the ultimate habitat for seals and sea lions, but there 
has to be a balance somewhere, and right now it appears to be 
becoming imbalanced or unbalanced, at least.
    You had mentioned while there has been a substantial 
reduction in harvest in the Snake and Columbia system there is 
still harvest. In many areas where we list a species we 
prohibit harvest until it recovers to a certain level, but 
because of the cultures and the economies built up around the 
harvest of these fish, we have still allowed it, even as the 
numbers declined. Why?
    Mr. Consenstein. Senator, the harvest of some of these 
species occurs in a number of different areas, and we are 
attempting to address harvest in all of these areas. There is 
harvest of some of these species out in the high seas 
fisheries, most of our science shows that there is not a lot of 
interaction there--there is a negligible amount of harvest.
    Senator Craig. But is it not also true that in that area of 
harvest there is a great unknown? I mean, there is a lot that 
is not known? I was active in stopping the dragnets and a lot 
of that kind of thing here, and we created that legislative 
through U.N. efforts, but also knew during that period of time 
that there were just a lot that wasn't known about that habitat 
or the take out there.
    Mr. Consenstein. Yes, that's true, and, as a general 
matter, when we look at the entire life cycle of the salmon, 
there's not enough research that's been done on the ocean and 
estuary side of that, and we at NMFS have initiated a major 
research effort into the ocean and estuaries to try to get--
    Senator Craig. Well, all of that is known. What we're 
talking about is those adults that can get to the mouth of the 
Columbia and begin their journey up toward their spawning 
grounds, and there they meet a myriad of gill nets and all 
kinds of take mechanism.
    Discuss that with me and with the committee for a moment.
    Mr. Consenstein. Sure, as I said, the high seas fisheries 
are one area. The first area to consider is the offshore and 
the fisheries in the deep ocean, and then there's the coastal 
areas. We can sort of divide those between Alaska and the 
Pacific Coast along Washington, Oregon, and California, and 
then Canada, which also takes a significant number of listed 
species. So there's these different arenas, management arenas, 
that we have to deal with.
    On the Canadian side, we're dealing with that through the 
U.S. Canada Pacific Salmon Treaty, and, as you may know, it's 
been a difficult negotiation, but that's where we try to manage 
that take.
    On the U.S. side, there's Alaska and then Washington, 
Oregon and California. The Washington, Oregon and California 
side is managed under the Magnuson-Stevens Act through the 
Pacific Fishery Management Council, and those harvest levels 
have been reduced significantly in those fishing areas.
    For the Alaska fisheries, each species is a little 
different as to where they actually migrate to. The spring/
summer chinook in the Snake River, which is one of those that's 
most at risk, has a relatively narrow geographic area that it 
migrates within the ocean, and its ocean fishing has been 
restricted.
    For example, the Alaskans and the Canadians don't take very 
many of those spring/summer chinook because they don't migrate 
up there. But to address your question of how harvest is 
managed in the river, and the management of the harvest in-
river is managed through the Columbia River Fish Management 
Plan, which is a part of the U.S. vs. Oregon settlement. Yearly 
seasons are set as a result of that fish management plan, and 
this year the management plan for that in-river fishery did 
result in a reduction in the incidental take of Snake River 
steelhead. The plan currently calls for about a 32 percent 
take, and that's now been reduced to about 10 percent.
    Senator Craig. For the amount of money that we're 
spending--and we've spent now well over a billion dollars in 
the last decade trying to save or find out ways to save these 
fish. I've often times thought, and others have discussed, why 
don't we just recognize those who have a legitimate right to 
take, pay them for a period of a decade, not take any of those 
fish, let them get to their grounds as best they can to see if 
we can't build back viable populations along with all the other 
kinds of things that we're doing.
    Has that ever been a point of consideration or is the 
politics of that just too impossible?
    Mr. Consenstein. I don't know that it's been considered at 
any real depth, but I've heard that, and I've heard that 
discussed, particularly for Indian tribes in the region that 
have treaty rights.
    Senator Craig. I don't dispute the right to take. What I do 
dispute at this time--if I'm going to put Idaho through the 
wringer to save these fish, somebody is going to have to be in 
the wringer with us, and right now it looks like fewer are than 
ought to be--at least the end result could be because when we 
start dumping water out of the Snake River basin, we start 
drying up irrigation land and putting farmers out of business, 
and that's what a lot of people want to do. I'm saying, whoa, 
wait a moment here. We're willing to share in this. Somebody 
has got to feel a little pain too, and right now I don't think 
it's widely distributed, or, at least less distributed than it 
might otherwise be.
    Let me ask another question of you, and then I'll give 
back--I've got several here that I want to ask but time is 
limited.
    Danny, yesterday you and I and the Idaho delegation and 
Will Stelle, who is here, visited at length about some concerns 
as it relates to how information gets out and how it gets spun. 
Specifically we discussed the issue of PATH, and, as I 
understand, there are models that PATH, the scientific group 
that's working on the salmon issue now--there are models that 
they work with to predict recovery successes of the salmon. 
There's the CRISP model that generally is more of the 
transportation favoring model, and then there's the FLUSH model 
that is more of a flow or normative river model.
    Now, there is a great deal of work going on at PATH to make 
these two models more consistent, as I understand, in other 
words, to better align their output. This, of course, is of 
great importance because these models could lead to some very 
serious recommendations for the way the rivers manage for the 
economic future of the Northwest, and I guess my question is, 
is the calibration and work that is done on these models openly 
shared between any or all people seeking information about 
those models?
    Mr. Consenstein. Senator, this group called PATH, which is 
an acronym for Plan for Analyzing and Testing Hypotheses, is 
composed of 25 different scientists from the Federal 
Government, State governments, tribes and independent 
scientists. The group was set up by the National Marine 
Fisheries Service primarily to try to reconcile those sort of 
competing models--and I think before we had CRISP and FLUSH, we 
had even more models. We recognized that was a problem, and 
that is one of the reasons PATH was organized--to bring the 
people together to try to share that information in one place, 
and to dig into the models, see what the assumptions were 
underlying those models, and see if they could come to some 
agreement about those assumptions where they were disagreeing.
    My understanding is that PATH, this group, and through 
their facilitator, have done a pretty good job of reconciling 
those two models. They've gotten closer together. There is less 
disagreement between the scientists about the models, and the 
models are coming closer. One example of the models coming 
closer is that the outputs are coming up with very similar 
answers.
    So I want to stress, though, that these are models. They 
are computer simulations, and that the PATH process is still 
very incomplete.
    Senator Craig. My question, again, is the information 
created by the models, and the modeling itself, shared to all 
and is that information available?
    Mr. Consenstein. Yes, it is.
    Senator Craig. Can you assure me here today that all of 
that information will be readily available to anyone seeking 
that information?
    Mr. Consenstein. Yes, sir.
    Senator Craig. Okay.
    The reason I say that is because these models, or the 
model, may ultimately be used for the basis of making decisions 
and crafting public policy because we are in search of good 
science, and if there is not a public process that allows you 
to assure us the credibility of the model, or the final 
outcome, then we will risk a problem. It's a problem that you, 
and I and Will discussed yesterday, along with the delegation. 
Headlines that have already said in a very premature way, ``. . 
. the science is in. Now, where is the public policy to save 
the fish?'' Well, we know that the science isn't in, but 
somehow the way it was disseminated, or allowed to be 
disseminated, and the way it was spun by certain interests and 
parties caused that to happen. I think it is so damned 
important that whatever your product is in the end, that it 
have credibility, and credibility means an open public process 
for all to criticize, and review or ultimately to come to some 
level of satisfaction.
    I quoted in my opening comments before the Chairman Will 
Stelle talking with us yesterday, and am I accurate in what I 
say here, Danny? I quote this as a paraphrase of what Director 
Stelle said, ``The level of uncertainty in the models used by 
the scientific panel is very high. The conclusions contained in 
the report are in no way absolute.''
    Mr. Consenstein. That is correct, Senator.
    Senator Craig. ``They are merely relative probabilities 
with wide gaps between what is known and what is not known.''
    Mr. Consenstein. That's correct.
    Senator Craig. So do you see where I'm coming from? If 
FLUSH and CRISP and their processes, and the informational flow 
that brings them together is not open and widely available to 
anyone who seeks it, the end product can get questioned, or 
spun or shaped outside what it really means.
    Well, I thank you for assuring us of that. That is going to 
be critically important in the coming days. We're going to stay 
tuned on this with a spotlight on it until the end product 
appears. We have to do that for all the publics involved, or I 
think we risk the kind of gaming that occurred last week or 
week before, and that's just unacceptable to all of us, and I 
appreciate both you and the Director assuring us that that 
won't happen again, and that at least between the staffs and 
the Congressional delegation of the Pacific Northwest we'll 
have that kind of relationship and credibility that's going to 
be critical.
    Mr. Consenstein. You have my commitment on that.
    Senator Craig. Thank you.
    Mr. Chairman?
    Senator Kempthorne. Senator Craig, thank you. Those were 
excellent questions and good discussion there.
    Mr. Consenstein, again, I appreciate the time that we spent 
in Oregon and going to Rice Island, the discussion that we had. 
I know you to be a knowledgeable, dedicated, good public 
servant of the National Marine Fisheries Service. So I have 
comments here about the National Marine Fisheries Service that 
I'm going to make.
    Fortunately, or unfortunately, you've been sent as the 
messenger. I will admit that it seems to me at times that NMFS' 
focuses more on the populous issues than on the nuts and bolts 
of trying to get a real solution.
    In April of 1997 I wrote to the Administrator of NMFS, Will 
Stelle, about the way that NMFS had disregarded the consensus 
proposal on migration and transportation. Six months and many 
phone calls later when I received no response on what was a 
very time-sensitive issue, I wrote again, and I finally 
received a letter but it was too late to change anything. So 
I'm going to make that letter part of this record.
    Several months ago as I began work on the issues we're 
covering today, I requested current and detailed information on 
harvest. The NMFS did not respond to my request. Finally, in 
frustration I wrote a strongly worded letter demanding to know 
why I was not getting the information. The information finally 
came 2 days ago--2 days ago, after several months of my having 
made this request and too late for me to include it in this 
hearing as part of this discussion. So I'll make that letter 
part of the record.
    In July of this year Dewitt Moss, an Idahoan who is 
Director of the Northside Canal Company and a member of the 
prestigious Committee of Nine, wrote a detailed and a 
thoughtful 12-page letter on the very issues that we're 
covering here today. Yesterday, the law firm representing Mr. 
Moss informed me that the National Marine Fisheries Service has 
not bothered to answer his letter, and so I will make his 
letter part of this record.
    So I am puzzled--in fact, I am frustrated at this manner in 
which your agency treats myself, this committee, the citizens. 
I want you to take back to your agency one very clear message, 
and that is we will never have a solution to the problems of 
recovery of salmon and steelhead unless NMFS begins to include 
the States, and the tribes and the people of the Northwest in 
the solution instead of treating them like outsiders.
    I want it to be clear to your Administrator, your Assistant 
Secretary and your Secretary that NMFS has done a very, very 
disappointing job on managing these issues. I regret that I 
have to give you the message, but you've been sent as the 
messenger. I think that my comments would be echoed by a number 
of people, and we are absolutely serious about finding a 
solution. I think today's hearing has been excellent.
    I saw Senator Chafee, again, the Chairman of the 
Environment and Public Works Committee, and he said, ``What an 
outstanding hearing. I couldn't believe some of the 
information--that's new information.'' Well, again, if we can 
get this information out on the table in a deliberative 
fashion, then we can find solutions, and I think we're all 
dedicated to the recovery of salmon steelhead.
    Now, let me go to some questions. I referenced this chart, 
which shows the decline of the salmon runs in the Columbia 
River. Now, this is the chart that comes from the Corps of 
Engineers, but let me ask you, Colonel Mogren, is that an 
accurate depiction showing the declines, and is it also 
accurate where we've placed the line where the dam--I think it 
was 1938--was constructed?
    Colonel Mogren. Sir, 1938 is correct. I used this same 
chart myself in public hearings, and mine has the Bonneville 
Dam in 1938, so I can't explain the discrepancy there, but it 
came on line in 1938.
    Senator Kempthorne. Again, Colonel, and Mr. Consenstein, I 
am not embellishing or I'm not creating something, am I, to say 
that there was a significant decline in the salmon runs before 
any dam was put on that river?
    Colonel Mogren. Yes, sir, that is correct. This chart shows 
the estimate at approximately 15-16 million fish per year. 
There's a lower end to that that runs at about the 8 million 
line. Most people will discuss 8 to 15 million as where they 
were backed in the 1860's, and those numbers were back out of 
cannery production. If you have so many tons of cannery 
production, you must have had so many pounds of fish to produce 
that. There was no accurate way of counting the fish before the 
dam was put in. The Bonneville Dam, when it came on line in 
1938, provided a means for counting the fish, and so you see 
the convergence then along about 1938 when that came about.
    You also pointed out, sir, that your lower line there, 
which was taken from our fish counts where we actually 
calculate the fish counts, is correct as well. So that leads to 
the discrepancy between the end point of 2 million now versus 
the 600,000 that you pointed out, and I'm sorry I don't have an 
explanation for you. We know we have a general decline from 
about 1960 out, and it may be that that decline line comes to 
the 600,000 point, or, as you pointed out, it's been there all 
along. I can't explain that right now.
    Senator Kempthorne. Okay.
    Do you disagree, Mr. Consenstein, with anything that the 
Corps has said or I have said about that representation of the 
significant declines in the salmon runs before the dams were 
put into place?
    Mr. Consenstein. Senator, I'm not going to dispute the data 
at all. I'm assuming that it is correct data. I would make a 
comment, though, and this goes back to our discussion earlier 
about this group, PATH. One of the things that PATH is trying 
to do is to look at the data going back 20 years, where we have 
good data, to explain the question: why did this happen and a 
number of different things happen in those 20 years? Some had 
to do with the construction of dams, some had to do with 
hatcheries that went on line at about that same time, some had 
to do with climate that might have occurred at that time, and 
other actions. They are trying to come up with an explanation 
for the decline based on the data, and then to use that to try 
to project ahead. The models look at this historical data, to 
tear it apart and tease out the different factors, and then to 
explain and analyze the effects of certain actions on the 
future, whether they would be the kind of impacts you want.
    So, all I would say is that underlying that data is a lot 
of different factors. It's not really clear what the cause of 
the decline was.
    Senator Kempthorne. Absolutely.
    Colonel?
    Colonel Mogren. Mr. Willis just pointed out something to me 
that was inherently obvious, and I should have answered in 
regard to the discrepancies between the lines. That upper line 
is all returning adults. That includes estimates of what would 
have been harvested out of the ocean or in the estuary versus 
what gets counted by the time they get back to the dams. Your 
lower line of about 600,000 represents an average number of 
adult fish that made it to the dam.
    Senator Kempthorne. Okay.
    Colonel Mogren. The other point I would like to make too, 
sir, is where that looks like a smooth line, as you've seen 
with the data you put before, we have very much a spike line. 
So this is a trend line; it's not a hard count kind of graph.
    Senator Kempthorne. That's right.
    Mr. Wesley, I want to get your agency on record. Again, is 
there anything there that you find fault with as far as the 
data?
    Mr. Wesley. No, I think the data reflects what I know. The 
only comment that I would make is--and I don't know if it's 
been done--to go back and correlate any type of habitat 
modification, timber and production, increased agriculture, 
significant habitat alteration that would have occurred or 
potentially occurred during that time. We would have to go back 
and look at that.
    Senator Kempthorne. Sure, okay.
    Now, Colonel, let's talk about advanced hydro turbines, 
fish-friendly turbines.
    Fish-friendly turbines, is that an oxymoron? Is this just 
some scheme that somehow is to mask that we're going to call 
this new technology but it doesn't do a darn thing, or is there 
truth and engineering fact that this thing is going to help 
save fish?
    Colonel Mogren. Sir, we think the initial information on 
this is very promising. We would stop short of the whole-
hearted moving out to this technology across all the dams at 
this point in time because it needs to be tested.
    One thing we've learned over the process with the dams over 
the years is that each dam, each project, is unique. It has its 
own hydraulics and it has its own reaction. Fish react 
differently to the physical configuration of each dam, and the 
hydraulics around the dams. And so there are things that we 
have put into place at one dam that seemed very promising that 
did not work at another one, as you can see that with the 
survival rates at each of the different dams. Bonneville has a 
passage rate of about 87 percent, some of the other dams are as 
high as 94 to 95 percent, and a layman would ask why? They're 
all dams, they've all got turbines and all of that. So we think 
the technology is promising; it's worth studying. We've 
committed to putting in the turbines at Bonneville as part of 
that study, as well as an ongoing study with some modeling and 
so on, and I would just caution to say let's take this a step 
at a time here to make sure it works as advertised and gets the 
kind of survivability that's being advertised before we commit 
to it across-the-board.
    Senator Kempthorne. Let me dissect what you just said. 
``It's worth studying,'' but part of that study is that you're 
going to install these turbines.
    Colonel Mogren. Yes, sir, as part of the--
    Senator Kempthorne. So this is not just a paper process?
    Colonel Mogren. That is correct. This would be an in-water 
study.
    Senator Kempthorne. How many are you putting in?
    Colonel Mogren. I think we're putting in the whole 
powerhouse, which is, what, eight units? I think it's eight 
units.
    Senator Kempthorne. Good, excellent.
    Mr. Consenstein. Senator, I would just support what Colonel 
Mogren said. The National Marine Fisheries Service is very 
hopeful that this technology will improve juvenile survival 
through the system. As Colonel Mogren said earlier, there's a 
team that is composed of a number of Federal agencies, and they 
work together to try to prioritize projects, and most of the 
fish scientists, engineers and biologists in the region also 
agree that this kind of technology should be tested.
    But I would also support what Colonel Mogren said about an 
adaptive management, it's something that we need to do on the 
entire river on all of these things--on the avian predation, on 
the improvements to survival to the passage through the hydro 
system, on the habitat and harvest--all of these things. We 
need to find ways to make sure that when we try something, we 
get good information about whether it's working or not, and 
then kind of go from there because there's so much uncertainty 
and so many unknowns about what will work that we have to make 
sure that we design any improvements in such a way that we will 
get the information we need.
    Senator Kempthorne. Okay, Mr. Consenstein, is the Caspian 
tern an endangered species?
    Mr. Consenstein. I don't believe so.
    Senator Kempthorne. Is it a threatened species?
    Mr. Consenstein. I don't think so.
    Senator Kempthorne. We know that the salmon and the 
steelhead are. So can you imagine the frustration of States 
that may be posed with the question of breaching the dams and 
the impact that that can have to those States when you have a 
bird that's consuming the endangered species, upward of perhaps 
25 million? I hope the focus is that we will certainly do what 
is necessary so that those birds are not going to remain on 
that island and consume those endangered species. I mean, is 
there any doubt about that?
    Mr. Consenstein. Mr. Chairman, I would say that clearly, as 
I said, we would like to take this comprehensive approach to 
solving these problems on the river. Avian predation is clearly 
one of the problems that we need to address and we intend to do 
that, but I think we intend to do it with the same approach I 
just mentioned with the turbines, which is that we need to test 
hypotheses. We need to see, as Dr. Roby said, whether moving 
them through the island will work. We are prepared to do that, 
to relocate them, but we want to ensure that there's enough 
monitoring, and evaluation to determine if that was effective 
or not. So I think we just need to caution you that we need to 
take this action with scientific approval. Uncertainty 
shouldn't be used as an excuse to not take action.
    Senator Kempthorne. Correct.
    Mr. Consenstein. We should take action, but we need to take 
action that will give us the information we need to determine 
whether it works or not.
    On predation, I would also caution that recently, the 
scientific review panel that worked on PATH suggested that--and 
this was with the squaw fish program, specifically--that in 
their experience with predation control programs around the 
country they found that there isn't a high level of success and 
that there's some risk, maybe a small risk, but some risk that 
it actually would have negative results.
    So, again, let me caution you--there is no silver bullet.
    Mr. Wesley. Mr. Chairman, may I comment on that?
    Senator Kempthorne. Sure.
    Mr. Wesley. Just as a matter of record, I think that Dr. 
Roby's study showed that of those fish that are being taken, 
only about 10 percent of those are the listed stocks. So upward 
to 90 percent of the fish that are being taken by the terns are 
probably from hatchery fish.
    Mr. Consenstein. Can I make a comment on that? Our 
Northwest Science Center is doing some research on using the 
pit-tags that we were searching for on Rice Island. Our Science 
Center had a much more sophisticated way of finding the pit-
tags. They have a sled that they pulled across the entire area 
to be scanned, and it could pick up where all these pit-tags 
were. It just recently went out there shortly after we were 
there and picked up, I think, about 40,000 signals from pit-
tags. There's still some question about whether some of them 
were duplicates or not, but they're going to take that data and 
analyze it to try to determine where they came from, how many 
of them were hatchery, how many of them were wild, how many of 
them were different species, and that will give us some more 
information.
    Senator Kempthorne. That's right. But, Mr. Wesley, you said 
10 percent? That's millions of smolt, millions, potentially, 
absolutely.
    Mr. Wesley. Yes, that's right.
    Senator Kempthorne. Colonel?
    Colonel Mogren. I just want to make a point on the pit-tag 
data for the benefit of the record. What the pit-tag does is 
put a bar code on each fish, and it tells you if it was a barge 
fish, a wild fish, a hatchery fish, where it passed the dams, 
and so there's a great deal of data on this that, as Danny 
said, this skid picked off. I went out there and I watched them 
do this, and the computer was reading these tags as they went 
by. There are duplicates there, and the researcher on site said 
they may only have 20,000 individual tags and maybe higher--we 
don't know yet.
    The point is that this data is still being sorted out, and 
how many of these are wild fish versus hatchery fish, how many 
are barged versus non-barged, whatever, that's still a work-in-
progress and it will be a while before that data is available.
    Senator Kempthorne. Senator Craig?
    Senator Craig. Mr. Roby, you may want to respond to this, 
and you can respond from back there if you can speak loud 
enough.
    Both Senator Kempthorne and I have worked very closely with 
the fish hatcheries, the private fish hatcheries, in the Idaho 
Hagermen Valley area. We are proud to say that merely 70 
percent of retail trout in this country are raised in those 
fish hatcheries. They have a predation problem. They just 
simply encased their entire hatchery in a net.
    What's wrong with covering Rice Island with a big net and 
say to the terns, ``You can land here, go elsewhere?''
    Dr. Roby. Well, I think you could effectively do that by 
vegetating it. The birds will choose to go elsewhere--
    Senator Craig. You could do that in about 3 \1/2\ weeks 
versus 2 or 3 years of vegetative effort, could you not, and 
then vegetate underneath the net?
    Dr. Roby. Well, I think you could potentially cover most of 
Rice Island with an amount of annual vegetation like winter 
wheat in a fairly short period -
    Senator Craig. Winter wheat would solve it, you think?
    Dr. Roby. I think it would solve it in the short term. 
That's what I'm told. I'm not an expert on vegetating 
materials. I think initially that would be one approach--
    Senator Craig. We might use Rice Island as a storage area. 
With the price of wheat right now we could just use that as a 
storage area.
    Thank you because we did solve a problem originally out in 
Idaho that was viewed as a very expensive thing--it isn't. You 
create a super structure of not a great deal and you put the 
nets up, and because the air flows through them, they are not 
that sensitive to winds and wind storms and all of that, and 
the pelicans and the sea gulls stop coming inland as much to 
this ready source of food, along with everybody else who likes 
it between raccoons and all of that. I was just curious why 
that wasn't considered. You want to get an immediate solution 
to your problem.
    Had that ever been talked about, Colonel?
    Colonel Mogren. Sir, we haven't talked about the net 
option. We have talked about options, as Dr. Roby has said, to 
discourage the terns from nesting at Rice while encouraging 
them to nest elsewhere.
    I would like to add to that thought here because we've been 
talking a short-term solution here, and I think it would be a 
big mistake if we look at this just as a Rice Island problem. 
As Dr. Roby mentioned, these terns have moved over time from 
Puget Sound down to Willapa Bay to Grays Harbor to Sand Island 
and back to Rice Island. So they have a mind of their own, so 
to speak, and so there is only so much that we can do to 
influence this. It seems to me that in terms of long-term 
planning, what we need to do is keep two objectives in mind. We 
want the tern population healthy and viable, and we want to 
keep the salmonids from being consumed in the numbers they are 
now.
    So it seems to me that what we ought to be doing is finding 
a place where we can meet those two objectives, and then manage 
that for the long-term under a long-term adaptive management 
plan that keeps the birds there and reduces whatever incentive 
they have to move elsewhere. Exactly what that plan is yet, we 
don't have any idea. That is something we're going to have to 
work through. Maybe Sand Island will be that answer; maybe it 
won't be, but a sanctuary or refuge or something like that 
could be appropriate.
    Senator Craig. I don't dispute that. I understand the 
importance of long-range approaches. I also understand that we 
have a bunch of scientists out there jumping up and down saying 
``We've got an immediate problem. If we can't address it right 
quickly, we're going to lose some species, we're going to lose 
some fish, and we may lose entire runs.''
    Mr. Wesley, you mentioned, as it realties to the graph over 
there and the decline and changes that were occurring in the 
area during that period of time, you mentioned timber harvest 
as one. Between 1900 and 1995 how many millions of people 
either were born or moved into the Pacific Northwest area that 
is an immediate habitat area of the fish?
    Mr. Wesley. Senator, I don't know--
    Senator Craig. The reason I say that is we're always quick 
to say it was the timber harvest, or it was the farming, or it 
was the mining, or it was the grazing. Let's talk about people 
habitat too and the way people transform the land and built 
hundreds of thousands of acres of suburbia. I'm a little 
frustrated by that because that's the first to go. We want to 
stop harvesting of timber in Idaho and we want to do all those 
things to save the habitat.
    Seven years ago our Director of U.S. Fish and Game in Idaho 
said that 80 percent of Idaho's habitat was intact and 
relatively pristine--80 percent after 100 years of mining and 
grazing. So there are a lot of problems out there, and I just 
wished that we could keep focused on the big ones. I just had 
to make that comment because I heard timber harvest and didn't 
hear much else, but I also know that Portland grew from 1900 to 
1995 by hundreds of thousands of people, and, by God, people 
pollute too.
    Mr. Wesley. Yes, sir, I didn't mean to exclude that and I 
stand corrected.
    Senator Craig. Thank you, all right.
    Mr. Wesley. Certainly, urbanization, development of roads, 
all of that are--
    Senator Craig. Absolutely, it's the whole problem of the 
water shed. That's right.
    Thank you.
    Senator Kempthorne. Mr. Consenstein, let me discuss for a 
moment further harvest. I heard my colleague, Senator Gorton of 
Washington, speak on the floor of the Senate recently on the 
issue of tribal harvest. Would you be willing to bring us up to 
date on the issue and tell us where we stand with regard to the 
courts.
    Mr. Consenstein. Senator, I think what you may be asking 
about the recent court decision by Judge Marsh regarding the 
Columbia River Fish Management Plan, which is the plan that 
governs the harvest in the river. That plan determines harvest 
levels for fishing within the Columbia River. Really the only 
viable commercial fishery within the river is a predominately 
tribal fishery on healthy stocks. They are Columbia River 
chinook, fall chinook. They are not listed; they are basically 
the Hanford Reach stocks. Hanford Reach is a section of the 
Columbia River where there's very few impoundments and provides 
some good spawning and rearing habitat. Those fish that spawn 
and rear there--the chinook salmon--are fairly healthy. So it 
would allow harvest on those fish.
    The problem is that when they harvest those fish, they also 
take some incidental take of what's known as the ``B-run'' 
steelhead, which are listed.
    So as we were negotiating the harvest levels for the 
healthy chinook stocks, we were trying to limit that harvest 
and to limit the incidental take of the listed steelhead. 
Currently, the level allowed in the plan for those listed 
steelhead is 32 percent. Our biologists had suggested that the 
population could sustain harvest in the neighborhood of, I 
think, five to seven percent. Keep in mind we're talking about 
a run that's only about 2,000 fish returning through the river, 
so 10 percent is about 200 fish that would be allowed to be 
taken through this incidental harvest.
    We ended up with an agreement with the tribe. Some of the 
States finally did not agree, but it was a negotiation between 
tribes, States and the Federal Government over this harvest 
level. We ended up with an agreement that the target for 
harvesting the listed steelhead would be 15 percent.
    Senator Kempthorne. Let me ask you did the judge order that 
the tribes stop harvest and the tribes did not stop?
    Mr. Consenstein. No, I don't think that's correct, Senator. 
What the judge said--the agreement had to go to the judge to 
get approved under U.S. versus Oregon--was that in order to 
approve this agreement, NMFS would have to draft a biological 
opinion to show that this impact would not jeopardize the 
continued existence of steelhead, and we had not written an 
actual biological opinion associated with this harvest 
agreement. So he said that we had to write an opinion. That was 
basically what the judge's order was. He would not approve the 
agreement until a biological opinion was written.
    Senator Kempthorne. All right, let me then just as a final 
question ask with regard to the tern situation and the 
agreement that you have with the different agencies are we on 
track to have a solution to that for the 1999 breeding season 
or what obstacle remains?
    Colonel Mogren. Sir, I think it is fair to say that we are 
on track for the 1999 breeding season. I have concerns about 
the long-term management of this issue and long-term planning. 
That is something that we still have to come to grips with.
    Senator Kempthorne. Okay, but short-term for 1999?
    Colonel Mogren. Short-term for 1999, I think we're okay.
    Mr. Consenstein. I agree. I think we're on track. As 
Senator Chafee said, it's not a lot of money but there's still 
some money to be found to make sure we've got the funds to do 
what we need to do, and I'm confident that we will find it. 
Right now it's not in any particular agency's budget to do it, 
but I'm confident that we'll find that.
    Senator Kempthorne. Mr. Wesley?
    Mr. Wesley. From the Fish and Wildlife Serve, I mean, we 
recognize the importance of that and the activity that's 
proposed in working with the group to accomplish that task.
    Senator Craig. Mr. Chairman, what is the 1999 breeding 
season on track solution?
    Colonel Mogren. I guess I can take a stab at it generally.
    Senator Craig. I don't think I heard that. I heard you 
discussing the potential of seeding some grain out there on the 
island or cover.
    Colonel Mogren. What we are planning to do, sir, is at Rice 
Island discourage the nesting to begin with. We will do that by 
seeding the area and putting in the vegetation to prevent that. 
At the same time on Sand Island there will be efforts to make 
that more attractive. The Corps will go out and remove the 
existing vegetation that's on the island to scarify the land 
and make it an open sand-type area. We'll have some wildlife 
folks out there to put decoys out, and I think the phrase was 
the Caspian terns greatest hits or something like that, but put 
speaker systems out to attract the birds through sound. That 
was tested a while back to try to move some of the birds from 
Rice Island over to East Sands--not East Sands to Miller Sands 
Island. Now, that's a very small area but it was a successful 
test. So we're reasonably certain--and that's not a guarantee. 
We're not making guarantees on this but we're reasonably 
certain that this can work and help--
    Senator Craig. I wasn't asking for a guarantee. I was just 
curious.
    Colonel Mogren. Dr. Roby, if you want to add to that.
    Dr. Roby. I think that's the 1999 goal, to try to move the 
colony from Rice Island to East Sand Island.
    Senator Craig. Does a grass or a grain cover truly 
discourage this bird? Do they like just the plain sand or the 
unobstructive sand?
    Dr. Roby. They like bare sand substrate. They will nest on 
bare sand that has scattered vegetation, and that's what in 
fact they're doing in some parts of the Rice Island colony now, 
but amount of vegetation or something that is well established 
will discourage them. I think that in conjunction with the 
attractive techniques we use on East Sand island will give us a 
pretty good likelihood of moving the colony--at least part of 
it.
    Senator Craig. Thank you.
    Senator Kempthorne. What is our early warning signal that 
you're not going to accomplish the goal? You said, Danny, that 
it's not a lot of money. We still have to find some money. 
There still may be some other things. How do we get notice in 
time that there's an obstacle toward executing this plan?
    Mr. Consenstein. Senator, I think the first step that we're 
taking is to follow our legal obligations under NEPA, and the 
Corps is preparing an environmental assessment, and that is on 
track but I suppose once a public document is out on the street 
there could be some reaction to that. If there's problems, that 
could be one early warning signal, and that's coming out on the 
street--
    Colonel Mogren. It's the end of this month. The draft is 
complete. It's a matter of just packaging it.
    Senator Kempthorne. Okay.
    Mr. Consenstein. I would say that would be the first one to 
look for.
    Senator Kempthorne. I just think it's very important that 
we not see a hearing like this 1 year and 2 years where we say, 
``What a neat idea, and we're going to implement it just as 
soon as we can.'' What we want is implement for the 1999 
breeding season. No if's, and's or but's. It has to happen.
    Mr. Consenstein. That's our objective as well.
    Senator Kempthorne. Okay.
    Mr. Consenstein. Senator, could I just make a comment too 
about scientific information generally and the response about 
sharing information?
    I completely support what Senator Craig and what Senator 
Kempthorne said about the need to assure that whatever science 
information we have is available. It's available to the public; 
it's available to members of Congress, and I would just like to 
support that and commit to you that we will be doing our best. 
I apologize for any gaps in communication that occurred at the 
staff level in getting your staff that information. I just want 
to commit to you that we'll try to improve that information 
flow and just agree with you that we need to get that 
information.
    Senator Kempthorne. I appreciate that because it's been 
terrible.
    Mr. Consenstein. I'm committing to you that we'll try to 
make it better.
    Senator Kempthorne. I appreciate that.
    I'm also going to make part of the record information 
concerning the Fish and Wildlife Service. I'm going to keep the 
record open so that if there are some additional questions that 
any members of the committee or senators would like to ask, we 
can direct them to you and we would include them in your 
responses.
    But, Colonel Mogren, Mr. Consenstein, Mr. Wesley, Dr. Roby, 
Mr. Fisher, Dr. Cloud, again, this has been an excellent 
hearing. I appreciate all of you for your input. Again, I think 
there's some real reason for optimism and we can find solutions 
here, and then execute.
    With that, this hearing is adjourned.
    [Whereupon, at 12:45 p.m., the subcommittee adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
   Statement of Hon. Ron Wyden, U.S. Senator from the State of Oregon
    Mr. Chairman, Oregonians and other Northwest ratepayers have spent 
billions of dollars to recover Columbia/Snake River salmon. Yet year 
after year our salmon runs continue to decline. Clearly somebody is 
doing something wrong.
    Congress can't keep going down the same path of spending ratepayer 
and taxpayer dollars on the tried and failed strategies of the past. We 
need to try some new, homegrown cooperative approaches.
    I have recently applied the cooperative, homegrown approach to 
problems facing salmon and irrigators. Working with Northwest 
irrigators and conservation groups, I have developed bipartisan 
legislation to reduce the threat to salmon and other fish from 
unscreened water diversions. This initiative was cosponsored by Senator 
Gordon Smith and has support from all the Northwest irrigation groups 
and literally dozens of Northwest and national conservation and sport 
fishing groups, including Natural Resources Defense Council, Oregon 
Trout, Trout Unlimited, American Rivers, Pacific Coast Federation of 
Fishermen's Associations, National Audubon Society, and Northwest 
Sportfishing Industries Association. You don't often see such a diverse 
set of groups supporting environmental legislation. Save Our Wild 
Salmon's letter of support states: ``Your proposed amendment to WRDA is 
a true 'win-win' for fish and farmers.''
    Mr. Chairman, I think you will be particularly interested in what 
the Idaho Water Users Association, Inc. wrote to you in reference to 
the Wyden/Smith fish screen amendment: ``My purpose in contacting you 
is to let you know that the Idaho Water Users Association fully 
supports these amendments and would urge you to do everything in your 
power to assist in passage of this important provision.''
    I have attached copies of the Idaho Water Users Association letter 
and other letters of support for the Wyden/Smith legislation and would 
ask that you include these in the hearing record.
    The problem of fish loss in water diversions is well known in the 
Pacific Northwest. Juvenile fish, including endangered salmon and bull 
trout, are killed when they are diverted from rivers and streams along 
with water used for irrigation purposes. The common-sense solution to 
this pervasive problem is to safely screen the points of water 
diversion to allow water through while keeping fish out. Despite 
existing State and Federal programs to assist with fish screens, 
unscreened diversions continue to be a significant problem for 
endangered fish in the Pacific Northwest. The program created by our 
amendment would help protect endangered fish species by giving the Army 
Corps of Engineers new authority to work with irrigators to make their 
water systems safer for fish.
    My home State of Oregon has identified fish mortality in diversions 
as a priority problem. In a letter to Chairman Chafee, Oregon's 
Governor John Kitzhaber emphasized the importance of this issue to our 
State. Governor Kitzhaber's letter states: ``Oregon is working to 
restore several runs of fish species and one of our primary goals is to 
encourage fish screens and passage devices for water diversions on our 
streams and rivers. . . . Senator Wyden's amendment will greatly 
benefit the work our local irrigation districts and watershed councils 
are doing here to conserve and protect our precious fish runs and we 
urge your very strong support for this program.''
    To address the problem of unscreened diversions, our State has 
already developed a cooperative program to assist in screening smaller 
diversions used on family farms. However, the State cannot afford to 
provide similar assistance for larger sized diversions. That's where 
the Federal Government can help.
    Thanks to the cooperation of Senator Chafee and his staff, a 
version of my legislation will be included in the Senate Water 
Resources Development Act. Under this new program, the Army Corps of 
Engineers will be able to provide technical planning and design 
assistance to irrigators to help them make their water systems more 
fish friendly. This legislation also authorizes the Army Corps to 
conduct studies on measures to reduce fish mortality on irrigation 
diversions and what the Federal role is to encourage the use of these 
measures.
    In the future, I will seek to expand this program to authorize the 
Corps or other Federal Agencies to aid irrigators in actual 
construction of irrigation diversion improvements.
    Mr. Chairman, I'm not claiming that this program is the silver 
bullet to solve our salmon problem. But this program, along with other 
programs like the Clean Water bill I introduced earlier this year with 
Senator Burns are pieces of the complete puzzle, which will be defined 
by the regional decision framework being developed by Governor 
Kitzhaber, Senator Smith and others in the Northwest.
    Ultimately, it will take the integrated efforts of all interests in 
our region to recover our salmon successfully. State, Tribal and local 
governments, local watershed councils, private landowners and the 
Federal Government will all need to work together. Initiatives like the 
fish screen amendment will help forge the partnerships upon which 
successful salmon recovery will be based.
    Environmental protection programs developed from the ground up have 
a much better chance of succeeding than those dictated from Washington, 
D.C. The people who are directly affected by such programs understand 
exactly how they will be affected, the goals of the programs, the 
reasons for striving for those goals and the process by which they are 
to be achieved. Folks who agree to homegrown solutions do so with their 
eyes wide open.
    The top down approach to environmental protection is, by its very 
nature, threatening to local citizens and businesses. Only by 
developing and implementing homegrown solutions will we encourage our 
citizens, corporations and local governments to make environmental 
protection an integral part of their day-to-day work.
                                 ______
                                 
            Letter from Idaho Water Users Association, Inc.
                                          Boise, ID, July 20, 1988.

    Senator Dirk Kempthorne,
    U.S. Senate,
    Washington, DC 20510.

    Dear Senator Kempthhorne: At the present time the U.S. Army Corps 
of Engineers' Water Resources Development Act (WRDA) is moving through 
Congress. Section 206 of the Corps' authorities allows them to work 
with local governments on certain kinds of projects. One of these is 
fishscreens to protect migrating anadromous fish. In many of the states 
there are opportunities to protect anadromous fish through installation 
of fishscreens but because of the present structure of the law, certain 
entities involved in these diversions are unable to obtain typical 
services or funding from the Federal Government.
    An amendment to me authorization bill titled ``The Comprehensive 
Irrigation Diversion on Ecological Restoration Program'' has been 
suggested by a number of irrigation entities, particularly in Oregon. 
My purpose for contacting you is to let you know that the Idaho Water 
Users Association fully supports these amendments and would urge you to 
do everything in your power to assist in passage of this important 
provision. As you are well aware, Idaho, Oregon and Washington 
irrigators are being continually pressed to make improvements that will 
aid in restoration of northwest salmon stocks. This appears to be a 
program that could have some rather immediate benefit without 
significant cost to our districts.
    This will be before the committee for markup on Wednesday morning, 
July 22. Senator Wyden's office has requested a paragraph of approval 
for the amendment from you and would appreciate your office 
communicating this to either Martin Kodis or Joshua Sheinkman of 
Senator Wyden's office.
    I appreciate your consideration of this matter and look forward to 
working with you in the future.
            Sincerely yours,
                      Sherl L. Chapman, Executive Director.
                                 ______
                                 
              Letter from Oregon Water Resources Congress
                                      Salem, OR, September 8, 1998.

    Senator Ron Wyden,
    Senate Office Building,
    Washington, DC 20520-3703.

    RE: WRDA AMENDMENTS--Fish Screen Funding

    Dear Senator Wyden: We strongly support the use of the Army Corps 
Section 206 Local Government Program to be authorized to include fish 
screens for local governments in the Northwest states. Providing 
authority to the Corps will fill some of the gaps left in other 
programs which are limited to salmon in the mainstem Columbia and Snake 
Rivers.
    Most of Oregon's rivers and tributaries are outside the mainstem of 
the Columbia and Snake system, but these rivers have listings under the 
Endangered Species Act for salmon and bull trout, as well. in Oregon 
there is assistance for screening of diversions for private and 
corporate interests, but not for municipal corporations such as 
irrigation districts. This local government program will add one more 
piece to the overall fishscreen and fish passage program to enable 
screening of diversions in areas where we have species of concern to 
protect.
    The program is a cost-share program. Water suppliers will be 
responsible for partial funding and for the long term maintenance. 
Without effective screening, diverters are at risk for having their 
diversions halted under the Endangered Species Act provisions.
    The Oregon Water Resources Congress (OWRC) represents water 
suppliers with reservoir operations in Oregon including irrigation and 
water control districts, other special districts and ports. Our 
constituents have 99 diversions to be either upgraded or replaced to 
meet ESA requirements, at an estimated cost of $40.2 million for 
retrofitting. While the existing screens were designed to meet state 
and Federal agency requirements when they were installed, technology 
changes require substantial further investment or replacement to meet 
current needs.
    We promote your interest in addressing public support for public 
resource benefits. We look forward to passage of the amendment and the 
ability to work with the Corps to screen or upgrade screening at those 
diversions deemed a priority for fishery protection.
            Sincerely,
                               Jan Lee, Executive Director,
                                   Oregon Water Resources Congress.
                                 ______
                                 
            Letter from Montana Water Resources Association
                                     Helena, MT, September 9, 1998.

    Hon. Max Baucus,
    Senate Office Building,
    Washington, DC 20510.

    Dear Senator Baucus: ESA listing of Montana Bull Trout and the 
possibility of others will inevitably add pressure for ensuring 
enhanced passage and screen protection at water diversion structures. 
Costs associated with fish screens and passage structures at such 
facilities would be extreme and certainly a hardship on already 
financially strained agricultural producers.
    A proposed committee amendment to the U.S. Army Corps of Engineers' 
Water Resources Development Act, sponsored by Senator Wyden of Oregon, 
would direct more technical and financial assistance toward diversion 
screening and passage efforts to protect fish, including Bull Trout. 
The Montana Water Resources Association generally supports the intent 
of the amendment. We do have concerns and reserver full support pending 
review and acceptance of final language within the amendment. We have 
expressed our concerns through the Oregon Water Resources Congress 
which in working on this issue with Senator Wyden's staff. Primary 
concerns include: ensuring voluntary participation by all entities, 
including those controlled by the Bureau of Reclamation, protection of 
states rights, budget impact on other programs, equitable availability 
to Montana facilities, and liability following installation.
    We urge your careful consideration of this amendment. If we can 
provide additional information, please don't hesitate to call.
            Sincerely
                     Michael E. Murphy, Executive Director,
                               Montana Water Resources Association.
                                 ______
                                 
        Letter from Washington State Water Resources Association
                              Yakima, WA 98907, September 10, 1998.

    Hon. Patty Murray,
    U.S. Senate,
    Washington, DC 20510.

    Dear Senator Murray: Amendments to the U.S. Army Corps of Engineers 
Water Resources Development Act (WRDA) are presently moving through 
Congress. Amendments to Section 206 of the WRDA will benefit local 
governments in their efforts to construct fish screens at their 
facilities. Ultimately, appropriations will be necessary to fund the 
programs authorized by the fish screening amendment.
    The Washington State Water Resources Association represents 97 
irrigation districts providing water to over 1 million acres of 
irrigated agriculture in Washington State. Our members could benefit 
from the additional screening resources made available by the WRDA 
amendment. This funding may be particularly useful in the Puget Sound 
area where funding for fish screens may be lacking.
    The amendment, called ``The Comprehensive Irrigation Diversion 
Ecological Restoration Program'' has been supported by irrigation 
entities in Oregon, Montana and Idaho. This amendment provides some 
Federal funding for fish screens to be utilized by local governments 
entities that do not presently have access to sufficient funding. We 
believe that given the present concerns for recovery of anadromous fish 
species in the Pacific Northwest this amendment is both timely and 
useful. The amendment will benefit both species recovery and further 
promote responsible water resource management and thus is deserving of 
your consideration for support.
    Thank you for your kind consideration of our request for support of 
the WRDA amendment.
            Sincerely,
                                Patricia Bailey, President.
                                 ______
                                 
            Letter from Governor of Oregon John A. Kitzhaber
                                    Office of the Governor,
                                        Salem, WA, August 17, 1998.

    Hon. John H. Chafee, Chairman,
    Committee on Environment and Public Works,
    United States Senate,
    Washington, DC 20510.

    Dear Senator Chafee: I want to lend my support for an amendment 
being offered by Senator Ron Wyden to the Water Resources Development 
Act of 1998 which would provide the Corps of Engineers with the 
authority to partner with state and local entities in implementing a 
fish screen program. As you know, Oregon is working to restore several 
runs of fish species and one of our primary goals is to encourage fish 
screens and passage devices for water diversions on our streams and 
rivers.
    This amendment would authorize up to $25 million each year for the 
Corps to develop and implement a comprehensive program that would 
encourage local irrigation districts to install fish passage devices. 
The amendment prioritizes fish passage for species listed under the ESA 
and allows for cost sharing.
    Senator Wydens' amendment will greatly benefit the work our local 
irrigation districts and watershed councils are doing here to conserve 
and protect our precious fish runs and we urge your strong support for 
this program.
    Thank you for your consideration.
            Sincerely,
                                    John A. Kitzhaber, M.D.
                                 ______
                                 
                    Letter from Save Our Wild Salmon
                                    Seattle, WA, September 9, 1998.

    Hon. Ron Wyden,
    U.S. Senate,
    Washington, DC 20510.

    Dear Senator Wyden: The Save Our Wild Salmon Coalition, which is a 
coalition of 50 sport and commercial fishing groups, fishing businesses 
and conservation groups working to restore healthy wild salmon and 
steelhead runs to the Northwest, supports your efforts to develop a 
comprehensive program to install fish screens at irrigation diversions 
throughout the Northwest.
    As you know, juvenile and adult fish straying into irrigation 
systems is a significant source of mortality. Your innovative program 
to create a voluntary Federal and non-federal partnership to evaluate, 
design and fund screen installation will protect fisheries throughout 
Oregon, Washington Idaho and Montana.
    Your proposed amendment to WANDA is a true ``win-win'' for fish and 
farmers. This effort will not only benefit Salmon and Steelhead, but 
also Bull Trout, Cutthroat Trout, Redband Trout and many other species 
of fish. We applaud your efforts.
            Sincerely.
                              Pat Ford, Executive Director.
                                 ______
                                 
                Letter from the National Audubon Society
                                Washington, DC, September 21, 1998.

    Hon. John H. Chafee,
    United States Senate,
     Washington, DC 20510.
    Dear Senator Chafee: National Audubon Society would like to lend 
our support for an amendment being offered by Senator Ron Wyden to the 
Water Resources Development Act of 1998 which would provide the Corps 
of Engineers with the authority to partner with state and local 
entities in implementing a fish screen program. If the Pacific 
Northwest is going to be successful in the recovery of their many 
threatened and endangered salmon stocks, it will take a concerted 
effort that is fully funded.
    We see this amendment, which would authorize up to $25 million each 
year for the Corps to develop and implement a comprehensive program 
that would install fish passage devices, as one of many components in a 
regional salmon recovery strategy.
    If we can be of any assistance in the development or implementation 
of a regional salmon recovery strategy, do not hesitate to contact us. 
Thank you for your consideration of this matter.
            Sincerely,
     Daniel P. Beard, Senior Vice President--Public Policy.
                                 ______
                                 
      Letter from the Northwest Sportfishing Industry Association
                               Oregon City, OR, September 14, 1998.

    Hon. John H. Chafee, Chairman,
    Committee on Environment and Public Works,
    U.S. Senate,
    Washington, DC 20510.

    Dear Mr. Chairman: On behalf of the Northwest Sportfishing Industry 
Association (NSIA), I would like to express our support of the 
amendment to the Water Resources Development Act (WRDA) proposed by 
Senator Ron Wyden. We understand the amendment would provide authority 
for the Army Corps of Engineers to move forward with a comprehensive 
fish screen and passage program for the Northwest. The volunteer, 
partnership approach supported by this amendment is consistent with the 
Oregon Plan for recovery of salmon and steelhead and we ask that you 
include this amendment as part of the manager's amendment of WRDA for 
consideration by the full Senate.
    NSIA is a trade organization, consists of hundreds of businesses 
and thousands of family-wage jobs dependent upon our rivers, lakes and 
streams being healthy and full of fish. Screening of irrigation 
diversions not only strengthens the ability of endangered fish to 
survive; it enhances the numbers of healthy populations of fish that 
sustain our businesses. Screens for diversions prevent tremendous 
losses of juvenile and adult fish, as well as keeping resident species 
in the streams where they belong.
    It is our understanding that the amendment provides for a sharing 
of the conservation burden between public and private interests, as it 
should In addition to requiring cost share for screen installation, the 
operator is to bear the full costs of maintenance in the future, as 
well as monitor the screen's efficacy. We have submitted as part of 
this letter information from an individual with extensive experience 
with the costs of installation maintenance and monitoring attesting to 
these costs.
    We thank you in advance for your serious consideration and support 
of the proposed Wyden amendment of WRDA.
            Sincerely,
                          Liz Hamilton, Executive Director.
                                 ______
                                 
                               attachment
                                 NW Environmental Services,
                                  Oregon City, OR, August 26, 1998.

    Liz Hamilton, Executive Director,
    Northwest Sportfishing Industry Association,
    Oregon City, OR 97045.

    RE: Costs to Maintain Fish Screening Systems

    Dear Ms. Hamilton: You asked if I had any knowledge or estimate of 
the on going costs to maintain a fish screening system relative to the 
initial cost to design and construct the system. In my experience, 
maintenance costs can vary depending upon the size of the venter 
diversion and type of fish screening system installed. For planning 
purposes, however, the annual maintenance cost generally ranges from 
10-15 percent of the initial project cost. Smaller water diversions 
would tend to be closer to the 15 percent level and larger diversions 
would be towards the 10 percent figure.
    Maintenance generally falls into one of two categories, either 
routine or periodic. Routine maintenance includes labor for such 
activities as visual inspection of the system for proper operation, 
trash rack cleaning, adjustments of gates or other devices to maintain 
design water levels and lubrication of moving parts. Routine 
maintenance can occur as frequently as once or twice per day. Periodic 
maintenance includes labor and material to repair or replace system 
components such as screen material, bearings, screen seals, drive train 
components, etc. Some periodic maintenance is usually done every year 
and major periodic maintenance is generally done every 5 to 10 years.
    My experience with fish screening systems was primarily gained 
during my tenure as the Fish Screening Program Manager for the Oregon 
Department of Fish and Wildlife from 1991-1996. During that period of 
time I had administrative oversight for the construction of several 
hundred new fish screen systems as well as the operation and 
maintenance of over 500 existing fish screens throughout the state of 
Oregon.
            Sincerely,
                                              Dave Nichols.
                                 ______
                                 
                      Letter from Trout Unlimited
                                                 September 3, 1998.

    Hon. Ron Wyden,
    U.S. Senate,
    Washington, DC 20510.

    Dear Senator Wyden: Trout Unlimited, the nation's foremost 
coldwater fisheries conservation organization, supports your proposed 
amendment to the Water Resources Development Act to provide for fish 
screens and the removal of barriers to anadromous and other migratory 
fish.
    As you know, the loss of fish at places where water is taken out of 
our rivers and streams for agriculture and other purposes is a major 
factor in the decline of fish species, particularly in the West where 
irrigation is essential for agriculture. Your amendment to authorize 
and direct the Corps of Engineers to develop a program for larger 
diversions is a major step in addressing this problem. We are 
particularly pleased that language has been included that addresses the 
problems associated with barriers to migration.
    Trout Unlimited greatly appreciates your work on behalf of trout 
and salmon and other natural resources.
            Sincerely,
                Jeff Curtis, Western Conservation Director.
                                 ______
                                 
                        Letter from Oregon Trout
                             Portland, OR 97204, September 8, 1998.

    Senator Ron Wyden,
    Senate Office Building,
    Washington, DC 20510-3703.

    RE: Proposed Amendments to WRDA

    Dear Senator Wyden: Oregon Trout and its 4,000 members throughout 
the region would like to get on the record in support of your proposed 
amendments to the WRDA that would provide funds for fish screens, 
passage devices and other measures.
    As the state of Oregon has proven in recent years, providing 
adequate passage and screening for fish is a very worthwhile action 
that results in saving fish. Unlike many other more questionable public 
investments on behalf of fish recovery, screens and passage devices do 
actually work.
    Oregon Trout hopes that your proposed amendments to the WRDA are 
adopted and implemented.
            Sincerely,
                          Jim Myron, Conservation Director.
                               __________
  Statement of Hon. Larry Craig, U.S. Senator from the State of Idaho
    Mr. Chairman, thank you for inviting me to participate in this 
oversight hearing today. A better understanding of the important issues 
this subcommittee will address this morning is vital to many decisions 
that lie ahead for all policymakers in the Pacific Northwest.
    In this regard, let me state for the record that I, like many 
Idahoans, was startled last week by the ``spin'' contained in some 
newspaper accounts about the recent release of a scientific report 
allegedly concluding that dam breaching was the only way to save salmon 
in the Columbia and Snake Rivers. After reviewing the report and 
discussing it with scientists associated with the development of the 
report, it is apparent that advocates of dam breaching and some media 
organizations, simply ``jumped the gun.''
    The chief architects of the report readily acknowledge, indeed 
highlight, the inherent infirmities with the conclusions of the report. 
Will Stelle, Regional Director of the National Marine and Fisheries 
Service, stated just yesterday that--``the level of uncertainty in the 
models used by the scientific panel is very high''--``the conclusions 
contained in the report are in no way absolute; they are merely 
relative probabilities with wide gaps between what is known and what is 
not known.''
    These observations underscore the need for further research on 
matters such as the impact of marine mammal and avian predation on 
outgoing smelts, the impact of ocean conditions on the salmon, the 
impact of the release into the ocean of large numbers of hatchery fish 
along the West Coast, and continued research on hatcheries and genetic 
resources. Mr. Chairman, thanks to you, several of these issues will be 
addressed today by this Subcommittee.
    To now say that the science on salmon recovery is settled, is to 
expose either a great ignorance of the complex science associated with 
salmon recovery or a political bias in favor of the ``experiment'' of 
breaching dams. In either case, considering the ``tinder box'' nature 
of the salmon debate in the Pacific Northwest, such a statement is 
destructive and irresponsible.
    According to those who have been charged with the difficult task of 
determining the best science on salmon recovery, there simply is no 
credible scientific evidence at this time that removal of dams is the 
sure way to save the salmon. Until such time as the PATH scientists 
decide they have accumulated all the credible evidence available on 
this issue, we can not expect scientific conclusions contained in 
interim reports to be final on the issue of salmon recovery.
    In the meantime, responsible parties should show restraint with 
rhetoric. No responsible person in the Pacific Northwest wants another 
``Spotted Owl'' controversy. The wounds from that controversy, manifest 
in the form of deep mistrust--both toward government and the 
environmental community--have yet to fully heal. We all would do well 
by remaining mindful of that catastrophe.
    Mr. Chairman, seeking information in forums such as this, where the 
public gets an opportunity to see for itself the current state of 
knowledge on specific salmon issues, is extremely helpful, and 
certainly goes a long way in helping to dispel mistrust.
    I again, thank you for your efforts.
                               __________
   Statement of Hon. Gordon H. Smith, U.S. Senator from the State of 
                                 Oregon
    Mr. Chairman, I appreciate your conducting this oversight hearing 
on scientific and engineering issues relating to salmon recovery on the 
Columbia and Snake River system. Given the upcoming 1999 decision on 
long-term dam operations, the issues before us today are quite timely.
    The Columbia River system truly is the lifeblood of the Northwest. 
The Basin drains approximately 259,000 square miles, and encompasses 
two countries and seven states in its approximately 1,200 miles to the 
Pacific Ocean.
    In this century, we have harnessed the River for a variety of human 
activities and benefits, including navigation, water supply, power 
supply, and flood control. At the time many of the great public works 
projects in the Basin were constructed, fish and wildlife impacts were 
fully not considered. We are now struggling with the best way to 
mitigate these impacts while still meeting human needs. The 
consequences of these decisions could affect the livelihoods of most 
Northwest residents.
    Today we will hear testimony on scientific and engineering issues 
concerning harvest, hatcheries and hydropower--three of the four key 
``H's'' of salmon management. Making improvements in each of these 
areas is essential for salmon recovery. There is no single action that, 
in and of itself, will recover some of the listed salmon stocks in the 
Northwest.
    I am concerned, however, that a myriad of actions are being 
required throughout the Northwest in the name of salmon recovery 
without a recovery plan, an agreement as to what is going to constitute 
recovery for the various listed species, or adequate monitoring and 
evaluation to determine the real value of the specific action. Often, 
there is no defensible biological--justification given for the action 
being required. Unfortunately, under the current Endangered Species 
Act, the regulatory agencies don't have to provide such a 
justification.
    As the region attempts to grapple with these issues, we will have 
to use the best science available to provide a biological basis for the 
actions under consideration. Certain models are being developed through 
the PATH process to evaluate the various options for long-term river 
operations currently being studied by the Army Corps of Engineers. I'm 
concerned that recent media reports and interest groups have 
mischaracterized the current status of this process, and also the 
certainty of any of the conclusions the PATH scientists will eventually 
be able to draw. It is incumbent on the National Marine Fisheries 
Service and other Federal agencies to ensure that this analytical tool 
is accurately characterized, and that its findings are not prematurely 
assumed.
    I look forward to hearing from the witnesses here today on these 
issues of such vital importance to the region.
                                 ______
                                 
               Letter from the Fish and Wildlife Service
                  United States Department of the Interior,
                                 Fish and Wildlife Service,
                      Portland, Oregon 97232-4181, October 7, 1998.

    Hon. Robert Smith,
    843 E. Main St., Suite 400,
    Medford, Oregon 97504.

    Dear Congressman Smith: Thank you for your letter concerning avian 
predation on Columbia River salmon smolts We appreciate the opportunity 
to provide you with information on this complex issue.
    The Fish and Wildlife Service (Service) is committed to working 
with the National Marine Fisheries Service (NMFS), which is the dead 
agency for salmon recovery, to ensure the continued survival of 
threatened and endangered Columbia River salmon. Although avian 
predation may be one factor affecting these listed species, we believe 
that it should not be considered in isolation from the broader context 
of other potentially more significant sources of smolt mortality such 
as dams, habitat loss and degradation, harvest, competition with 
hatchery reared fish, fish transportations and fluctuating ocean 
conditions. The Service continues to assist NMFS and other agencies to 
address many of these factors. Since last spring we have been actively 
working to resolve the unanswered questions concerning the role of 
avian predation on salmon smolt survival This letter summarizes efforts 
to address this issue undertaken to date and describes future plans.
    Currently, more than 10,000 nesting pairs of Caspian terns breed on 
Rice Island in the Columbia River estuary. It is the largest known 
Caspian tern colony in North America and perhaps the largest colony in 
the world. The birds began nesting on Rice Island in 1987. Rice Island 
was created by the Amity Corps of Engineers (Corps) in 1962 for the 
deposit of navigation channel dredge spoils. The island is owned by the 
States of Oregon and Washington. 1973, the Service began managing Rice 
Island as part of the National Wildlife Refuge System under an 
agreement with the State of Oregon. That lease expired in 1994.
    In 1995, the NMFS issued a biological opinion to the Corps on the 
operation of the Federal Columbia River popover system that directed 
the Corps to conduct studies on Caspian tern predation on juvenile 
salmonids in the Columbia River. Beginning in 1997, the Corps and the 
Bonneville Power Administration (BPA) fielded a study conducted by 
Oregon State University and the Columbia River Inter-Tribal Fish 
Commission. The first year of this 3-year study has been completed, and 
the researchers have stated that at least 3 years of data will be 
needed to accurately measure avian predation on juvenile salmon. 
Additional work may be necessary to assess the impact of birds on 
listed stocks.
    The first year's report for the avian predation study found that 
the Caspian terns nesting on Rice Island consumed approximately 6 to 25 
million smolts. Clearly, this is a wide range but indicates that avian 
predation may account for about 3 to 12 percent of the hatchery and 
wild smolts produced in the basin. Although the percentage of 
endangered or threatened listed fish consumed by terns is unknown, 
hatchery reared fish appear to be more susceptible to predation than 
wild fish. For instance, the higher vulnerability of hatchery smolts to 
tern predation could be expected as a product of rearing practices that 
condition young salmon to forage at the surface and otherwise weaken 
predator avoidance behaviors. Research also indicates that salmon 
smolts transported by barge or truck, and delayed or stressed by 
passing through dams, may be subject to higher rates of predation when 
they enter the estuary. Research is also needed to evaluate the 
assumption that the fish lost to bird predation would have survived to 
go into the ocean and return.
    As a result of preliminary information from this study, the NMFS, 
Corps, and Service established a multi-disciplinary team to consider 
potential management options for reducing avian predation on salmonid 
smalls while continuing data collection during the 1998 season. In a 
May 6, 1998 letter to the NMFS and Corps, the Service encouraged 
development of this interagency team. The Caspian Tem Working Group was 
established to address these issues and has been meeting regularly 
since last spring. Representatives from the Corps, NMFS, Service, BPA, 
USDA Wildlife Services, Oregon Department of Fish and Wildlife, 
Washington Department of Fish and Wildlife, Columbia River Inter-Tribal 
Fish Commission, and the researchers participate in the Caspian Tem 
Working Group meetings.
    The working group has developed a proposal to relocate the terns 
from Rice Island to East Sand Island, an island closer to the Pacific 
Ocean, during the 1999 breeding season. This process will use a 
combination of non-lethal strategies such as habitat enhancement on 
East Sand Island, tern decoys and tapes of calling terns to lure the 
birds to East Sand Island, and possibly habitat modification on Rice 
Island. Preliminary research indicates that terns nesting on East Sand 
Island mill have a wider variety of prey resources and may subsequently 
reduce their consumption of salmon smolts. The Corps is in the process 
of drafting an Environmental Assessment to address the activities 
associated with relocating the terns. In addition, the working group 
will develop a monitoring plan and a budget for the proposed management 
actions The actions were reconfirmed in a September 22, 1998 letter to 
the Caspian Tern Working Group and signed by the Service, Corps, and 
NMFS.
    The Service recognizes the importance of salmon recovery efforts in 
the Columbia Basin. We are a continuing participant in discussions on 
salmon recovery and will continue to play an advisory role with respect 
to avian predation. The NMFS has the principal responsibility for 
managing recovery of listed anadromous salmonids, the Corps has 
responsibility for operating the Columbia River power system and 
maintaining the Columbia River navigation channel, and USDA Wildlife 
Services provides expertise in managing problems caused by wildlife. 
Over organizations that may participate in this effort include the 
States of Oregon and Washington that own the islands and the Columbia 
River Inter-Tribal Fish Commission that represent the anadromous fish 
interests of the Columbia River treaty Tribes.
            Sincerely,
                    Thomas Dwyer, Acting Regional Director.
                               __________
 Statement of Hon. Conrad Burns, U.S. Senator from the State of Montana
    Thank you Mr. Chairman for the opportunity to address the committee 
today. It's my pleasure to be here.
    Due to my previous visits to this committee, I am sure most realize 
why Montana has an interest in the problems facing salmon in the 
Pacific Northwest. It becomes more evident when you look at the current 
methods used to address the symptoms of the salmon problem. Montanans 
suffer when water flows are needed downstream to help these weak 
populations. Our water is taken and our reservoirs are depleted. The 
end result is that our native fish species are placed in jeopardy, our 
recreational activities are curtailed and our tourism industry suffers.
    One end result of these draw downs is that we shifted the burden to 
another fish population, the Montana Bull Trout. As a result, we have 
had to begin protecting this population under the Endangered Species 
Act. It is in the best interest of every Montanan, and every person 
living in the Pacific Northwest, to help salmon populations recover to 
a sustainable level that will not necessitate passing on harms to other 
sectors of the environment. It is time we address the problem rather 
than the symptoms.
    Addressing the real problem is harder than many have led us to 
believe in the past. The finger has consistently been pointed at dams, 
logging, and other ways of western life. Attacks on these sectors of 
the economy have proven that they are not the root of the problem. We 
have found that the problems facing our nation's salmon fisheries are 
more varied than this and are becoming more critical every year.
    This should lead us to realize that past efforts to combat the 
reduction in our fish populations have sometimes been based more on 
emotion and quick conclusions than on good, sound science. We are 
finding out that many of our past reactions to all of the problems 
facing our environment, including the declining numbers of salmon, have 
actually made the problem worse or have missed the root of the problem 
all together.
    I believe that it is imperative to continue working towards finding 
workable solutions to the salmon problem, while understanding that dams 
and power generation are not enemy number one. Recent strides in 
technology have enabled us to put turbines into use that negate the 
impact power generation activities have on the salmon population. 
Additionally, other mitigation techniques continue to reduce the impact 
that dam placement has on fish populations.
    Even more importantly, recent research and observation of our 
salmon populations suggest that power generation may actually have a 
rather small role in the overall challenge facing these populations. 
Heavy fishing, predation by other species, and other factors deserve 
equal attention as we look for ways to restore native salmon 
populations.
    I urge this committee to encourage the pursuit of good science and 
a multi? faceted recovery approach that will address each of the 
challenges to our salmon without vilifying a specific one without due 
research. I hope that this effort will address the heart of the problem 
and allow the burden of restoring the salmon population to be shared 
more equally among all of the actors involved in creating the current 
situation. I remind you that the citizens of Montana are the ones who 
finish the summer with no water in their reservoirs for their own 
needs, and are faced with a severely declining local fish population, 
because Montana is absorbing the cost of the current policy based on 
reacting to the problem rather than finding a solution to the problem.
    Mr. Chairman, once again I would like to thank you for this 
opportunity to express the concerns of my fellow Montanans.
                               __________
 Statement of Hon. Helen Chenoweth, U.S. Representative from the State 
                             of Washington
    I want to thank my colleague from Idaho, Chairman Dirk Kempthorne, 
for the invitation to speak on this very important issue. In the great 
Northwest fish debate, the stakes are high, especially in Idaho.
    As the debate continues to rage--and I believe that a good, honest, 
public debate is healthy--I am troubled by what appears to be a lost 
sense of purpose and priorities by our Federal and state agencies, as 
well as the tribes. It appears that some people are more concerned 
about style, rather than substance; about agendas, rather than science; 
and about pre-determined outcomes, rather than considering all factors.
    The Implementation Team (IT), the body of representatives of 
agencies charged with implementing the 1995 Biological Opinion, 
established the Plan for Analyzing and Testing Hypothesis, known as 
PATH, which is made up of two dozen scientists.
    Just 2 weeks ago, a mere four scientists issued a preliminary, un-
peer reviewed report to PATH that comes to absolutely NO conclusions 
about fish. No recommendations are made. No scientific weight is given. 
Not enough information was considered. Yet, someone--presumably the 
agencies--leaked and spun it to the press. What was written about the 
report in the press, and the facts contained in the report, are worlds 
apart. No where in the report does it conclude that the dams are 
responsible for the decline in salmon and steelhead runs--NOWHERE. You 
wouldn't know that by reading the press. I compliment the extreme 
environmental community's ``spin-machine.'' They've made something out 
of nothing.
    Additionally, I have a few concerns about how PATH has operated. If 
the IT and PATH are to maintain any credibility whatsoever in the fish 
debate, then it is imperative that PATH utilize and consider all--I 
mean ALL--available scientific information. Yet, it is my understanding 
that the PATH facilitator has limited the amount and type of scientific 
information allowed to be used by PATH working groups.
    I've read that the four scientists who issued the PATH report were 
limited in their consideration of scientific facts. For instance, the 
computer models relied upon considered only spring chinook; Snake River 
fall chinook were left out. I also understand that they were not 
allowed to consider other alternatives, such as changing hatchery 
practices, or prohibiting commercial harvest, as well as the 
consideration of predators, spawning bed enhancements and others. If 
this is true, it is unacceptable. When making a scientific 
determination, ALL options must be considered; especially when the 
report is being touted as proving breaching the dams is the only 
solution.
    Mr. Chairman, it is ABSOLUTELY IMPERATIVE that the integrity of the 
scientists, the scientific evaluation and process be unblemished. When 
I hear that PATH scientists are unable to consider all relevant data, 
models and factors, I am troubled. PATH's credibility is at risk. All 
information must be considered.
    Mr. Chairman, there are a few other issues that I'd like to quickly 
address. As you know, water is the very life-blood of Idaho. It fuels 
our agricultural based economy. Yet, it is likely that the National 
Marine Fisheries Service (NMFS) will call for even more Idaho water for 
flow augmentation in its 1999 Bi-OP.
    Study after un-challenged study indicates that flow augmentation 
does not have any impact on fish return rates. NMFS' own PIT-Tag 
research shows that there is no correlation between flow augmentation 
and salmon survival. The State of Idaho's Department of Water Resources 
says that flow augmentation does not reduce smolt travel time down the 
river, nor cool the temperature of the water. Drs. Jim Anderson and 
Darrel Olson's models show no correlation between augmentation and 
survivability.
    So why does NMFS continue down this proven road to failure? Why 
won't NMFS look at other factors?
    It has recently come to light that Rice Island, formed from the 
Columbia River dredging operations--and I know Mr. Chairman that you've 
done a lot of work on this--has literally 20 million PIT-Tags on it--10 
million from last year alone. Now I'm not a fish biologist, but I have 
visited Rice Island and toured the BPA hydro system. What I do know is 
that the PIT-Tags didn't swim onto Rice Island. The smolt are indeed 
making it past McNary Dam and into the estuary. But they are eaten by 
the millions by the Caspian tern. Why isn't this being addressed?
    In 1994, Congress directed NMFS to report to Congress the impacts 
of California sea lions and Pacific harbor seals on salmonids. In other 
words, NMFS is required by law to tell Congress just exactly how many 
endangered fish are being eaten by protected sea lions and seals. Yet, 
Congress has never received this report. Again, I am not a marine 
biologist, but I've seen first hand how the seals and sea lions 
literally line up to eat their fill of protected, expensive fish. Since 
Congress has not received this report, I again question whether the 
science is being shaped to reach a pre-determined outcome. If so, it's 
unacceptable.
    Finally, Mr. Chairman, what about the impacts of commercial and 
sport harvest? To my knowledge, salmon are the only endangered species 
that you can hunt. When the taxpayers are asked to spend a billion 
dollars to save the fish, and when the regions economy is crippled, 
this is ludicrous.
    Recently, NMFS approved yet another commercial salmon harvest on 
the Columbia River above Bonneville Dam. Tribal gill nets capture 
thousands of chinook and steelhead only to sell them at one to two 
dollars per pound to commercial fish buyers. Threatened and endangered 
chinook and steelhead headed for Idaho are caught along with the 
Hanford Reach fall chinook. Historically, this fishery has taken 40 
percent of the total fall chinook run with large incidental catches of 
steelhead.
    I want to be clear, I do not take issue with tribal cultural and 
ceremonial salmon harvest seasons that generally occur in the spring, 
however, this fall chinook gill net harvest is solely commercial. A 
commercial harvest of endangered fish? This is ludicrous.
    I received a letter from Washington State Senator Bob Morton, who 
is also the Vice President Pro Tempore. He and a colleague, Washington 
State Rep. Cathy McMorris, flew over the Columbia River to count gill 
nets. Between Bonneville Dam and McNary Dam, Senator Morton counted 395 
gill nets. Without objection, I ask that his letter be included in the 
record. Mr. Chairman, this is beyond ludicrous. It is insane.
    Until these issues are addressed, it is my position that NMFS has 
no credibility in this issue.
    Chairman Kempthorne, I want to thank you for allowing me this time. 
I look forward to working with you as Governor next year.
                                 ______
                                 
             Letter fom Washington State Senator Bob Morton
                                   Washington State Senate,
                                ffice of Senator Bob Morton
                              Olympia, WA 95804, September 29, 1998

    Rep Helen Chenoweth,
    House of Representatives,
    Washington, DC 20515.

    Dear Helen: As we continue to try to ensure that salmon have a 
future in our state, I believe it is critical for us to consider all 
aspects of the salmon life cycle. It seems that the focus most recently 
has been on restoring salmon habitat. While this is a positive step, we 
must also consider the effects of salmon harvest. How many fish are 
actually getting upstream to spawning beds?
    In pondering this issue, I recently made a visit to the Columbia 
River. What I saw troubled me such that I arranged a special overflight 
of the Columbia from McNary Dam to Bonneville Dam. Rep. Cathy McMorris 
accompanied me on the flight, which was piloted by Gene Cada. We were 
utterly astounded by the number of gill nets stretched out in the 
river. I have attached a reach-by-reach quantity of the nets I counted. 
In total, I saw 395 nets from Bonneville Dam to McNary Dam.
    With this many nets catching salmon and other fish on the Columbia 
River, it seems to me that we need to consider the impact of this 
fishery on the sustainability of salmon. We need to know how many fish 
are successful in running the gauntlet of nets once they enter the 
river system.
    How can we truly provide for the recovery of salmon if the river is 
choked with nets? We simply must consider all factors, of which tribal 
and non-tribal fisheries are one.
    I hope you ponder these startling facts with me and begin to 
consider what we must do to truly save salmon.
            Cordially yours,
                                 Bob Morton, State Senator.
                                 ______
                                 
                               attachment

 Tribal Fish Gill Net Count--McNary Dam to Bonneville on Columbia River
                           130 Miles of River
                            September 2, 1998
------------------------------------------------------------------------
                                    Washington
                                      State        Oregon       Total
------------------------------------------------------------------------
McNary Dam to Arlington..........            4            0            4
Arlington to John Day Dam........           58           50          108
John Day Dam to the Dalles Dam...           64           54          118
The Dalles Dam to White Salmon              45           38           83
 Bridge..........................
White Salmon Bridge to Cascade              58           24           82
 Locks/Bonneville................
                                  ---------------------------
  Column Totals..................          229          116
                                                            ------------
    Grand Total of Gill Nets.....                                    395
------------------------------------------------------------------------

                               __________
  Statement of Daniel D. Roby, Associate Professor and Assistant Unit 
      Leader, Oregon Cooperative Fish and Wildlife Research Unit,
    U.S. Geological Survey-Biological Resources Division, and 
Department of Fisheries and Wildlife, Oregon State University, 
Corvallis, OR
    Virtually every evolutionarily significant unit (ESU) of anadromous 
salmonid (Oncorhynchus spp.) in the Columbia River Basin is currently 
or soon will be listed under the Endangered Species Act of 1973. 
Colonial waterbirds (i.e., terns, cormorants, and gulls) may be 
important predators on juvenile salmonids in the lower Columbia River. 
Consequently, the Oregon Cooperative Fish and Wildlife Research Unit at 
Oregon State University and the Columbia River Inter-Tribal Fish 
Commission initiated a study in 1997 to assess the impacts of fish-
eating birds on the survival of juvenile salmonids in the Columbia 
Basin during out-migration. The objectives of this study were to (1) 
estimate the size of fish-eating waterbird colonies in the lower 
Columbia River and determine population trends, (2) estimate the number 
of juvenile salmonids consumed by these populations, (3) identify the 
factors that influence avian predation rates on smelts, and (4) 
recommend ways to reduce avian predation on smelts, if warranted by the 
study results.
    There were nine major colonies of fish-eating birds that nested on 
islands in the lower Columbia River during the 1997 and 1998 breeding 
seasons. Most of these island colony sites are unnatural, created by 
either the dumping of dredge material or rising water levels associated 
with mainstem dam impoundments. Population censuses indicated that the 
number of fish-eating colonial waterbirds totaled about 170,000 
individuals, a substantial increase over previous estimates (Table 1).
    Rice Island, a dredge material disposal island in the Columbia 
River estuary (Figure 2), supported the largest known Caspian tern 
(Sterna caspia) colony in North America (over 16,000 birds in 1997), 
which had grown by over 600 percent since the colony originated in 
1987. In 1998, the tern colony had increased by about 25 percent over 
1997 estimates to cat 20,000 birds. Nesting success at the Rice Island 
Caspian tern colony was only cat 5 percent in 1997, due mostly to 
predation on eggs and chicks by glaucous-winged/western gulls (Laws 
glaucescens X L. occidentalis). In contrast, nesting success in 1998 
was ca. 40 percent.
    Two colonies of double-crested cormorants (Phalacrocorax auritus) 
at East Sand Island and Rice Island in the estuary (Figure 2) are the 
first and second largest on the entire Pacific coast of the U.S. and 
Canada and also appear to be growing. The nesting period for these 
colonies (mid-April to mid-July) generally coincides with the period of 
smolt out-migration.
    Diet analysis indicated that juvenile salmonids were an important 
part of the diet of fish-eating colonial waterbirds in the Columbia 
River estuary (Table 6). Caspian terns appeared to be most dependent on 
salmonids (ca. 75 percent of the diet), followed by double-crested 
cormorants (ca. 24 percent of the diet) and glaucous-winged/western 
gull hybrids (ca. 11 percent of the diet). The large California and 
ring-billed gull (Laws californicus and L. delawarensis) colonies up-
river relied less on juvenile salmonids as a food source compared to 
fish-eating waterbirds in the estuary (Table 6), perhaps due to 
measures implemented at Columbia River dams to reduce bird predation.
    Juvenile salmonids were especially prevalent in the diets of fish-
eating waterbirds in the Columbia River estuary during May (Figure 7). 
Steelhead smolts were most prevalent in Caspian tern diets during early 
May, followed by coho smolts in late May--early June, and then chinook 
smolts in late June--late July (Figure 8).
    Over 2,000 salmonid smolt PIT tags were found on the Rice Island 
Caspian tern colony by visually searching, and we estimated that over 
30,000 PIT tags have been deposited there over the last 9 years. The 
recovered PIT tags indicate that steelhead smolts were consumed in 
greater proportion to availability than other salmonid species, and 
that juvenile salmonids of hatchery origin were consumed in greater 
proportion to availability than wild smolts (Figure 11).
    We used a bioenergetics modeling approach to estimate the numbers 
of juvenile salmonids consumed by the Rice Island Caspian tern colony 
in 1997 (Figure 3). Model-based estimates were that 6--25 million 
juvenile salmonids were consumed by Caspian terns, or approximately 6--
25 percent of the estimated 100 million out? migrating smolts that 
reached the estuary in 1997 (Tables 14 and 16). Preliminary analyses 
suggest that the number of juvenile salmonids consumed by Rice Island 
Caspian terns in 1998 was 8--30 million, an increase over 1997. In 
addition, preliminary estimates of the number of juvenile salmonids 
lost to cormorants and gulls in the estuary are in the millions.
    The magnitude of Caspian tern predation on juvenile salmonids in 
the Columbia River estuary has been cause for considerable surprise and 
concern among fisheries and wildlife managers in the Pacific Northwest. 
How could losses of smolts to birds, especially to one species of fish-
eating bird nesting in one colony in the Columbia River estuary, be so 
high? Is this level of avian predation the norm, or does it represent 
an aberrant situation reflecting a highly perturbed ecosystem? We think 
there are four observations that relate to the current situation. 
First, the Columbia River estuary has experienced declines of forage 
fish stocks that would, under other circumstances, provide alternative 
prey for fish-eating birds such as terns. Second, most of the salmonids 
consumed by Caspian terns at the Rice Island colony were raised in 
hatcheries, and the proportion of hatchery-raised smolts in the diet of 
terns exceeds what would be expected based on availability. Third, 
juvenile salmonids that survive the out-migration to the estuary most 
negotiate dams, slack water impoundments, and other obstacles in their 
efforts to reach the sea. The cumulative stress associated with this 
migration likely enhances their vulnerability to tern predation. 
Finally, the Caspian tern colony on Rice Island is now the only known 
colony of its kind along the coast of Oregon and Washington, and Rice 
Island represents one of the few, if not the only suitable nesting 
habitat for this species along the coast of the Pacific Northwest. This 
mega-colony has coalesced at Rice Island because there are few other 
options.
    One of our research objectives for 1998 field season was to test 
the feasibility of potential methods to reduce predation on smelts by 
Caspian terns, including translocating the colony to a previous colony 
site on East Sand Island, close to the mouth of the Columbia River. 
Results from the 1998 field season suggest that moving the Caspian tern 
breeding colony from Rice Island to East Sand Island may be an 
effective method to mitigate losses of smalls to terns in the estuary.
    East Sand Island is about 13 miles down-river from Rice Island and 
6 miles up-river of the mouth of the Columbia River. A greater 
diversity of forage fishes are available to fish-eating birds in the 
vicinity of East Sand Island compared to Rice Island. In 1998, double-
crested cormorants nesting on East Sand Island consumed a much smaller 
proportion of juvenile salmonids (ca. 10 percent) than cormorants 
nesting on Rice Island (ca. 55 percent). Caspian terns in the estuary 
foraged mostly within five miles of the breeding colony at Rice Island, 
and 90 percent foraged within 13 miles of the colony. Attempts in 1998 
to attract Caspian terns to nest at a new site in the estuary (Miller 
Sands) using decoys and an audio playback system were successful. 
Finally, Caspian terns formerly nested on East Sand Island in the mid-
1980's, and still frequently roost on the island.
    These research results suggest that translocating the Caspian tern 
colony from Rice Island to East Sand Island is a feasible short-term 
management option for reducing tern predation on juvenile salmonids. 
Longer term management may include attracting portions of the current 
Rice Island Caspian tern population to nest outside the Columbia River 
estuary. Caspian tern colonies that formerly existed in Willapa Bay, 
Grays Harbor, and Puget Sound in the State of Washington are no longer 
extant, and there is evidence that these former colonies have coalesced 
to form the very large Rice Island colony. Re-establishing these 
colonies may provide considerable benefits for salmon restoration in 
the Columbia River Basin and reduce the vulnerability of the tern 
population to catastrophic events, like oil spills. Management action 
focusing on tern predation in the estuary may be an effective and 
efficient component of a comprehensive plan to restore salmon to the 
Columbia River Basin.
    The Interagency Avian Predation Working Group, which includes 
representatives from the U.S. Army Corps of Engineers, National Marine 
Fisheries Service, U.S. Fish and Wildlife Service, Oregon Department of 
Fish and Wildlife, Washington Department of Fish and Wildlife, 
Bonneville Power Administration, Columbia River Inter-Tribal Fish 
Commission, Oregon State University, USGS-Biological Resources 
Division, and USDA-Wildlife Services, was formed in May 1998 to develop 
a plan for mitigating the impact of avian predation on juvenile 
salmonids in the lower Columbia River. At a recent meeting of the 
Working Group, it was decided to proceed with plans to attempt to 
relocate the Rice Island Caspian tern colony to a former tern colony 
site on East Sand Island. This would involve a combination of efforts 
to attract the terns to nest on East Sand Island and dissuade them from 
nesting on Rice Island. The former would consist of (1) habitat 
modification on a portion of East Sand Island to provide the bare sand 
nesting habitat preferred by terns, (2) placing several hundred Caspian 
tern decoys on the new colony site to attract terns to land, (3) 
setting up several audio playback systems on the new colony site to 
simulate the acoustic environment of a tern colony, and (4) assure that 
avian predators (gulls, crows) are prevented from disrupting early 
attempts by terns to breed at the new site. Efforts to dissuade terns 
from nesting at their current colony site on Rice Island will probably 
consist of vegetating the current site so that bare sand substrate is 
no longer available. If this approach fails, additional efforts to move 
the colony may consist of attracting natural predators (e.g., eagles, 
gulls, crows) or harassing the terns as they roost on Rice Island at 
night, prior to the initiation of egg-laying.
    Responsibilities of the different agencies in implementing a plan 
to reduce avian predation in FY 99 have been discussed and agreed upon, 
both at the Executive-level and within the Working Group. The Oregon 
State University/Columbia River Inter-Tribal Fish Commission research 
team will (1) coordinate the efforts to attract the terns to East Sand 
Island, (2) conduct the monitoring and evaluation to determine the 
efficacy of management in reducing tern predation on smelts, (3) test 
the feasibility of other potential management actions to further reduce 
tern predation on juvenile salmonids (e.g., bird deterrent devices in 
foraging areas), and (4) continue to monitor other avian predator 
populations that may be targeted for management in the near future. To 
complete the M and E tasks assigned to the research team in FY 99, we 
will need an additional $204,000 beyond what has already been 
tentatively approved for funding by the Northwest Power Planning 
Council. The additional funding is needed to (1) conduct a radio 
telemetry study as part of the monitoring and evaluation of the 
management of the Rice Island tern colony, (2) conduct necessary 
repairs to project boats, and (3) cover the additional personnel costs 
needed to complete the work. In addition, $50,000 will be required to 
create Caspian tern nesting habitat on East Sand Island, $32,000 will 
be required to attract the tern colony to nest on this new habitat on 
East Sand Island, and at least $60,000 will be required to vegetate the 
current tern colony site on Rice Island.
    The proposed management action of translocating the Rice Island 
Caspian tern colony to East Sand Island has the potential to save 3--12 
million smelts that have reached the estuary and would otherwise have 
been consumed by terns. Monitoring and evaluation of that plan is 
critical for adaptive management of the problem. For example, if radio 
telemetry tells us that terns continue to forage at up-river locations, 
we can quickly identify foraging hot spots for avian predators that can 
be managed in season, if necessary.
    It is unclear that any alternative sources of funding may be 
available in time to order needed equipment and supplies necessary for 
translocation of the Caspian tern colony to East Sand Island or for 
radio telemetry of terns nesting on East Sand Island, crucial to the 
monitoring and evaluation of the management action. We ask the 
committee for assistance in identifying additional potential sources of 
support for effecting the translocation of the Caspian tern colony 
($142,000) and for the monitoring and evaluation ($204,000) of 
management initiatives aimed at reducing losses of juvenile salmonids 
to birds in the Columbia River estuary.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Statement of Joseph Cloud, Professor of Zoology, Department of 
                Biological Sciences, University of Idaho
Introduction
    Good morning Mr. Chairman and members of the committee. My name is 
Joe Cloud,and I am a faculty member of the University of Idaho and a 
member of the Washington State University / University of Idaho 
Reproductive Biology Center. My research expertise is the reproduction 
and early development of fish with an emphasis on salmonids. My 
objective in this testimony is to provide you with the rationale for 
and the feasibility of establishing a germ plasm repository or gene 
bank for threatened and endangered fishes.
Background
    Many fish populations around the world are declining. Some of the 
causative factors that have contributed to these declines include over-
fishing, habitat destruction or degradation, pollution and genetic 
introgression. Regardless of the causes, a decrease in the size of a 
population can result in a decrease in the diversity of genes within 
the population. Because many of the unique characteristics of the 
various fish stocks are genetic adaptations to local conditions, the 
loss of phenotypic characteristics within a population can be 
detrimental to the long-term survival of the population in its native 
habitat. Since a number of the causes for the declines in fish 
populations are due to the activities of the human population, many of 
the problems that contribute to these declines in fish populations can 
be corrected, but these corrective actions may require extended periods 
of time.
    In order to reduce or reverse the declines in fish populations, 
fish hatcheries have been established to mitigate the loss of native 
spawning habitat and to enhance the reproductive output of fish stocks. 
Although fish hatcheries have generally been very successful in the 
production and rearing of fry, the resultant gene pools of the hatchery 
populations are not always the same as the native stock from which they 
were derived. Thus, although hatcheries have been an important tool in 
the enhancement of fish populations, they have some inherent weaknesses 
relative to the maintenance of the original genetic composition of fish 
stocks.
    Therefore the establishment of germ plasm repositories for fish 
populations provides (1) a means to reestablish a population when 
factors that resulted in the population decline are corrected and (2) a 
backup for the inadvertent change in the genetic makeup of a population 
with the development of hatchery programs.
Gene Banks for Fish Populations
    At present, the cryopreservation of sperm is the only functional 
means of storing fish germ plasm for extended periods of time. The 
freezing of sperm, the efficient packaging of semen, and the long-term 
storage of sperm in liquid nitrogen were initially developed many years 
ago by scientists to support the genetic improvement in the dairy 
industry. Using these same technologies coupled with the understanding 
of the differences between mammalian and fish sperm physiology, 
cryobiologists around the world have successfully developed protocols 
to freeze sperm from a wide variety of freshwater and marine species of 
fish. Given the progress to date, these or similar methodologies can 
probably be utilized to preserve the spermatozoa of all current fish 
populations. Additionally, since the storage time for fish sperm held 
in liquid nitrogen has been estimated to be greater than 200 years, the 
time scale for the storage period is more than adequate for a germ 
plasm repository.
    The establishment of gene banks for fish populations is not a 
hypothetical suggestion; it is a program that has a successful track 
record. This technology has been utilized successfully by a number of 
different countries in the establishment of fish germ plasm 
repositories around the world as a component of efforts related to fish 
genetic conservation. Norway, for example, has initiated an extensive 
effort to collect and preserve the germ plasm of native Atlantic salmon 
that spawn in their rivers. In 1986 the Directorate for Nature 
Management in Norway established a national gene bank program for their 
native salmon. At present, their repository contains frozen milt from 
over six thousand individuals from 155 salmon stocks. Although there is 
no national program in the United States, there are regional programs 
involved in the collection and cryopreservation of fish sperm. In the 
Northwest, our laboratory at the University of Idaho in partnership 
with Washington State University and the Nez Perce Tribe has initiated 
the development of a gene bank for chinook salmon that spawn in 
tributaries of the lower Snake River. At present, our efforts have 
resulted in the cryopreservation of sperm from over 500 males from 12 
tributaries. Our efforts were initiated in 1992 and continue to the 
present. Although our efforts have been limited by funding, we are 
determined to save at least a portion of the gene pool of these stocks.
    The major disadvantage of a gene bank based on frozen sperm is that 
the reestablishment of an extinct stock requires extensive backcrossing 
or the use of androgenesis with eggs from a related stock. This problem 
has a simple solution--preserve both sperm and eggs. However, the 
cryopreservation of fish eggs, because of their relatively large size, 
has not been successful to date. Support for research efforts in this 
area is needed; however, this is a very challenging problem and will 
not be solved quickly.
Concluding Remarks
    It is my belief that the human population has an intrinsic need and 
responsibility to preserve the genetic legacy of our fish populations. 
Genetic conservation of existing fish stocks is an important goal in 
itself, and as a component of programs designed to insure a viable and 
sustainable fishery under changing environmental conditions. With the 
constant threat of losing genetic diversity in specific native fish 
stocks as a result of declining population numbers or as a result of 
genetic selection pressures in hatcheries, the establishment of a 
program for the long? term storage of fish germ plasm would serve as a 
back-up and insurance for the presently ongoing conservation programs.
    There is an important caveat in the development of a fish sperm 
bank. This product is a genetic repository, and as such, it will not 
solve any population problems of a fish stock that is decreasing, nor 
will it directly result in more fish in the rivers. What a sperm bank 
will do is guarantee that the genes, or combination of genes, that make 
a fish stock unique will not be lost forever.
                               __________
Statement of Richard K. Fisher, Jr., Vice President, Technology, Voith 
 Hydro, Inc.; Accompanied by Patrick A. March, Senior Manager, Norris 
 Engineering Laboratory, TVA Resource Management; Dilip Mathur, Ph.D., 
   Vice President, Normandeau Associates; Fotis Sotiropoulos, Ph.D., 
 Assistant Professor, Georgia Institute of Technology; Gary F. Franke, 
                   Senior Engineer, Voith Hydro, Inc.
                              introduction
    Environmental concerns broadly affecting the electric power 
generation industry include the potential for global climatic changes 
as a result of greenhouse gases produced by combustion, the depletion 
and disruption of fossil fuel supplies, air and water quality, aquatic 
life impacts, and uncertainties about long-term nuclear waste 
management. As a result of these concerns (in many instances stimulated 
by environmental groups and regulatory agencies), the U.S. electric 
power industry is focusing attention on technologies for renewable, 
non-polluting energy generation. Among these, hydroelectric power 
generation can play a significant role.
    By impounding water in reservoirs and harnessing nature's energy 
through hydroelectric generating plants as a part of the solar water 
cycle, hydropower provides a renewable, nonpolluting source of energy. 
Hydropower is by far the largest developed renewable energy resource in 
the world, supplying about 10 percent of the electricity output in the 
U.S. and approximately 20 percent of all electricity generated 
worldwide [1]. In the near term, further development of hydroelectric 
energy generation potential, through upgrade of existing plants and 
installation of new facilities, could increase clean energy production 
and make a near term contribution to the reduction of greenhouse gas 
emissions [2].
    Impoundments and releases from hydropower facilities can, under 
certain conditions, adversely impact the water quality of impounded and 
discharged flows as well as the aquatic life upstream, downstream, and 
migrating through the sites. These impacts have been severe enough to 
cause political and environmental activists to demand improvements. 
Today, in the U.S., environmental demands include the release of higher 
spills from impoundments to increase fish passage survival and even 
demands for the removal of large dams in some areas of the country, in 
both cases reducing hydra energy generation.
    To address these adverse effects of hydropower facilities, new 
technologies are emerging which, when applied, can remove many of the 
negative environmental effects of hydroelectric power generation and 
enhance the recognition of hydra power as a source of renewable energy. 
Some of these new developments address the improvement of fish passage 
survival and the reduction of hydro's impact on both water quality and 
aquatic habitat. This presentation will discuss work currently underway 
in the U.S. related to these issues.
Hydroelectric Power Generation
            Developing Better Environmental Alternatives
    Beginning in the mid-1950's, some operating utilities in the U.S. 
began to respond to environmental concerns and initiated steps to 
improve the environmental compatibility of their hydro plants. Two 
areas of the country were particularly active. In the Pacific 
Northwest, biologists, governmental agencies, and utilities on the 
Columbia River were experimenting with ways to increase survival of 
fish as they passed downstream through hydro plants (Fish passage is 
now also emerging as an important issue in the eastern U.S.). In the 
Southeast, the Tennessee Valley Authority (TVA) was a pioneer in 
utilizing an integrated system approach, finding improved ways to 
balance the multiple uses of water resource projects among hydro power 
generation, flood control, municipal and industrial water supply, water 
quality, and recreation. TVA, adopting a proactive approach to 
environmental stewardship, has invested significantly in R&D and 
hardware to develop and implement improvements to system operation that 
optimize benefits among all stakeholders in their water resource 
projects [3].
    As part of its strategy to be responsive to the needs of its 
customers, Voith has had a long-term commitment to developing hydro 
equipment designs with technologies for environmental enhancement. In 
the 1950's, Voith played a leadership role in Europe with R&D to 
develop turbine designs capable of boosting dissolved oxygen (DO) 
levels in water passing through low head turbines [4]. In the 1970's, 
their engineers began investigations into the use of greaseless 
components in turbine power control elements. In the 1980's, Voith 
continued the development of oil-free Kaplan turbine hub designs with 
the installation of several ``Oil Free'' Kaplan turbines and began R&D 
to improve the understanding of issues leading to the mortality of fish 
passing through hydro turbines [5, 6]. In this same time frame, Voith 
Hydro, Inc., invested significant funds with TVA into a joint R&D 
partnership to develop improved hydro turbine designs to enhance DO 
concentrations in releases from Francis-type turbines.
    In the 1990's, these efforts were further intensified [7]. In 1995, 
under the stimulus of a cost-shared Department of Energy contract, 
Voith Hydro, Inc., began an in-depth effort to develop an ``Advanced 
Environmentally Friendly'' family of turbine designs, in collaboration 
with Georgia Institute of Technology, Harza Engineering Co., Normandeau 
Associates, and the Tennessee Valley Authority. The environmental 
improvements for the advanced designs addressed the goals of: 1) 
improving fish passage survival; 2) increasing the levels of dissolved 
oxygen in hydro plant discharges; 3) developing special turbine designs 
for efficiently providing minimum stream flows to protect downstream 
aquatic habitats; and, 4) developing designs to provide reduced oil and 
grease pollution. These concepts primarily addressed the enhancement of 
hydropower's environmental compatibility through upgrades of turbines 
in existing hydro power stations. However, the environmentally improved 
design concepts also provide added benefits, including improved plant 
energy generation and reduced operating and maintenance costs, and the 
concepts are applicable to new turbine installations as well. An 
independent investigation by the joint venture of Alden Research 
Laboratory, Inc., and Northern Research and Engineering Corporation, 
under a second DOE contract, also supported the achievability of ``fish 
friendly'' turbines with a unique design that is primarily applicable 
to fish bypass flow schemes and new turbine installations.
    Today, progressive U.S. operating utilities are upgrading turbines 
to environmentally friendly designs as a part of their programs for 
relicensing and energy generation improvement. Utilities and water 
resource agencies are also developing strategies and implementing 
control systems that improve how they operate their turbines to enhance 
water quality and fish survival when fish and/or low levels of DO are 
present. The direct fish mortality of turbine bypass systems, including 
spillways (which may also add detrimental dissolved nitrogen) and fish 
collecting structures, are under investigation to provide an 
understanding of how all of the components of a hydro project can be 
used to improve its environmental compatibility. In many cases, passing 
fish through environmentally enhanced turbine designs can result in 
higher overall survival than bypassing fish through the dam's spillways 
[8, 9].
    This presentation focuses primarily on environmentally advanced 
turbine and control system designs and technologies that are being 
developed to increase fish passage survival and improve levels of DO in 
turbine discharges.
Increasing Fish Passage Survival
    By 1990, over 40 years of investigating fish survival by catching 
fish downstream of turbines had not provided in-depth insights into 
actual mechanisms affecting fish survival. The turbine had been treated 
as a ``black box'' by many researchers, and only vague rules of thumb 
had been developed to biologically characterize turbines. Statements 
such as ``Turbines are like blenders--they chop and kill a significant 
portion of passing fish,'' ``Kaplan turbines are more fish friendly 
than Francis turbines,'' and ``Operation at best efficiency is best for 
survival'' were used regularly to characterize hydra turbines. 
Beginning in 1990, a more precise method for measuring fish passage 
survival was introduced. This technique uses carefully designed and 
controlled testing with fish which can be recovered with ``balloon 
tags'' [10]. Based on the results of those experiments, statistical 
characterizations demonstrating much higher fish survival began to 
emerge [11]. Survival rates, measured for fish passing directly through 
large turbines, ranged from 88 to 94 percent.
    In the past 5 years, important research aimed at further 
understanding the mechanisms leading to fish mortality has been 
completed. Numerous workshops bringing biologists, operators, 
regulators, and designers together to exchange views have improved 
insight into factors which may influence survival. The US Department of 
Energy's (DOE) Advanced Hydro Turbine (AHT) program further stimulated 
an in-depth investigation into mechanisms for fish passage mortality 
through the use of detailed numerical simulation of fluid flows in 
turbines with 3-D viscous computational fluid dynamics (CFD) methods 
and careful balloon tag testing. As a result of the studies, turbine 
design improvements which can be implemented in new machines or through 
rehabilitation of existing machines have been developed [12]. Limited 
field testing to date has verified many of the conclusions reached [13, 
14]. An especially enlightening test of the existing turbines at 
Wanapum Dam using balloon tagged fish verified many of the fish 
mortality mechanism models [15, 16] and showed that best efficiency 
operation of Kaplan turbines is not necessarily the most favorable 
operating condition for fish survival as was previously believed. 
Instead, operation at higher flows was found to be safer for passing 
fish (Figure 2). The research developed insights into mortality 
mechanisms for Kaplan turbines, with mortality being related to: 
turbulent flows resulting from low efficiency designs or plant 
operating strategies; turbulent flows and the trapping and cutting of 
fish in the zone of flow passing near the turbine hub when large gaps 
between blade and hub exist (characterizing the lower output operation 
of Kaplan turbines); strike of fish by turbine blades or impact of fish 
on other turbine structures; cavitation in turbine water passages; 
abrasion of fish driven into rough turbine surfaces by flow turbulence; 
and even turbulence-induced or impact-induced dizziness enhancing the 
chance for predation losses as disoriented migrating fish are eaten by 
birds or other fish when they emerge from the draft tube. The number of 
turbine runner blades and stay vanes, the length of the fish compared 
to the size of the turbine, and the quality of the flow at the point of 
operation are key elements that characterize survival [12, 16]. Also, 
the location of the fish in the water column and the zones of flow 
through which the fish pass are observed to be important.
    As a result of insights gained, a comprehensive environmentally 
enhanced Kaplan turbine concept was developed. The required features 
depend on site specific goals and include designs having: 1) high 
efficiency over a wide operating range with reduced cavitation 
potential (results from today's advanced technology design verification 
tools); 2) a gapless design for hub, discharge ring, and blades (Figure 
3) that enhances fish passage survival; 3) a non-overhanging design for 
wicket gates; environmentally compatible hydraulic fluid and 
lubricants; 4) greaseless wicket gate bushings; 5) smooth surface 
finishes in conjunction with upgrades for stay vanes, wicket gates, and 
draft tube cone.
    To address the changes in mortality associated with how the 
turbines are operated, new technology in measurement transducers and in 
control systems have been used to develop control system designs to: 1 
) sense fish presence at each turbine and limit turbine operation to 
``fish friendly'' modes when fish are present; 2) automatically update 
Kaplan turbine ``digital cam surfaces'' to most efficient operation at 
each head and flow to ensure proper optimization of operations and 
minimization of fish injuring flow turbulence; 3) sense active 
cavitation and limit turbine operation to non-cavitating conditions; 
and 4) optimize plant output when fish are present to achieve targeted 
fish passage survival based on fish presence, location, turbine passage 
mortality, spillway fish mortality, fish bypass characteristics, and 
total dissolved gas generated during spilling (Figure 4). Furthermore, 
new technology for generator designs can be implemented for plants with 
large changes in head. Particularly important for Francis units, 
turbine operations can be adjusted for optimum fish survival conditions 
independent of operating head by using adjustable speed generators and 
advanced control systems.
    Elements of the e-''fish''-ent--Kaplan have been implemented in the 
rehabilitated designs installed at the Rocky Reach power plant of 
Chelan County P.U.D. in Washington state in the U.S. [17] and at the 
Bonneville project of the U.S. Corps of Engineers [18]. An even more 
advanced design has been developed and model tested for the Grant 
County P.U.D.'s Wanapum Dam [19]. These turbines feature partially or 
fully gapless designs as well as a mix of the other features discussed 
above. Fish survival testing using balloon tags at Rocky Reach showed 
that elimination of the gaps downstream of the blade center of rotation 
resulted in a 4 percent improvement in fish passage survival at lower 
operating powers where gap size was large [20]. Testing of the fish 
passage survival of the new minimum gap design at Bonneville is planned 
for the spring of 1999.
    An environmentally enhanced Francis turbine concept was also 
developed. Features include: a low turbulence, high efficiency design 
with reduced cavitation having a reduced number of blades compared to 
traditional designs; a non-overhanging design for wicket gates; use of 
environmentally compatible hydraulic fluids for governors; greaseless 
wicket gate bushings; upgraded surface finishes for stay vanes, wicket 
gates, and draft tube cone; adjustable speed generator for wide head 
range plants; an advanced control system for speed adjustment and/or 
for optimized energy generation while operating units and the plant at 
flows maximizing fish passage survival when fish are present in the 
flow. Table 1 illustrates the impact of turbine size and number of 
blades on fish survival.

 
----------------------------------------------------------------------------------------------------------------
                                                                                   Using D=1.0m    Using D=5.4m
                                                                     Number of       Survival        Survival
                                                                      blades       Probability %   Probability %
----------------------------------------------------------------------------------------------------------------
New.............................................................              25            89.7            98.1
Original........................................................              18            92.6            98.6
New.............................................................              15            93.6            98.9
New.............................................................              13            94.6            99.0
New.............................................................              11            95.5            99.2
----------------------------------------------------------------------------------------------------------------
Table 1. Considering only strike induce mortality for Francis turbines of two different sizes (D) and various
  number of runner blades, large turbines with smaller number of blades provide better conditions for survival.

    Further research is underway. Advanced zonal matrix models to 
estimate fish passage survival as a consequence of turbine geometry and 
operational characteristics are being developed and evaluated. Figure 5 
shows the results of such a model where lines of constant fish passage 
survival are shown superimposed on the turbine efficiency performance 
characteristics. Field tests of eel survival for a propeller turbine 
design correlated well with predicted survival [14] using the zonal 
matrix model.
    In another application of new technology, an advanced computational 
method for estimating trajectories of fish-like bodies passing through 
hydropower installations is currently under development. The method is 
based on the assumption that a fish swimming through the complex, 
three-dimensional flow field of a hydro turbine (obtained via a 
separate 3-D viscous calculation) can be approximated as a body of 
simplified, yet fish-like geometry moving through the precomputed flow 
field. The motion of such a ``virtual fish'' is governed by a set of 
differential equations that account for the fish mass and various flow-
induced forces. This model can not only be used to estimate the 
trajectory of a virtual fish from the forebay to the tailrace (Figure 
6), but can also provide very specific information about a variety of 
flow-induced loads to fish passing through various zones of turbine 
flow (Figure 7) [21]
    Use of these advanced tools in conjunction with well-planned and 
well-executed physical tests to validate the injury mechanisms will 
help turbine designers and biologists improve fish passage survival and 
enhance the image of hydra power as ``green power'' and a renewable 
resource.
Increasing Dissolved Oxygen in Turbine Discharges
    Development of methods for increasing dissolved oxygen in turbine 
discharges has been underway for nearly 50 years. In the last 10 years, 
significant progress has been made. TVA has been a consistent driver of 
these developments. Through its Norris Engineering Laboratory, TVA has 
developed reliable line diffuser technologies for low cost aeration of 
reservoirs upstream of hydro plants [22] and effective labyrinth weirs 
(see Figure 8) and infuser weirs for aerating flows downstream from 
hydra plants [23]. The most cost-effective technology for Francis 
turbines, where site conditions support it, has been found to be the 
use of the low pressures induced by the water flowing through the 
turbine to aerate the flow.
    For upgrades and new construction an ongoing joint development 
effort by TVA and Voith Hydro, Inc., has made substantial improvements 
in the design of the ``auto-venting'' turbine (AVT) [23, 24, 25]. 
Extensive development with scale models and field tests was used to 
validate aerating concepts and determine key parameters affecting 
aeration performance. Specially shaped turbine component geometries 
were developed for enhancing low pressures at locations for aeration 
outlets in the turbine water passage, for drawing air into an 
efficiently absorbed bubble cloud as a natural consequence of the 
design, and for minimizing power lost as a consequence of aeration. New 
methods were also developed to manufacture turbine components for 
effective aeration.
    TVA's Norris Dam was selected as the first site to demonstrate this 
technology. The two Norris AVT units contain options to aerate the flow 
through central, distributed, and peripheral outlets at the exit of the 
turbines.
    In testing the new auto-venting turbines, measurements are required 
to maximize the environmental and hydraulic performance of the aeration 
options. The environmental performance is evaluated primarily by the 
amount of DO uptake, while the hydraulic performance is based on the 
amount of aeration-induced efficiency loss. At Norris (Figure 9), each 
aeration option has been tested [27, 28] in single and combined 
operation over a wide range of turbine flow conditions. For 
environmental performance, results show that up to 5.5 mg/L of 
additional DO uptake can be obtained for single unit operation with all 
aeration options operating. In this case, the amount of air aspirated 
by the turbine is more than twice that obtained in the original 
turbines with hub baffles. To meet the 6.0 mg/L target that has been 
established for the project, an additional 0.5 mg/L of DO improvement 
is obtained by the flow over a re-regulation weir downstream from the 
powerhouse. For hydraulic performance, efficiency losses ranging from 0 
to 4 percent are obtained, depending on the operating condition and the 
aeration options. Compared to the original turbines at the plant, these 
specially designed replacement units provide overall efficiency and 
capacity improvements of 3.5 and 10percent, respectively [28]. The new 
runners also have shown significant reductions in both cavitation and 
vibration.
    In general, the environmental and hydraulic performance of a given 
option varies with the site head and site power output. Under these 
conditions, the options used to meet a target DO can be strategically 
chosen to minimize the aeration-induced efficiency loss. As an example, 
consider the 1996 DO data for the new units at Norris, shown in Figure 
10. Turbine aeration was initiated in July, when the scroll case DO 
began to drop. Throughout the low DO season, based on the head, power, 
and required DO uptake, a mix of aeration options was used. Aeration 
ended in November after reservoir turnover. On the average, the DO 
downstream of the project was maintained near the 6.0 mg/L target 
(except for a period when aeration was disrupted for an extreme series 
of performance tests of the new units). During the same period, the 
average aeration-induced turbine efficiency loss was about 1.9 percent.
    As is the case with improvements to fish passage survival, 
additional research is underway to further improve designs for aerating 
turbines. In one project, computer flow simulations using advanced 
numerical methods have been developed to model the processes involved 
in increasing the effectiveness of aeration. ``Virtual bubbles'' 
injected into turbine flows are being used to calculate bubble size and 
oxygen transfer efficiency (Fig. 11, 12). Through the use of the 
advanced numerical simulation, oxygen uptake efficiency as a function 
of changing design and operating parameters can be further refined. 
Improved software to calculate the influence of aspirated air on 
turbine performance and on the pressure at the air admission point is 
being studied, and design of improved mechanical systems for 
transporting air to critical locations is underway. Field tests to 
verify design assumptions continue to play an important role in 
improving the methodology.
Summary
    This paper has reviewed some of the activities and innovative 
technologies which are currently being used to improve the 
environmental compatibility of hydropower and to increase its energy 
generation potential. Rehabilitation of existing hydroplants 
incorporating new fish-friendly runner designs, aerating turbines, and 
advanced control systems for environmental optimization is providing 
improved environmental compatibility as well as increasing generated 
revenue and reducing maintenance costs. Testing of prototype solutions 
has indicated that effective improvements are being achieved, improving 
water quality at hydra sites and reducing hydro's impact on aquatic 
life. Progressive utilities are working hard to implement these new 
developments and to operate their hydro systems to balance 
environmental responsibility and economical power generation.
    Significant progress is being made in removing the ``tarnish'' from 
hydro's image and supporting hydro's legitimate role as a clean, 
environmentally sound, renewable, and affordable resource. These 
advanced technologies and the insights from ongoing R&D are playing a 
key role in making hydra ``shine.'' The results of the recent 
improvements in turbine design have been verified at the first test 
installations. Additional research is needed to refine fish damage 
models and additional testing must be conducted to enhance the 
understanding developed to date and to verify the applicability of the 
new designs to a wider range of projects.
                               references
    1. SERI (Solar Energy Research Institute), ``The Potential of 
Renewable Energy: An Interlaboratory White Paper,'' Report No. SERI/TP-
260-3674, Golden, Colorado, 1990.
    2. Sale, M.J., and D. Neuman, ``Hydro's Role in Curbing Greenhouse 
Gas Emissions,'' Hydro Review, February 1998.
    3. TVA (Tennessee Valley Authority), ``Tennessee River and 
Reservoir System Operation and Planning Review--Final Environmental 
Impact Statement,'' Knoxville, TN: Tennessee Valley Authority Resource 
Development Group, December 1990.
    4. Wagner, H., ``Experiments with Artificial River Water 
Aeration,'' Voith Forschung und Konstrucktion, Heft 4, November 1958.
    5. Breymaier, D., ``Small Standardized Pit Turbines (ANT) with Oil-
Free Runner Hub, Double Regulated,'' Hydro Vision 1994, Phoenix, 1994.
    6. Eicher Associates, Inc., ``Turbine Related Fish Mortality: 
Review and Evaluation of Studies,'' Final Report, EPRI AP-5480, 
Research Project 2694-4, November 1987.
    7. Fisher, R.K., and A.D. Roth, ``Design Considerations for 
Enhancing Environmental Compatibility of Hydraulic Turbines,'' 
Proceedings of Waterpower 1995, San Francisco, CA, July 1995.
    8. Ledgerwood, R., D. Dawley, E.M. Gilbreath, L.G. Bentley, P.J. 
Sanford, and M.H. Schiewe, ``Relative survival of sub-yearling chinook 
salmon which have passed Bonneville Dam via the spillway or the second 
powerhouse turbines or bypass system in 1989, with comparisons to 1987 
and 1988'', U. S. Army Corps of Engineers, Contract E85890024/
E86890097, 1990.
    9. Normandeau Associates, Inc., and J.R. Skalski, ``Chinook salmon 
smolt passage survival through modHied and unmodified spillbays at Rock 
Island Dam, Columbia River, Washington,'' Report prepared for Public 
Utility District No. 1 of Chelan County, Wenatchee, WA, 1997.
    1O. Heisey, P.G.D. Mathur, and T. Rineer, ``A reliable tag-
recapture technique for estimating turbine passage survival: 
Application to young-of-the-year American shad (Alosa sapidissima),'' 
Can. Jour. Fish. Aquat. Sci., 49:1826-1834, 1992.
    11. Mathur, D., and P.G. Heisey, ``Debunking the Myths about Fish 
Mortality at Hydro Plants,'' Hydro Review, April 1992.
    12. Franke, G.F., D.R. Webb, R.K. Fisher, D. Mathur, P. Hopping, P. 
March, M. Headrick, I. Laczo, Y. Ventikos, and F. Sotiropoulos, 
``Development of Environmentally Advanced Hydropower Turbine System 
Design Concepts,'' York, PA: Voight Hydro, Inc., Report No. 2677-0141, 
U.S. Department of Energy Contract DE-AC07-961D13382, July 1997.
    13. Normandeau Associates, Inc., and J.R. Skalski, ``Relative 
survival of juvenile chinook salmon (Oncorhynchus tshawytscha) in 
passage through a modified Kaplan turbine at Rocky Reach Dam, Columbia 
River, Washington,'' Prepared for Public Utility District No. 1 of 
Chelan County, Wenatchee, WA,1996.
    14. Normandeau Associates, Inc., and J.R. Skalski, ``Estimation of 
survival of American eel after passage through a turbine at the St. 
Lawrence FDR Project, New York,'' Prepared for New York Power 
Authority, White Plains, NY, 1998.
    15. Normandeau Associates, Inc., J.R. Skalski, and Mid-Columbia 
Consulting, Inc., `` Fish survival investigation relative to turbine 
rehabilitation at Wanapum Dam, Columbia River, Washington,'' prepared 
for Grant County Public Utility District No. 2, Ephrata, WA, 1996.
    16. Fisher, R.K., S. Brown, and D. Mathur, ``The Importance of the 
Point of Operation of a Kaplan Turbine on Fish Survivability,'' 
Proceedings of Waterpower 1997, Atlanta, GA, August 1997.
    17. McKee, C., and G. Rossi, ``Rocky Reach Kaplan Turbines: 
Development of Fish-Friendly Runners,'' Hydropower into the Next 
Century, Barcelona, Spain, 1995.
    18. Moentenich, B., ``Model Testing Replacement Turbines for the 
Bonneville First Powerhouse, Proceedings of Waterpower 1997, Atlanta, 
GA, August 1997.
    19. Hron, J.J., J.B. Strickler, J.M. Cybularz, ``Wanapum Kaplan 
Turbine Replacement,'' Proceedings of Waterpower 1997, Atlanta, GA, 
August 1997.
    20. Franke, G.F., D.R. Webb, R.K. Fisher, D. Mathur, P. Hopping, P. 
March, M. Headrick, I. Laczo, Y. Ventikos, F. Sotiropoulos, 
``Development of Environmentally Advanced Hydropower Turbine System 
Design Concepts,'' York, PA: Voith Hydro, Inc., Report No. 2677-0141, 
U.S. Department of Energy Contract DE-AC07-961D13382, July 1997, 
Section 4.4.5, page 110.
    21. Sotiropoulos, F.Y. Ventikos, R.K. Fisher, ``A Computational 
Method for Predicting Fish Passage through Hydropower Installations,'' 
Proceedings of Waterpower 1997, Atlanta, GA, August 1997.
    22. Mobley, M.H., and W.G. Brock, ``Aeration of Reservoirs and 
Releases Using TVA Porous Hose Line Diffuser,'' ASCE North American 
Congress on Water and Environment, Anaheim, CA, June 1996.
    23. Hauser, G.E., and W.G. Brock, ``Aerating Weirs for 
Environmental Enhancement of Hydropower Tailwaters,'' Norris, TN: 
Tennessee Valley Authority Engineering Laboratory, 1994.
    24. USDOE, ``Environmental Mitigation at Hydroelectric Projects, 
Volume 1, Current Practices for Instream Flow Needs, Dissolved Oxygen, 
and Fish Passage,'' U.S. Department of Energy Report DOE/ID-10360, 
1991.
    25. March, P.A., T.A. Brice, M.H. Mobley, and J.M. Cybularz, 
``Turbines for Solving the DO Dilemma,'' Hydro Review, Vol. 11, No. 
1,1992.
    26. Ruane, J.R., and G.E. Hauser, ``Factors Affecting Dissolved 
Oxygen in Hydropower Reservoirs,'' Proceedings of Waterpower, 93, 
Nashville, TN, 1993.
    27. Hopping, P.N., P.A. March, T.A. Brice, and J.M. Cybularz, 
``Update on Development of Auto-Venting Turbine Technology,'' 
Proceedings of Waterpower 1997, Atlanta, GA, August 1997.
    28. Hopping, P.N., P.A. March, and R.K. Fisher, ``Status and Vision 
of Turbine Aeration,'' Proceedings of 27th IAHR Congress, San 
Francisco, CA, August 1997.
                                 ______
                                 
           The Advanced Hydropower Turbine System Program\1\
---------------------------------------------------------------------------
    \1\Copyright 1998, Voith Hydro, Inc. All rights reserved.
---------------------------------------------------------------------------
                  an environmentally friendly turbine
Program Update
    What: The Advanced Hydropower Turbine Systems (AHTS) program seeks 
to develop turbine and control systems that will allow fish to pass 
more safely through a hydropower facility. A major technical goal is 
the reduction of turbine-induced fish mortality to 2 percent or less 
compared to current levels ranging up to 30 percent or greater. The 
program also addresses other fish habitat issues such as raising 
dissolved oxygen levels in the water, eliminating pollutants associated 
with turbine mechanics and improving turbine management to produce 
minimum stream flows to support aquatic life.
    Who: A partnership between the Department of Energy, the Hydropower 
Research Foundation, Inc. (a consortium of companies organized by the 
National Hydropower Association), and two Teams comprising engineers, 
manufacturers, universities, fish biologists, and plant operators.
    Phases: The program is set to begin Phase II and III when new 
resources will be used to test the concepts developed in Phase I. Phase 
I resulted in four turbine design concepts to improve fish passage; 
Team 1 developed three design concepts that are modifications of 
existing turbine designs, known as Kaplan and Francis turbines, and 
Team 2 developed a completely new turbine wheel, or ``runner''. Once 
testing of the Team 2 design has been completed using pilot scale 
turbines and live fish, Phase III can begin with full-scale prototypes 
to be built and tested at operating hydropower plants. Team 1 designs 
are ready for Phase III full-scale prototype testing, and being 
integrated into ongoing rehabilitation projects.
    Funding: Since 1994, the program has received approximately $4 
million with industry spending an additional $10 million in design 
development. The AHTS program is scheduled for additional funding 
consideration. Congress appropriated $2 million for FY 1999, a 
significant increase from the $750,000 in Federal funding the program 
received last year. $35 million for continued Phase II and III testing 
are being requested for fiscal years 2000-01.
The Turbine Concepts
    Modified Kaplan: Eliminating runner gaps, improved blade shapes and 
an advanced control system to sense the presence of fish are some 
modifications to a Kaplan turbine designed by the Voith Hydro, Inc. led 
team of engineers, biologists and university researchers that may 
increase survival rates to 98 percent according to one preliminary 
study. These modifications, usable today at existing hydro plants, also 
result in more efficient energy production, increasing the value of the 
turbine to the owner. Bonneville Dam on the Columbia River is 
installing an advanced ``minimum gap'' turbine now which is scheduled 
to go into operation in early 1999. A replacement turbine with even 
more advanced ``fish friendly'' features has been developed and scale 
model tested for the Wanapum Dam on the mid-Columbia River. The 
manufacture and conversion of the existing turbines at Wanapum Dam into 
this more advanced design is waiting for regulatory agreements to allow 
its productive use. A control system to sense the presence of fish and 
operate turbines at their points of maximum fish passage survival when 
fish are present has also been developed to work with existing or the 
advanced design Kaplan and is ready for Phase III evaluation now.
    Modified Francis: Fewer blades, improved blade shapes and larger 
spaces between blades make this turbine act more like a revolving door 
for fish passage. Several of these ``lower blade number'' designs have 
been installed and are operating. Another revolution in design is the 
use of hollow blades and aerating holes that increase the amount of 
dissolved oxygen in water passing through the turbine. This helps fish 
thrive in waters below dams in the Southeastern part of the U.S. . An 
aerating turbine, jointly developed by Voith Hydro, Inc. and TVA has 
been installed at TVA's Norris Dam. Another aerating turbine is 
currently being manufactured for Duke Power's Wateree project. Further 
refinements could be incorporated into U. S. Army Corps of Engineers 
projects currently funded for conventional turbine rehabilitation.
    Spiral blade design: Only two or three blades and an elongated 
helical shape define the new runner developed jointly by Alden Research 
Laboratory, Inc. (ARL) and Northern Research and Engineering 
Corporation (NREC). This turbine has the potential to approach 100 
percent fish survival. Because of its reduced power generation 
characteristics, and its size, it is mostly suited for new hydra 
projects, or for installation in fish bypass flows.
    The Big Picture: The successful completion of the Advanced 
Hydropower Turbine Systems program could greatly enhance the nation's 
ability to produce a domestic source of clean and renewable electricity 
while lessening, or even eliminating, impacts to fish and fish 
habitats. Additional benefits include further reductions in greenhouse 
gas emissions and establishing a competitive edge for U.S. exports of 
turbine technology.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Hydropower and U.S. Initiative on Reducing Greenhouse Gas Emissions
     (By Michael J. Sale and Marilyn A. Brown, Oak Ridge National 
               Laboratory,\1\ Oak Ridge, Tennessee, USA)
---------------------------------------------------------------------------
    \1\ Oak Ridge National Laboratory is managed by Lockheed-Martin 
Energy Research Corporation, Inc., under contract DE-AC05-960R22464 
with the U.S. Department of Energy.
---------------------------------------------------------------------------
                                abstract
    In preparation for international efforts to reduce greenhouse gas 
(GHG) emissions, the U.S. energy production industry has been the 
subject of important, new studies. These studies provide an opportunity 
to examine the role of hydropower In future energy production. Existing 
hydropower generation is declining, due to combination of real and 
perceived environmental problems, regulatory pressures, and changes in 
energy economics (deregulation, unresolved environmental problems that 
make maintenance of hydropower more costly than new, natural gas-based 
power plants, etc.). However, hydropower currently represents about 70 
million metric tons of carbon dioxide emissions avoided annually. If 
advanced hydropower technology can be developed that minimizes adverse 
environmental effects, hydropower can make significant new 
contributions to GHG reductions. The hydropower industry should embrace 
the GHG Reduction Initiative, because the initiative promises to be a 
route to rejuvenating hydropower R&D and clean energy production.
Background
    In July 1998, President Clinton announced a new campaign to address 
the issue of climate change with educational and action-oriented 
programs The fact that concentrations of carbon dioxide 
(CO<INF>2</INF>) and other greenhouse gases (GHG) have been increasing 
in the global atmosphere at unprecedented rates is well established. 
Theory predicts that such increases will be accompanied by increases in 
atmospheric temperatures and with changes in global hydrologic cycles A 
panel of seven eminent scientists, including three Nobel Prize winners, 
presented evidence to the President and to the public showing that 
these predicted changes are being detected. The President responded 
with a broad, new initiative to reduce greenhouse gas emissions in the 
U.S.
    Much of the President's new initiative was in preparation for the 
international treaty conference that was held in Kyoto, Japan, in 
December 1997. That conference concluded with a proposed protocol for 
reducing global carbon emissions. The U.S. contribution to the Kyoto 
Protocol, assuming it is ratified in the U.S., will be to reduce carbon 
emissions to approximately 7 percent below 1990 levels by the years 
2008-2012. U.S. carbon emissions in 1990 have been estimated at 1,620 
million metric tons (MtC) (EIA 1996a). Due to continued economic 
growth, these emissions are predicted to increase 34 percent by 2010 
(Hakes 1998). Although these numbers are subject to much debate and 
revision, present carbon emissions would probably have to be reduced by 
500 MtC/yr or more to satisfy the Kyoto Protocol.
    Energy production accounts for about one third of the carbon 
emissions in the U S., therefore any actions to reduce these emissions 
will involve the energy sector. Although hydropower's current 
contribution to reduction of carbon emissions in the U.S. is relatively 
small compared to all emissions (Figure b, the hydropower industry can 
have an important role in managing carbon emissions. This paper 
examines the treatment of hydropower in the current GHG reduction 
initiative and describes how the hydropower industry can contribute to 
managing climate change. Additional developments in this area can be 
expected as debate continues this year.
Recent Studies and Recommendations Relevant to Hydropower
    Several important studies have been produced recently in support of 
the GHG Reduction Initiative and other energy planning activities. 
These reports include the following:
    <bullet>  the Presidents Committee of Advisors on Science and 
Technology (PCAST) completed a major report on Federal energy research 
and development (R&D) needs in November 1997 (PCAST 1997),
    <bullet>  the U.S. Department of Energy (DOE) national laboratories 
produced two studies of alternative ways to meet carbon emission 
reduction goals--the ``5-lab'' study (IWG 1997) and the ``11 -lab 
study'' (NLD 1997)1
    <bullet>  in preparation for the 1997 Kyoto meeting, the U.S. 
Department of Interior and the U.S. Agency for International 
Development produced a report on environmental and social consequences 
of hydropower development (DOT-AID 1997), DOE conducted a new process 
to develop a Comprehensive National Energy Strategy and issued a draft 
and final plans on this subject (DOE 1998), and
    <bullet>  the Presidents FY 1999 budget request included new 
funding for various parts of the GHG reduction initiative.
PCAST recommendations
    The PCAST report reviewed the current national energy R&D portfolio 
and made recommendations on how to ensure that national energy and 
environment needs will be met in the next century. This independent, 
non-federal body of experts concluded that significantly more 
government R&D is needed (i.e., increase of $1 billion over 5 years), 
especially in areas where investments can complement, leverage, or 
catalyze work in the private sector. The trend that public sector R&D 
investments are falling sharply (38 percent reduction between 1993 and 
1996) was noted as a concern. Renewable energy technologies were 
targeted for the second largest increase in R&D spending due to the 
promise of large public benefits as clean energy production. With 
regard to hydropower, PCAST stated strongly that insufficient 
investments were being made to sustain or to increase current 
production. Additional R&D was recommended for a new generation of 
hydropower technologies that is less damaging to the environment. 
Although strong statements in support of hydropower are contained in 
the body of the PCAST report, hydropower is not highlighted among 
renewable technologies in the Press Release or the Executive Summary.
DOE Laboratory facings
    Two studies were conduced jointly by the DOE national laboratories 
in 1997 and 1998 to identify technologies that could be used to meet 
the challenge of reducing GHGs. Commonly know as the ``5-Lab'' (IWG 
1997) and the ``11-Lab'' (NLD 1997) studies, these reports evaluated a 
range of different technology options available now and in the future. 
The lab studies did not prioritize solutions, but they did recommend a 
sequence of alternatives over the next 30 years, with energy efficiency 
alternatives first; clean, renewable technologies second; and carbon 
sequestration approaches last. Hydropower was usually listed among the 
diversity of renewable, ``clean energy'' technologies that were 
recommended, but it was usually dropped out of the renewables list in 
report summaries. The lab studies also emphasized an R. D & D strategy 
in partnership with the private sector: research, development, and 
demonstration.
DOI-AID report on hydropower
    As part of the background papers informing participants at the 
Kyoto conference on key subject, a whitepaper was prepared on the 
environmental and social consequences of hydropower development (DOT-
AID 1997). This report acknowledged that hydropower is essential to the 
U.S. and global power sectors and that hydropower development had both 
positive and negative effects. While global hydroelectric capacity is 
increasing at 2-3 percent per year, it is decreasing in the U.S. 
Projections for greater hydropower development are being rejected by 
world bodies such as the World Energy Council and the Intergovernmental 
Panel on Climate Change, because they do not account for unacceptable 
social and environmental impacts. Among the negative impacts of 
hydropower emphasized in the DOI-AID report are:
    <bullet>  forced resettlement of people from inundated lands; loss 
of biodiversity;
    <bullet>  disruption of water and sediment regimes in rivers, 
estuaries, and wetlands;
    <bullet>  emissions of GEIGs at some sites;
    <bullet>  outbreaks of water-borne diseases; and intensification of 
regional and transnational water rights conflicts.
    The DOI-AID report does acknowledge that these adverse impacts are 
not associated with ail hydropower project types and that significant 
progress is being made in modifying project operations to reduce 
impacts. Unfortunately, these qualifications are too often lost in 
strategic energy planning
Comprehensive National Energy Strategy
    In January 1998, DOE began an new national energy planning effort 
called the Comprehensive National Energy Strategy (CNES) (DOE 1998). 
CNES goals are to:
    <bullet>  improve system-wide energy efficiencies,
    <bullet>  ensure against energy disruptions,
    <bullet>  promote energy production/use compatible with health and 
environmental values, expand future energy choices, and
    <bullet>  cooperate on international energy issues.
    In the draft CNES report, only one hydropower-related strategy was 
listed under the goal of efficiency improvements: increase the 
efficiency of existing Federal hydropower facilities by 2010. There was 
another strategy targeted at providing Federal technical support in 
adopting renewable technologies, but hydropower is not identified. 
Under the goal of promoting healthy and environmentally sound energy 
production, the CNES proposes a strategy of doubling nonhydropower 
renewable electrical generation to a total of 25 GW by 2010. After 
regional hearings were held in February in Dallas, San Francisco, and 
Washington, DC, this latter strategy was expanded to include 
maintaining the viability of existing hydropower sources. However, 
hydropower is not a major part of CNES.
Budget requests
    The fiscal year 1999 Federal budget proposed by the President 
included an increase in DOE's hydropower research allocation to $4 
million for the Advanced Hydropower Turbine System program (Sale et al. 
1997). By May of this year, DOE officials were making public statements 
in support of hydropower R&D, recognizing that reductions in the 
existing hydropower base will have serious environmental and economic 
impacts on the nation. Unfortunately, final outcome of future budgets 
rests in the hands of Congress, where support for all Kyoto-related 
initiatives is not strong.
Current Carbon Reduction Contributions from Hydropower
    Hydropower is already making significant contributions to 
mitigating U.S. carbon emissions, because it is essentially GHG-free 
and produces approximately 8 percent of all domestically produced 
electricity. In 1995, conventional hydropower capacity in the U.S. was 
78,480 MW and hydroelectric generation totaled 310 billion kWh (EIA 
1996b). The average carbon intensity factor (carbon emitted per kWh, 
expressed as gmC/kWh) for domestic electrical production is 160 gm 
carbon per kWh. Using this average carbon intensity value, hydropower 
offset 50 MtC/yr. This contribution could be increased by more than So 
percent, if new hydropower could be developed.
Alternatives for new hydroelectricity
    There are four different approaches to increase hydroelectric 
production in the U.S.:
    <bullet>  make improvements at existing Federal and non-federal 
hydropower projects,
    <bullet>  construct new powerplants at existing dams that currently 
have no hydropower generation capabilities,
    <bullet>  reduce the generation losses that are occurring in the 
relicensing of non-federal projects, and
    <bullet>  construct new projects at new dams or diversions
    The environmental effects of these different approaches range from 
zero to potentially significant. The first two that involve existing 
dams have little or no adverse environmental effects, because dam 
construction, which has the biggest effect on the environment, has 
already occurred (Railsback et al. 1991). The adverse environmental 
effects of relicensing losses would likely also be minimal, because 
only minor impacts would be allowed through the extensive FERC 
relicensing process. Impacts from construction of new projects would be 
very site-specific, but there are a large number of acceptable sites 
that remain undeveloped (Rinehart et al. 1997).
New capacity/energy and carbon reduction potential
    Based on the best available hydropower resource assessments, 
hydropower can provide up to 67,000 GWh of clean energy production by 
the year 2010 (Table 1) and significantly more soon thereafter. The 
majority of this new development on the near term would be efficiency 
upgrades and new powerplants at existing dams (Figure 2). Note that the 
CNES is calling for a total of all non-hydropower renewables of 25 GW 
by 2010. New hydropower could exceed that total even without tapping 
into sites where new dams diversions would be required.

    Table 1: Potential new capacity, generation, and carbon emission avoidance from future hydropower of all
                                               development types.
----------------------------------------------------------------------------------------------------------------
                                                                                                      Carbon
                                                                                   Generation (G     Emission
                              Year                                 Capacity (GW)        Wh)          Reduction
                                                                                                       (MtC)
----------------------------------------------------------------------------------------------------------------
2010............................................................              18          67,000              11
2020............................................................              33         133,000              22
2030............................................................              60         180,000              30
----------------------------------------------------------------------------------------------------------------

Carbon emission reductions
    The amount of carbon emission reduction that new hydropower could 
be credited with depends on the carbon intensity factor for displaced 
energy sources, which will be changing over time. The ``business-as-
usual'' reference case forecast by the Energy Information Agency (EIA) 
predicts an increase in this carbon intensity factor, from 160 gmC/kWh 
in 1995 to 165 gmC/kWh in 2010 and 167 gmC/kWh in 2020 (EIA 1996b). 
This increase reflects the forecasted decrease in the relative 
contribution of nuclear power, an essentially zero-carbon source of 
electricity. These forecasted carbon intensity factors are used to 
estimate the carbon reduction potential of hydropower shown in Table 1.
    The carbon displacement potential of hydropower could be 
considerably greater, however, if efforts are initiated to decarbonize 
the electricity system. The introduction of a domestic carbon trading 
system or renewables portfolio standards, for instance, could 
precipitate significant shifts away from coal-based electricity 
generation. In such a scenario, increased hydropower could displace 
electricity with much higher than average carbon intensities, thereby 
contributing more significantly to meeting carbon emission reduction 
goals.
Comparison to Other Renewable Energy Technologies
    Hydropower production compares very favorably to other renewable 
energy technologies with respect to production costs and carbon 
emission avoidance potential. In 1995, total electric generation from 
all renewable energy sources was 354,000 GWh, 87 percent of which came 
from conventional hydropower projects.
Cost of production
    As with all energy projects, development costs for hydropower 
project vary significantly, depending on project design and other site-
specific factors. An analysis of 21 new projects that began operation 
in 1993 showed median capital costs of $2,000/kW (project size ranged 
from 125 kW to 32.4 MW). Average operation and maintenance costs for 
these projects was 0.75 cents/kWh, with zero fuel costs. These factors 
translate to a levelized cost of electricity of between 2 and 5 cents/
kWh. The cost of energy production from nonhydropower renewables is 
generally higher than for hydropower, but continuous R&D investments 
are reducing these costs (Table 2).

 Table 2: Range of energy production costs from renewable energy sources that compete with hydropower, assuming
                                  generation company ownership (DOE-EPRI 7997).
                       Comparable hydropower costs currently range from 2 to 5 cents/kWh.
----------------------------------------------------------------------------------------------------------------
                                                                     Levelized Cost of Energy (1997 cents/kWh)
                                                                 -----------------------------------------------
                                                                       1997            2010            1030
----------------------------------------------------------------------------------------------------------------
Biomass\1\......................................................         7.3-8.7         6.1-7.0         5.0-5.8
Geothermal\1\...................................................        3.3-10.9         2.4-8.3         2.0-5.3
Solar Thermal\1\................................................           -17.3          5.2-61         4.2-6.8
Photovoltaics\2\................................................       37.0-51.7        8.1-17.0         5.0-6.2
Wind\2\.........................................................         5.0-6.4         2.5-3.1         2.3-2.8
----------------------------------------------------------------------------------------------------------------
\1\ dispatchable technology
\2\ intermittent technology

Barriers to Hydropower
    It is clear that hydropower has the potential to make significant 
contributions--so why is it being ignored? The reason may be that we 
are still focusing too much on the mistakes of the past and not enough 
on the search for new solutions.
Emphasis on non-hydropower renewables
    There has been and continues to be significant resistance among the 
energy planning community and in Congress to include hydropower among 
the clean-energy, renewable technologies that are favored in the GHG 
reduction initiative. Non-governmental organizations (NGOs), such as 
American Rivers and the Hydropower Reform Coalition (HRC) have been 
very effective in Washington in emphasizing hydropower's problems (e.g. 
see American Rivers message at URL address: 
www.amrivers.orgirunriver.html). Advocates of competing renewable 
energy sources have also been successful in telling positive stories 
about their technologies, often to the detriment of hydropower. The 
specific ONES goal for ``non-hydropower renewables'' is a reflection of 
these messages. Another major study of the development costs of 
renewable energy sources ignored hydropower completely (DOE and EPRI 
1997).
Environmental challenges and regulatory overhead
    It is a fact that hydropower development in the past has had 
unexpected and unacceptable environmental impacts (e.g., Mattice 1991). 
In addition to the environmental challenges that hydropower faces 
nonfederal hydropower development carries a regulatory overhead that is 
exceeded only by the nuclear power industry Legislation such as the 
Electric Consumers Protection Act of 1986 and subsequent Judicial 
interpretations have created a gauntlet of regulatory processes that 
allow an extraordinary number of review processes to condition 
hydropower development
Conclusions and Recommendations
    The hydropower industry continues to be faced with both challenges 
and opportunities. Action is needed to generate congressional 
understanding and support for the important role that hydropower can 
play in future energy needs. A strong, environmentally oriented R&C) 
program is also essential to hydropower's future.
Congressional support and collaborative actions
    Everyone with an interest in hydropower should be making their 
presence known to their congressional representatives. Progress is 
definitely being made here, with the leadership of the National 
Hydropower Association and others. However, the positive aspects of 
hydropower must be heard more clearly.
    Collaborative efforts with the environmental NGOs is also 
important. For example, the HRC is talking about implementing some type 
of ``seal of approval'' so that clean (i.e., environmentally 
acceptable) hydropower can be included among desirable renewables. 
There is a very real opportunity for joint development of renewable 
portfolio standards that can ensure hydropower's future, and it should 
be pursed jointly. The World Conservation Union and World Bank are 
forming a World Commission on Dams that has a similar mandate to 
identify widely accepted standards, guidelines and criteria for water 
projects.
Research and development
    On June 26, 1997, President Clinton proposed that ``the way to 
simultaneously meet the twin goals of reducing GHG and growing the 
economy was to invest more in the technologies of the future''. The 
hydropower industry must work hard to ensure that it is among those 
future technologies. Hydropower R&D that is aimed at making existing 
technology more compatible with the environment is essential if 
hydropower is to be a contributor to GHG reduction goals. Such efforts 
are truly a win-win situation, because they will allow the correction 
of past problems and allow for additional GHG-free energy production in 
the future.
                               references
  Energy Information Agency (EIA), Annual Energy Outlook 1996. U.S. 
    Department of Energy, Washington, DC, December 1996a.

  Energy Information Agency (EIA), Annual Energy Outlook 1997 U.S. 
    Department of Energy, Washington, DC, December 1996b.

  Hakes, J. Testimony before the House Committee on Science, Energy 
    Information Administration, Washington, DC, Feb. 4, 1998.

  Interlaboratory Working Group (IWG), Scenarios of U.S. Carbon 
    Reductions Potential Impacts of Energy Technologies by 2010 and 
    Beyond, LBNL-40533 and ORNL-444. Oak Ridge National Laboratory, Oak 
    Ridge, TN, September 1997. (URL address: www.ornl.gov/ORNL/Energy--
    Eff/CON444)

  National Laboratory Directors (NLD) 1997. Technology opportunities to 
    reduce U.S. greenhouse gas emissions, October. (URL address: 
    www.ornl.gov/climate--change/climate. htm)

  Mattice, J.S., Ecological effects of hydropower facilities, Chap. 8, 
    in J.S. Gulliver and R.E.A. Arndt (eds.), Hydropower Engineering 
    Handbook, McGraw Hill, Inc., New York, MY, 1991.

  President's Committee of Advisors on Science and Technology 
    (PCAST),Federal Energy RED for the Challenges of the 21 Century, 
    Office of Science and Technology Policy, Washington, DC, 1997.

  Railsback, S.F., G.F. Cada, C.H. Petrich, M.J. Sale, J.A. Shaakir-
    Ali, J.A. Watts, and J.W. Webb. Environmental impacts of increased 
    hydroelectric development at existing dams. ORNL/TM-11673, Oak 
    Ridge National Laboratory, Oak Ridge, TN. 1991.

  Rinehart, B.E., J.E. Francfort, G.L. Sommers, G.F. Cads, and M.J. 
    Sale, DOE Hydropower Program Biennial Report, DOE/ID-10510, June 
    1997. (URL address: water.inel.gov/national/hydropower/state/
    stateres.htm)

  Sale, M.J., G.F. Cada, B.E. Rinehart, G.L. Sommers, and P.A.M. 
    Brookshier. 1997. A progress report on DOE's Advanced Hydropower 
    Turbine Systems Program. Proceedings, Fish Protection Workshop, 
    Electric Power Research Institute, Milwaukee, WI, May 6-8, 1997.

  Sale, M.J., and D. Neuman, ``Hydro's Role in Curbing Greenhouse Gas 
    Emissions,'' Hydro Review XVII(1): 28-29, February 1998.

  U.S. Department of Energy (DOE), Comprehensive National Energy 
    Strategy, U.S. Department of Energy, Washington, DC, 1998. (URL 
    address: www.eren.doe.gov/new.html)

  U.S. Department of Energy (DOE) and Electric Power Research Institute 
    (EPRI), Renewable Energy Technology Characterizations, EPRI Tech. 
    Report blot TR-109496, Palo Alto, CA, December 1997 (URL address: 
    http://www.eren.doe.gov/utilities/techchar.html)

  U.S. Department of Interior (DOI) and the U.S. Agency for 
    International Development (AID), Hydropower's Environmental and 
    Social Consequences, including Potential for Reducing Greenhouse 
    Gases, unpublished report to Kyoto participants, 1997.
                                authors
    Michael J. Sale, Ph.D. is a staff member in the Environmental 
Sciences Division of Oak Midge National Laboratory, where he manages 
research projects, including the environmental components of DOE's 
Hydropower Program. Dr. Sale also leads assessment projects for the 
Federal Energy Regulatory Commission.
    Marilyn A Brown, Ph.D. is Associate Director of the Energy 
Efficiency and Renewable Energy Program at Oak Ridge National 
Laboratory. Dr. Brown co-led the Slab study on carbon reduction 
scenarios and was a principal analyst on the 1 I-lab study of climate 
technology opportunities.
                                 ______
                                 
     Hydropower's Contribution to Carbon Dioxide Emission Reduction
 (By James E. Francfort, Idaho National Engineering and Environmental 
                       Laboratory, November 1997)
    The annual carbon dioxide emissions currently avoided by the use of 
hydropower in electricity generation is 142 million metric tons, and it 
has a carbon tax value of $7.1 billion. Developing the identified 
additional hydropower capacity can yield an additional 34 million tons 
annually of avoided carbon dioxide emissions, with a value of $1.7 
billion in carbon taxes (Table 1). The total annual avoided emissions 
can exceed 176 million metric tons, with value of $8.8 billion.

 Table 1. Hydropower's contribution to avoiding carbon dioxide emissions
------------------------------------------------------------------------
                                      Avoided annual
                                      carbon dioxide    Potential carbon
                                    emissions (metric      tax value
                                          tons)
------------------------------------------------------------------------
Current annual generation.........        141,986,065     $7,099,303,225
Identified additional generation..         34,598,376     $1,729,915,796
                                   -------------------------------------
    Total annual contribution.....        176,584,441     $8,$39,222,021
------------------------------------------------------------------------

Current Annual Hydropower Generation--Avoided Emissions
    Hydropower, by the nature of its fuel source (water) and the non-
combustion way in which it captures and converts the energy of falling 
water into electrical energy via the water turbine and generator set, 
lowers the amount of carbon dioxide emitted during the production of 
electricity The annual reduction in carbon dioxide emissions can be 
calculated as follows:

  Converting the pounds of carbon dioxide per million Btu (Table 2) 
    into the pounds per kilowatt-hour (kWh) value by multiplying Table 
    2 by the Btu per kWh (Table 3) and dividing by 1 million to convert 
    to emission pounds per Btu instead of per million Btu:

    207.7 x 10,296 / 1,000,000 = 2.14 pounds of emissions per kWh

  Multiplying 2.14 by the average annual hydropower kWh energy (Table 
    4), divided by 7,000 to convert to tons and multiply by 0.9718 to 
    convert to metric tons:

    2.14 x 278,816,144,000 / 2000 x 0.90718 = 270,449,647 metric tons

  It is assumed that only 52.5 percent of the hydropower is replacing 
    coal generation, given that coal comprises 52.5 percent of the 
    electric generation in the United States (Table 5), so the metric 
    tons is multiplied by 52.5 percent:

    270,449,647 x 0.525 = 141,986,065 metric tons of carbon dioxide 
            emissions annually omitted by hydropower generation in the 
            United States.

  Given the S50 per acetic ton carbon tax, the hydropower emissions has 
    a value of $7.1 billion:

    141,986,065 x 550--$7,099,303,225
Potential Additional Avoided Hydropower Generation--Emissions Avoided
    DOE has identified the potential hydropower capacity that can be 
developed given the various environmental, legal, and institutional 
development constraints as totaling 34,470 MW of capacity (Table 6). 
Various state natural resource, water quality, and environmental 
quality departments have provided input to this modeling process. 
Because 93 percent of these identified sites with undeveloped capacity 
are sites the: already have either existing generation or at minimum a 
dam with no current generation, the addition of new capacity avoid 
occur at sites with current infrastructure development. Given the need 
to minimize carbon emissions and the absence of environmental types of 
constraints at these sites with undeveloped potential, a very high 
percentage of these sires can be successfully developed in the near 
term if their value in decreasing emissions is fully considered. For 
analysis purposes, it is assumed that only So-so of this capacity would 
be developed.
    To convert the undeveloped capacity to kWh, tulle following 
equation is employed:

    34,470 x 1,000 (convert to kWh) x 24 (hours) x 365 (days) x 0.45 
            (plant factor) x 0.50 (percent developed) = 67,940,370,000 
            kWh.

    The 67.9 billion kWh can now be used to calculate the avoided tons 
of carbon dioxide emissions using the same calculations used above to 
calculate the current annual emissions avoided:

    67,940,370,000 x 207.7 x 10,296 / 1,000,000 / 2,000 x 0.525 x 
            0.90718 = 34,598,376 metric tons

    To find the carbon tax value of the avoided emissions multiply by 
$50:

    34,598,376 x $50 $1,729,918,796

   Table 2. Average Carbon Dioxide Emission Factors for Coal by Coal-
                            Consuming Sector
             EIA, Annual Energy Review (July 1996), Table C1
------------------------------------------------------------------------
                                                   Electric Utilities--
                                                     Pounds of Carbon
                      Year                       Dioxide per Million Btu
 
------------------------------------------------------------------------
1990...........................................                    207.6
1991...........................................                    207.7
1992...........................................                    207.7
1993...........................................                    207.8
1994...........................................                    207.9
                                                ------------------------
    Average....................................                    207.7
------------------------------------------------------------------------


             Table 3. Approximate heat rates for electricity
         EIA, Annual Energy Review 1995, (July 1996) Table A7\1\
------------------------------------------------------------------------
                                                   Fossil-Fueld Steam-
                      Year                         Electric Plants (Btu
                                                   per Killowatt-hour)
------------------------------------------------------------------------
1991...........................................                   10,352
1992...........................................                   10,302
1993...........................................                   10,280
1994...........................................                   10,272
1995...........................................                   10,272
                                                ------------------------
    Average....................................                   10,296
------------------------------------------------------------------------
\1\Fossil fuel defined as petroleum, coal, and natural gas.


             Table 4. Conventional hydroelectric generation
            EIA, Electric Power Monthly, March 1997, Table 5
------------------------------------------------------------------------
                                                               Thousand
                            Year                              Kilowatt-
                                                                Hours
------------------------------------------------------------------------
1990.......................................................  283,433,659
1991.......................................................  280,060,621
1992.......................................................  243,736,029
1993.......................................................  269,098,329
1994.......................................................  247,070,938
1995.......................................................  296,377,840
1996.......................................................  331,935,594
                                                            ------------
    Average................................................  278,816,144
------------------------------------------------------------------------


                    Table 5. Electric Utilities and nonutility power producers net generation
----------------------------------------------------------------------------------------------------------------
                                                                                       Coal
                              Year                                Net Generation    Generation     Percent from
                                                                   (billion kWh)   (billion kWh)       coal
----------------------------------------------------------------------------------------------------------------
1992............................................................         3,083.4         1,621.1           52.6%
1993............................................................         3,196.9         1,690.0           52.9%
1994............................................................         3,253.8         1,691.6           52.0%
                                                                 -----------------------------------------------
    Average.....................................................         3,178.0         1,667.6           52.5%
----------------------------------------------------------------------------------------------------------------


                   Table 6. Estimate of undeveloped hydropower resources in the United States
                              Includes 50 States. Does not include U.S. Territories
----------------------------------------------------------------------------------------------------------------
                                                                               FERC                   Percent of
                           Status                              Number of     database     DOE/HES      original
                                                                 sites         (MW)      study (MW)    estimate
----------------------------------------------------------------------------------------------------------------
49 States--sites with power.................................          361        5,850        3,499        59.9%
49 States--sites without power..............................        2,395       29,006       17,527        60.4%
49 States--sites undeveloped................................        2,398       26,710        9,617        36.0%
Idaho--all sites............................................          360        7,685        3,827        49.8%
                                                             ---------------------------------------------------
    Totals..................................................        5,514       69,251       34,470        49.8%
----------------------------------------------------------------------------------------------------------------

                               __________
   Statement of Colonel Eric Mogren, Deputy Commander, Northwestern 
                    Division Army Corps of Engineers
    Good morning, Senator, committee members, and distinguished guests, 
I am Colonel Eric Mogren, Deputy Commander of the Northwestern Division 
of the US Army Corps of Engineers. I appreciate the opportunity to 
testify today on topics of interest to all of us in the Pacific 
Northwest who have devoted much energy and resources to preservation 
and restoration efforts for declining stocks of salmon and steelhead.
    My testimony addresses avian predation and turbine passage 
improvements, topics within the Corps' scope from among those listed in 
your agenda for today's hearing.
    The topic of avian predation on juvenile salmonids in the Columbia 
River Estuary is of particular interest to the Corps. Recent research 
has indicated that colonies of Caspian terns, gulls, and cormorants in 
the estuary are consuming salmon and steelhead smolts as the young fish 
make their way to the ocean.
    Caspian terns nesting on Rice Island are protected by the Migratory 
Bird Treaty Act. Our efforts must focus on finding a balance so we can 
provide suitable habitat within which both terns and salmonids can 
survive and prosper. Protection of the terns has been a concern raised 
to us by the Audubon Society, the Pacific Seabird Group, and the 
American Bird Conservancy.
    Many populations of salmon and steelhead in the Pacific Northwest 
are in serious trouble, with several listed as threatened or endangered 
under the Endangered Species Act. Extensive effort by the Corps and 
other federal, state, tribal and private entities in the region have 
shown some positive results, but more effort is needed. The region has 
invested many millions of dollars over several decades to save this 
important resource.
    Rice Island was created in 1962 by placement of dredged material. 
It is located 21 miles upstream of the mouth of the Columbia River. 
Over the years, it has become a nesting site for thousands of gulls, 
cormorants, and since 1387, Caspian terns. Rapid increases in Caspian 
tern nesting colonies were noted in the early 1990's.
    Due to concerns about avian predation on the young salmon as they 
moved through the estuary, National Marine Fisheries Service' (NMFS) 
Biological Opinions on salmon and the hydropower system included a 
request for the Corps to evaluate avian predation in the Columbia River 
system. We contracted for this work with some very capable researchers, 
including Doctor Daniel Roby of Oregon State University, who is also 
here today to testify. And largely through your efforts, Senator, 
language in the 1996 Water Resources Development Act also recognized a 
potential need for research and development activities related to 
``estuary and near? ocean juvenile and adult salmon survival.''
    Results from the 1997 field research season alerted the region that 
avian predation may significantly affect juvenile salmonid survival in 
the estuary. It was estimated that Rice Island supported the largest 
known Caspian tern colony in North America, with over 16,000 birds in 
1997. Preliminary research results from 1998 indicate that the colony 
has grown again by approximately 25 percent to 20,000 birds. Further, 
it was estimated that these birds in 1997 consumed from 6 to 25 million 
juvenile salmonids annually. This estimate is supported by two other 
research activities we funded: juvenile fish radio tracking studies; 
and the reading of passive-integrated-transponder, or PIT tags, found 
on Rice Island that had been inserted into the juvenile fish at upriver 
facilities. However, available science cannot yet tell us the impact of 
the level of predation on the recovery of listed salmon.
    In a March 24, 1998 letter, NMFS requested that the Corps ``take 
action at implementing a short-term remedy to minimize predation on the 
1998 [salmonid] outmigrants.'' In response, a Caspian Tern Working 
Group has been established that includes the Corps, NMFS, University 
researchers, Columbia River Inter-Tribal Fish Commission, Oregon and 
Washington Departments of Fish and Wildlife, Bonneville Power 
Administration, and US Fish and Wildlife Service.
    This group has identified a potential near term plan to attempt to 
relocate the Caspian tern colony from Rice Island to East Sand Island, 
an island approximately 16 miles downstream from Rice Island. East Sand 
Island is where the birds first settled when they came to the Columbia 
River Estuary in 1384. Research on cormorants supports assumptions that 
terns that feed downstream from Rice Island may eat fewer salmonids and 
more of other fish species. In addition, studies of cormorants from 
Rice Island versus East Sand Island also indicate that the East Sand 
Island birds consume fewer juvenile salmonids as a portion of their 
diet.
    To move the birds, several actions are planned before the start of 
the 1999 nesting season. Habitat on East Sand Island will be developed 
that is attractive to the terns. Because the birds nest on bare sand, 
the island will be scarified to remove vegetation and debris. Decoys 
and calls will be used to attract the birds to East Sand Island.
    The birds will be dissuaded from settling on Rice Island by 
alternatives such as habitat alteration, to be accomplished by seeding 
with wheat, grasses and legumes: and/or non-lethal disturbance of the 
birds to disrupt nesting and feeding patterns. A monitoring program 
will be implemented to assess effects on the terns and to verify 
reduced salmonid predation.
    Environmental documentation in compliance with the National 
Environmental Policy Act, or NEPA, will be completed prior to 
implementation of this plan. The Corps is drafting an environmental 
assessment under NEPA to address these actions. We are also preparing 
to implement habitat development on East Sand Island, and establish 
vegetation on Rice Island to help dissuade the birds from nesting on 
these islands.
    The plan is not without controversy. The birds have their 
supporters as do the salmon. I believe the proposed plan balances these 
concerns, but we will see what responses we receive when we issue the 
environmental assessment toward the end of this month.
    I have been working with the other Federal officials, namely, Will 
Stelle from NMFS and Ann Badgley from Fish and Wildlife Service, to 
share the responsibility for this issue. While this is a multi-agency 
effort involving some of the best experts in the field, there is no 
guarantee that this near term plan is scientifically supportable at 
this time, or that the plan will be fully successful. This attests to 
the need for a combined agency approach to a long-term solution to this 
problem.
    I would like to address now the topic of safer turbine passage for 
juvenile fish. While juvenile fish bypass systems, increased spillway 
passage, and truck and barge transport for juvenile fish have greatly 
improved juvenile fish passage at the Corps' eight lower Columbia and 
Snake river dams, a percentage of fish continue to pass the dams 
through turbines. The survival rate for turbine passage is estimated at 
between 89 and 94 percent. While this may seem to be a good survival 
rate, it diminishes considerably when multiplied by passage through as 
many as eight dams.
    The Corps currently has a turbine passage improvements program 
under way as part of its Columbia River Fish Mitigation (CRFM) project. 
This turbine program developed from a Turbine Passage Survival workshop 
we held in 1995 to discuss with experts the possible mechanisms 
affecting survival of juveniles through turbines. At that time, we were 
in the process of rehabilitating the turbines at Bonneville Dam First 
powerhouse; Voith is our primary contractor.
    An idea that developed that is now incorporated into the design of 
the Bonneville Dam rehabilitation is the concept of minimum gap 
runners. It is believed that this design change will result in improved 
juvenile survival. We will have the first units available in 1999 for 
testing of this concept.
    In addition, in 1997 we initiated a Turbine Passage Survival 
Program under CRFM. This is a 4-year program to identify potential 
areas of injury to fish in turbine passage and to design better 
turbines to reduce this injury. Our plan includes model studies and, if 
warranted, the field testing of prototypes. We have recently released 
an annual report that addresses the direction of this program. Under 
the constrained fiscal year 1999 appropriation to CRFM, some of the 
turbine studies program activities may not be funded. In coordination 
with regional interests, we are presently determining which actions 
will be able to continue in fiscal year 1999.
    Thank you for the opportunity to participate in today's hearing. I 
will be happy to answer any questions you may have.
                               __________
 Statement of Danny Consenstein, Columbia Basin Coordinator, National 
            Marine Fisheries Service, Department of Commerce
    Mr. Chairman, members of the committee, thank you for the 
opportunity to testify before you today on Columbia and Snake River 
salmon recovery. My name is Danny Consenstein, and I am the Columbia 
Basin Coordinator for the National Marine Fisheries Service.
    I would like to discuss our efforts to protect and recover 
imperiled salmon and steelhead stocks throughout the Columbia Basin. 
The species that have been listed or proposed for listing as threatened 
or endangered under the Endangered Species Act have affected almost 
every watershed in the Basin. The salmon's life cycle is complex and 
its migration vast in changing ocean conditions. Hundreds of human 
activities have destroyed salmon habitat and brought salmon populations 
to the brink of extinction: timber harvest, farming, mining, irrigation 
and water development, road-building, urbanization, damming, dredging, 
hydropower operations, fishing, fish hatcheries--the list is quite 
long.
    Viable recovery strategies must tackle all aspects of the salmon 
life cycle and look carefully at the ecological requirements of diverse 
species. We believe that a basin-wide plan can be developed in the 
region to restore healthy salmon runs while maintaining a strong, 
healthy economy in the Pacific Northwest. We are committed to using the 
best available science and a comprehensive approach. There are no quick 
fixes, no silver bullets.--I would like to briefly describe actions we 
are taking to restore these threatened stocks in the areas of 1) 
harvest management, 2) hatchery reforms, 3) habitat protection, and 4) 
improvements to the hydropower system. I would also like to describe 
ways we are trying to reduce predation in the river, in the estuary, 
and in the ocean.
Harvest
    Commercial, recreational, and tribal treaty fisheries have been 
substantially restricted. In decades past, harvest rates on hatchery 
and wild stocks often ranged from 60 to 95 percent. For example, for 
Snake River stocks, the total fishing mortalities for spring/summer 
chinook have been limited to 510 percent for the past 15-20 years, and 
are not considered a significant impediment to recovery. Fall chinook 
harvest mortalities for both ocean and in-river fisheries have been 
reduced by 30 percent or more from pre-listing rates. For steelhead, 
recreational harvest is limited to marked hatchery fish only, and 
tribal fishing this year has been reduced from the 32 percent rate 
allowed under the Columbia River Fish Management Plan to a 10-15 
percent rate on B-run (late-run) steelhead.
Hatcheries
    Because of these ESA listings, we have proposed hatchery reforms 
that focus on the status of natural populations. Federal agencies have 
consistently advocated use of locally adapted broods. In the future, we 
may advocate more aggressive use of hatcheries in areas where the risks 
of extinction are highest in the near term, such as captive broodstock 
programs similar to that for Snake River sockeye. After a broad 
assessment of the sub-regions of the Basin, priorities could be set 
about where supplementation would be used, and not used, based on the 
relative likelihood of successfully restoring and sustaining naturally 
reproducing populations. Federal fishery agencies also recognize that 
hatchery practices must also support our trust responsibilities to 
Indian tribes and congressionally-mandated mitigation programs.
Habitat
    In the tributaries, land and water management actions, including 
water withdrawals, unscreened water diversions, stream channelization, 
road construction, timber harvest, livestock grazing, mining, and 
outdoor recreation have degraded important salmon spawning and rearing 
habitats. On Federal lands, the Northwest Forest Plan provides 
significant protection for salmon habitat on the west side of the 
Cascades. East of the Cascades, the Federal agencies have been working 
with local communities through the Interior Columbia Basin Ecosystem 
Management Project planning process to protect Federal lands. To 
protect non-federal lands, NMFS has promoted a variety of activities. 
We completed a major Habitat Conservation Plan with the Washington 
Department of Natural Resources protecting over a million acres of 
state-owned land in Washington State. We are coordinating with the 
Natural Resource Conservation Service to ensure their guidance to 
farmers includes measures to protect salmon habitat. We are 
coordinating with the Farm Service Agency to ensure that Conservation 
Reserve Enhancement Program dollars benefit salmon and improve water 
quality.
Hydropower System
    To improve conditions in the mainstem Columbia and Snake Rivers, 
the NMFS 1995 Biological Opinion on the operation of the Federal 
Columbia River Power System calls for an interim policy of ``spread the 
risk.'' Inriver migration conditions are being improved using 
techniques such as increased spills over the projects, increased flows, 
physical improvements to the dams, and aggressive surface bypass 
development and testing. The system for transporting migrating 
juveniles is also being improved to reduce mortalities. These interim 
improvements have had the result of raising survival rates of juvenile 
spring/summer chinook salmon through the hydra system to Bonneville Dam 
in the 1990's to a level that is roughly double the low-point in the 
1970's. Improvements to inriver migration and transportation are being 
actively monitored and evaluated to provide empirical data to inform 
the recommendations that will be made in 1999 about the Federal 
hydropower system. Additional research is also being conducted on the 
relationship of water flows through the system to the survival of 
juvenile salmon.
Predation
    The 1995 Draft Proposed Recovery Plan for Snake River Salmon called 
for actions to control predation in the migration corridor by northern 
pikeminnow (squawfish) and other native fish in the reservoirs, marine 
mammals, and birds. I would like to describe our ongoing efforts in the 
areas of predation by fish and marine mammals, and our recent actions 
to address predation.
            Avian
    Recent studies indicate that rapidly increasing populations of 
colonial nesting water birds living in the Columbia River Estuary may 
be having impacts on listed salmon and steelhead. We expect continuing 
research will be conducted to evaluate the extent and effect of that 
predation. NMFS believes that a short-term strategy for reducing avian 
predation should be developed immediately and completed for the 1999 
out-migration season.
    Large nesting colonies of Caspian terns and double-crested 
cormorants, along with thousands of nesting gulls, have become 
established on manmade islands in the Columbia River estuary. The 
islands resulted from the U. S. Army Corps of Engineers dredging of the 
navigation channel. Bird numbers have increased from a few hundred 
nesting pairs of cormorants in 1984, to 7,000 pairs of cormorants, 
8,000 pairs of ferns and 10,000 pairs of large gulls in 1997. Estimates 
for 1998 indicate continuing increases in numbers of pisciverous birds.
    The U.S. Fish and Wildlife Service (USFWS) is the principal agency 
charged under Federal treaties with the conservation and protection of 
migratory birds. The Corps of Engineers has constructed the islands, 
pile dikes and channel markers where the birds nest and launch their 
fishing forays. The Oregon Division of State Lands controls the 
tidelands and the islands built of dredge material. The Oregon 
Department of Fish and Wildlife (ODFW) and the Washington Department of 
Fish and Wildlife have responsibilities for both the fish and the birds 
in the boundary area of the estuary. NMFS has the ESA responsibility 
and the sustainable fishery responsibility for anadromous fish in the 
Columbia River. Oregon State University and the Columbia River 
Intertribal Fish Commission are conducting the research. Federal and 
state agencies have formed a Caspian Tern Working Group to investigate 
this issue and help identify needed research and responsible options to 
address potential impacts.
    In the reservoirs, the northern pikeminnow management program is 
designed to test the hypothesis that predation by northern pikeminnow 
on juvenile salmon can be reduced by 50 percent by imposing a 10-20 
percent exploitation rate on pikeminnow over 11 inches in length. The 
Management Program was initiated in 1990 in John Day Reservoir, 
expanded in 1991 to include the mainstem of the Columbia from the mouth 
to Priest Rapids Dam and the Snake River from the mouth to Hells Canyon 
Dam. Various fisheries have been implemented to accomplish the 10-20 
percent exploitation rate including sport-reward, trap-net, longline, 
set-net, and dam-angling fisheries. The sport reward fishery has been 
the most successful. Management of fisheries in the Columbia and Snake 
Rivers has been shown to be effective at removing large northern 
pikeminnow with over 1.4 million removed (11.3 percent exploitation 
rate) since 1990. Losses of juvenile salmonids to predation by northern 
pikeminnow are estimated to have decreased to 61 percent of pre-program 
levels as a direct result of program implementation. However, the 
proportion of total pisciverous predation on salmonids attributable to 
the pikeminnow is not known and will vary by river reach, species, and 
stock.
            Marine Mammals
    The principal marine mammal species affecting salmon on the west 
coast are the increasing populations of Pacific harbor seals and 
California sea lions (collectively called ``pinnipeds''). NMFS has 
monitored these populations and documented a dramatic increase over the 
past 20 years (5-7 percent annual increase) concurrent with increased 
interactions with fisheries and conflicts with other resources. NMFS 
has conducted a number of studies on pinniped interactions, but, where 
specific conflicts have been identified, management actions are limited 
because pinnipeds are protected under Federal law by the Marine Mammal 
Protection Act (MMPA). Some of the current efforts underway to assess 
and address pinniped problems in the Columbia River and upcoming 
recommendations to Congress on potential changes to the MMPA to address 
pinniped problems are described below.
    NMFS is currently collecting data on the extent of harbor seal 
predation on salmon in the lower Columbia River as part of a NMFS 
cooperative coastwide program with the States to determine impacts of 
the increasing pinniped populations on ESA listed salmon and west coast 
ecosystems. Results of the first year of this program will be available 
in April 1999.
    At the Willamette Falls, NMFS is conducting a cooperative program 
with ODFW to address the annual occurrence of a few California sea 
lions below the falls preying on spring chinook and steelhead. Sea lion 
predation has been monitored over the past 3 years and several efforts 
have occurred to reduce predation including placement of barriers in 
one fishway entrance (that passes fish but not sea lions) to keep sea 
lions out of the fish ladder, and use of rubber bullets and 
firecrackers to deter sea lions from the fishway areas. A floating trap 
was placed near the fishway this past spring in an attempt to capture 
the sea lions, but none were caught this year.
    NMFS is assisting ODFW in a program to mark and track California 
sea lions in the Columbia River in order to determine their foraging 
habits and movements in the river, and to identify the specific animals 
that are causing problems at the Willamette Falls and other interaction 
sites. Over 100 sea lions have been captured on a trap in Astoria and 
branded over the past 2 years.
    Pursuant to the 1994 amendments to the MMPA, NMFS has developed 
recommendations to Congress on addressing the problems with increasing 
pinniped populations. Last year, NMFS put out a draft report for public 
comment on recommendations which include lethal removal of pinnipeds in 
specific situations where the pinnipeds are affecting ESA listed 
salmon. Over 3,000 comments were received on the draft, many of which 
were from groups opposed to any takings of pinnipeds regardless of the 
impacts pinnipeds may be having on listed salmonids. The final report 
will be submitted to Congress in 1999 (probably in January) when 
Congress begins considering reauthorization of the MMPA.
Ocean and Estuarine Research
    NMFS's Northwest Fisheries Science Center is conducting research to 
provide more information on what happens to salmon during the ocean/
estuary phase of their life cycle. In looking at the ecology of the 
ocean and the estuary, the studies will focus on how interactions with 
other species affect the growth, distribution and health of individual 
salmon in the oceans.
    It is important to remember that when we see predation problems, we 
see an ecosystem that is out of balance. If an ecosystem has been 
dramatically altered by human activities, we need to seek opportunities 
to protect and restore the natural processes that keep predator and 
prey species in proper balance.
    NMFS is committed to using the best available science to develop a 
multi-species, basin-wide recovery plan for salmon and steelhead in the 
Columbia Basin. We look forward to working together with the states, 
tribes, and other stakeholders in the region to complete this plan by 
the end of next year. Thank you again for the opportunity to present 
the views of the National Marine Fisheries Service. I would be pleased 
to answer any questions you may have about my testimony.
                               __________
  Statement of the American Bird Conservancy, Submitted by Gerald A. 
                   Winegrad Vice President for Policy
 caspian terns and other piscivorous birds in the columbia river basin
    Thank you for the opportunity to submit this statement concerning 
salmon recovery in the Columbia and Snake Rivers and avian predation on 
salmon smolts. I would like to state at the beginning that because of 
extremely high mortality from natural and human caused sources to 
smolts, no one can scientifically validate any decline adult 
populations of salmon due to Caspian terns. Throughout history, fish-
eating birds have been blamed for declines in fisheries with virtually 
no credible evidence that birds are responsible for the declines of any 
fish populations. American Bird Conservancy is a national conservation 
organization dedicated to the conservation of avian species. We have a 
73-member organization Policy Council that includes such organizations 
as the National Audubon Society, Pacific Seabird Group Environmental 
Defense Fund World Wildlife Fund, and the Cornell Laboratory of 
Ornithology. Many of our member groups are concerned with current 
actions and attitudes that make piscivorous birds the scapegoats for 
declining fish populations across the nation. As fish stocks decline 
throughout the U.S. and its 200 mile EEZ, incidents and efforts to kill 
and harass such species as Double-crested Cormorants, Great Egrets, and 
Caspian terns are growing. In July, 1998 nearly one thousand Double-
crested Cormorants were illegally shot-gunned in their nests on Little 
Galloo Island In Lake Ontario. Colonies of nesting Egrets have been 
illegally bull-dozed in Texas, and the U.S. Fish and Wildlife Service 
has issued its first depredation order in 25 years allowing 
aquaculturists in 13 states to shoot double-crested Cormorants without 
permits.
    The Caspian tern (Sterna caspia) is a large, stocky tern whose 
populations throughout North America were drastically reduced by 
feather hunting at the turn of the century. Caspian tern populations 
may just now be recovering from that severe perturbation. Caspian terns 
are long-lived, with band returns indicating that some have lived to at 
least 26 years of age. The Rice Island colony of 10,000 adult pairs is 
the largest in North America and possibly the largest colony in the 
world. It represents about 25 percent of the North American population 
of the tern and is the only known colony of its kind along the Oregon 
and Washington coasts. Tern habitat elsewhere in the region, such as at 
Grays Harbor, WA and Everett, WA, has been destroyed or managed to 
eradicate terns. In the written testimony of Dr. Dan Roby, he states at 
page 3 that ``. . . Rice Island represents one of the few, if not the 
only, suitable nesting habitat for this species along the coast of the 
Pacific Northwest. This megacolony has coalesced at Rice island because 
there are few options.'' Also nesting on Rice Island are large colonies 
of Double-crested Cormorants (Phalacrocorax auritus) and Glaucous-
winged/Western Gulls hybrids (Larus glaucescens XL. occidentalis). 
Terns and other migratory birds in the Columbia River have historically 
consumed salmon smolts as a natural part of their diet. The testimony 
and statements submitted at the hearing on this issue clearly 
established that the preliminary research indicates that the salmon 
portion of the Caspian terns diet consists of 90 percent hatchery fish 
and 10 percent wild fish. This is apparently because hatchery reared 
fish are more susceptible to predation than wild fish because of 
hatchery rearing practices that condition young salmon to forage at the 
surface and otherwise weaken predator avoidance behaviors. The barging 
of these smolt greatly decreases the time that they would normally 
enter the area around Rice Island and possibly leads to their being 
more susceptible to all avian predators. We suggest that the focus of 
planners and wildlife managers in the Columbia River system should be 
on the recovery of endangered and threatened wild salmon stocks. These 
wild salmon smolt are a small part of the diet of Caspian terns.
    Yes, Caspian terns eat salmon smolt while nesting on Rice Island. 
But there is no credible scientific evidence as to how this affects 
adult salmon populations. This point was made at the hearing. The 
testimony by Dr. Dan Roby indicated that preliminary research found 
that Caspian terns consume an estimated 6 to 25 million smolts. 
However, this range is a rough estimate with ``real uncertainty. 
Results were based on a very small sample. Further, only the first year 
of this 3-year study has been completed and researchers have stated 
that at least 3 years of data will be needed to accurately measure 
avian predation on juvenile salmon. We suggest that sound management 
decisions should await the completion of the study and that moving the 
world's largest Caspian tern colony is premature. Dr. Roby mentioned in 
his testimony the necessity of these further studies on avian 
predation. Even if the figure of million smolt is accepted, this is 
only 3 percent of the total of about 200 million smolt (hatchery 
released and wild) in the Columbia River system. Of these 200 million 
smolt, only 100 million reach the estuary because of natural mortality 
and human caused mortality. For example, 56 to 70 percent of Snake 
River chinook smolt die prior to reaching the estuary. Passage of smolt 
through hydro turbines kills from 6 percent to 15 percent of the fish 
going through the turbines. There are 13 main stem dams on the Columbia 
River and Stony more throughout the Columbia-Snake system. If there 
were no birds earing salmon smolt, human induced and natural mortality 
of juvenile salmonids would still be over 99 percent.
    Fish-eating birds have co-existed with their prey species for many 
thousands of years while both birds and fish flourished. The key 
difference now is that human activities have greatly impaired the 
ability of migratory salmon to survive. 1 he Columbia River system has 
been greatly altered by human activities. Dams, including the 13 major 
mains earn Columbia River dams. block spawning and change water flows 
and temperature rehinges. As Danny Consenstein of NMFS testified at the 
hearing, there has been a significant degradation of critical salmon 
spawning and rearing habitat. He pointed out that logging, grazing and 
mining plus stream channelization and road construction have all 
destroyed or impaired habitat. (See his written statement submitted at 
the hearing). Riparian areas have been degraded, damaging how spawning, 
rearing, and feeding habitat through siltation and temperature change. 
Irrigation and other water consumption can also affect salmon. Many 
adult salmon are still harvested in the Columbia and from the open 
seas. The hatchery rearing and release program may be causing long-term 
genetic problems for wild salmon stocks as well as malting them more 
susceptible to predators and disease and reducing available food. 
Simply changing barging practices and release methods may greatly 
reduce Caspian tern predation on salmon smolt. Of course, it is easier 
to focus on the Caspian terns and their dispersal from Rice Island than 
to tackle these other problems. But as a number of witnesses mentioned 
at the hearing, the recovery of salmon in the Columbia River/Snake 
River system is dependent on resolving the FOUR H's: HYDRO, HABITAT, 
HARVEST, and HATCHERIES. No one at the hearing suggested that predation 
be added to this list nor is there any scientific basis for doing so.
    In a October 1, 1998 story in the Portland Oregonian (the same 
edition in which an editorial called the Caspian terns ``salmon 
munching devils''), the paper reported on a new study by a panel of 
``four leading scientists'' that concluded that breaching few 
hydroelectric dams on the lower Snake River would be a ``dramatically 
better'' way to save spring chinook salmon runs than the current 
practice of barging salmon around the dams. lye panel concluded that 
breaching all four federally owned dams should provide a 79 percent 
chance'' of restoring dwindling salmon populations within 48 years--
``more than twice the chances of recovery than if barging were 
increased.'' The odds of recovery would be just 40 percent if river 
operations remain unchanged, according to the panel. Harvest of adult 
stocks of salmon and steelhead continues. Harvest rates in past decades 
took up to 95 percent of the adults. Today, 10 percent of Snake River 
spring/summer chinook are harvested and up to 15 percent of the B-run 
steelhead adults are still harvested in the Columbia River. Riparian 
areas throughout the Columbia and Snake River have been deforested and 
stripped of vegetation by grazing. Rather than focusing on Caspian 
terns eating juvenile salmon, shouldn't the focus be on dams, restoring 
and protecting habitat, changing hatchery practices, and restricting 
harvests. Removing or translocating all the fish-eating birds from Rice 
Island--the Caspian terns, Doublecrested Cormorants, and Hybrid Gulls--
may appear to some to be a meaningful step in salmon recovery. But 
again, there is no evidence that such an effort will result in any 
population increase in adult salmon, especially in wild salmon stocks. 
Only by addressing all of the causes for the decline of salmonids can 
coho, chinook, steelhead and sockeye populations be restored. For 
example, primary management actions need to be implemented immediately 
that improve fish hatchery techniques and release. Unless and until a 
comprehensive approach is adopted and implemented that addresses dams, 
habitat degradation and loss, harvest, and hatchery breeding and 
release, salmon species will not recover.
    ABC is concerned that decisions have been made on the trans-
location of the Caspian tern colony from Rice Island before the 
completion of the Environmental Assessment and the required public 
comment period. Therefore, the comments of scientists and these of us 
in the conservation community will be meaningless since the panel at 
the hearing guaranteed the chairman that the colony of Caspian terns 
would be moved prior to nesting in 1999. Such a decision is premature 
and renders the comment period on the ESA meaningless. Any possibility 
of change based on public comments appears to have been ruled out. Such 
an action in moving 25 percent of the population of an avian species 
appears to warrant and require an Environmental Impact Statement under 
NEPA. We can endorse experimental work to enhance habitat so that some 
Caspian terns might select nest sites on East Sand Island. However, we 
object to any actions such as harassment and habitat alteration on Rice 
Island unless and until it is clearly established that the Caspian 
terns will move and breed successfully elsewhere. Testimony at the 
hearing indicated that it is uncertain that such a move will result in 
less predation as terns are opportunistic feeders and can forage as far 
as Rice Island from East Sand Island.
    We urge the Subcommittee to support additional research to 
accurately determine the impact of avian predation on salmon recovery 
and the susceptibility of salmon to avian predation. The research 
should evaluate: hatchery rearing practices which increase smolt 
vulnerability to predation, the amount of hatchery fish as compared to 
wild fish consumed; potential effects of tern colony translocation on 
smolt consumption and bird foraging behaviors; and the assumption that 
fish lost to bird predation would have survived to migrate to the ocean 
and return as adults. The U.S. Fish and Wildlife Service has been 
involved with long-term, intensive cormorant control programs in Maine. 
These efforts have failed to reverse the declining trends of adult 
Atlantic salmon returns. These ineffective measures underscore the need 
for additional research and information to determine whether avian 
predation is a factor that needs addressing in the salmon recovery 
efforts in the Columbia River. Otherwise, hundreds of thousands of 
dollars of public funds will be wasted on relocating Caspian terns win 
no discernible increase in adult salmon populations. We agree with the 
U.S. Fish and Wildlife Service, ``Embarking on a long term strategy to 
address avian predation without this knowledge would be premature and 
would run the risk of wasting public Finds and significantly disrupting 
a unique population of migratory birds unnecessarily.''

                                   - 

</pre></body></html>
